<html>
<title> - COMMITTEE ON APPROPRIATIONS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                    ___________________________________

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  ROBERT B. ADERHOLT, Alabama			MICHAEL M. HONDA, California
  JOHN R. CARTER, Texas				CHAKA FATTAH, Pennsylvania
  JAIME HERRERA BEUTLER, Washington		JOSE E. SERRANO, New York
  MARTHA ROBY, Alabama				DEREK KILMER, Washington
  DAVID W. JOLLY, Florida
  STEVEN M. PALAZZO, Mississippi

  
NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                     ___________________________________

                                  PART 6

                                                                   Page
  Department of Justice.................
                                                                      1
  Federal Bureau of Investigation.......
                                                                     49
  Drug Enforcement Administration.......
                                                                     93

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                

		___________________________________

          Printed for the use of the Committee on Appropriations






PART 6_COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2017


  
  
  
  
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

_______________________________________________________________________

                                 HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              SECOND SESSION

                  ___________________________________

     SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  ROBERT B. ADERHOLT, Alabama
  JOHN R. CARTER, Texas
  JAIME HERRERA BEUTLER, Washington
  MARTHA ROBY, Alabama
  DAVID W. JOLLY, Florida
  STEVEN M. PALAZZO, Mississippi

  MICHAEL M. HONDA, California
  CHAKA FATTAH, Pennsylvania
  JOSE E. SERRANO, New York
  DEREK KILMER, Washington

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                        ___________________________________

                                  PART 6

                                                                   Page
  Department of Justice.................
                                                                      1
  Federal Bureau of Investigation.......
                                                                     49
  Drug Enforcement Administration.......
                                                                     93

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               

                     ___________________________________

          Printed for the use of the Committee on Appropriations

                      ___________________________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  20-680                    WASHINGTON : 2016


 
                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey		NITA M. LOWEY, New York	
  ROBERT B. ADERHOLT, Alabama			MARCY KAPTUR, Ohio
  KAY GRANGER, Texas				PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho			JOSE E. SERRANO, New York		
  JOHN ABNEY CULBERSON, Texas			ROSA L. DeLAURO, Connecticut		
  ANDER CRENSHAW, Florida			DAVID E. PRICE, North Carolina
  JOHN R. CARTER, Texas				LUCILLE ROYBAL-ALLARD, California
  KEN CALVERT, California			SAM FARR, California
  TOM COLE, Oklahoma				CHAKA FATTAH, Pennsylvania
  MARIO DIAZ-BALART, Florida			SANFORD D. BISHOP, Jr., Georgia
  CHARLES W. DENT, Pennsylvania			BARBARA LEE, California
  TOM GRAVES, Georgia			        MICHAEL M. HONDA, California
  KEVIN YODER, Kansas				BETTY McCOLLUM, Minnesota
  STEVE WOMACK, Arkansas			STEVE ISRAEL, New York
  JEFF FORTENBERRY, Nebraska			TIM RYAN, Ohio
  THOMAS J. ROONEY, Florida			C. A. DUTCH RUPPERSBERGER, Maryland
  CHARLES J. FLEISCHMANN, Tennessee		DEBBIE WASSERMAN SCHULTZ, Florida
  JAIME HERRERA BEUTLER, Washington		HENRY CUELLAR, Texas
  DAVID P. JOYCE, Ohio				CHELLIE PINGREE, Maine
  DAVID G. VALADAO, California			MIKE QUIGLEY, Illinois
  ANDY HARRIS, Maryland			        DEREK KILMER, Washington

  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

                  William E. Smith, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2017

                              ----------                              

                                      Wednesday, February 24, 2016.

                         DEPARTMENT OF JUSTICE

                                WITNESS

HON. LORETTA LYNCH, ATTORNEY GENERAL, U.S. DEPARTMENT OF JUSTICE
    Mr. Culberson. The Appropriations Subcommittee for 
Commerce, Justice and Science will come to order. It is a 
privilege to have you with us here today, Attorney General 
Lynch, for our first hearing together with me as the new 
chairman and you as the new Attorney General. We deeply 
appreciate your service to the country and for all of us as 
Americans who depend on the good work that you and your 
officers and every law enforcement officer at the state and 
local level do, we want to thank you. As America's chief law 
enforcement officer we are counting on you to keep us safe, to 
ensure that the laws are enforced as written by Congress. We 
are just immensely grateful for the sacrifice that you and 
everyone that wears the uniform make on behalf of our great 
country.
    We in this fiscal year 2017 will be working to ensure that 
the Department of Justice has the resources that it needs to do 
its job in not only enforcing our laws as written by Congress 
but to combat cyber crime, gangs, terrorism, human trafficking, 
and espionage.
    Of course our Subcommittee has the responsibility to ensure 
that our constituents' hard-earned tax dollars are spent wisely 
and frugally and in compliance with Federal law as written by 
Congress. And we are confident that the relationship that you 
and I and your staff have already developed, that we are moving 
in the right direction, which I deeply appreciate. And we will 
find ways to continue that cooperation in ensuring that the 
money that is the hard earned money that our constituents pay 
to the IRS and the Federal government is used to keep our 
streets safe and is spent wisely and frugally.
    It is very important, and we know you as the new Attorney 
General will do all you can to ensure that we do not hear that 
any of our hard-earned tax dollars are spent for lavish 
parties, unnecessary expenses, or unauthorized activities. And 
in our hearing today and in the weeks and months to come 
throughout the remainder of President Obama's term in office I 
know you will work to convince this committee that the 
Department of Justice is working to diligently enforce federal 
law and spend our hard earned tax dollars wisely and frugally 
to protect us. And even those federal laws that the 
administration wants to change, but does not have congressional 
support to change, that is an important part of this. It is our 
responsibility as good stewards of our constituents' dollars.
    I would like to hear in particular today how your 
Department is protecting Americans' second amendment rights, 
ensuring that State and local governments are not refusing to 
cooperate with the Department of Human Security and releasing 
violent alien criminals into communities. And as the new 
chairman of this Subcommittee the rule is that if a Federal 
agency or a State or local government expects to receive 
federal money they have to comply with Federal law. And I am 
delighted with the letter you sent me. It looks like we are on 
the same page. I am very, very pleased to hear that.
    We also want to talk about what the Department of Justice 
is doing to combat cyber crime and espionage, and above all 
protecting the United States from terrorism.
    I look forward to working with you throughout the year as 
the appropriations process moves forward and before I proceed I 
would like to recognize our Ranking Member Mr. Honda from 
California for any remarks he would like to make.
    Mr. Honda. Thank you, Mr. Chairman. And I would also like 
to thank you for your leadership and fostering really a 
collegial and open atmosphere amongst the members of our 
Subcommittee. And I would also like to welcome to our 
Subcommittee Attorney General Lynch and thank you for coming 
here to testify today.
    As our nation's chief law enforcement officer we are all 
grateful to you for your service to our country and your 
commitment to upholding the rule of law. We also especially 
thank you for the thousands of hardworking men and women at the 
Department of Justice who are working around the clock to keep 
us safe.
    I look forward to building upon last year's successes by 
putting together a strong CJS appropriations bill that supports 
the mission of our law enforcement agencies in protecting the 
American people, especially the most vulnerable among us in 
those communities that have been neglected in the past.
    I am pleased that the President's budget provides for a 
healthy increase for what has been a relatively stagnant 
Department of Justice budget over the past few fiscal years. 
This year's request includes desperately needed resources for 
the law enforcement at the federal, State, and local levels to 
help keep up in combating new and evolving threats to the 
American people. It also provides resources to those in 
distress, such as victims of sexual assault and human 
trafficking, as well as tribal crime victims.
    I think we all agree that the mission of the department is 
critical to our country and that it is vitally important that 
the Department of Justice has the resources it needs to 
effectively enforce our nation's laws.
    With that, I want to thank you again for joining us this 
morning. I look forward to hearing your testimony and responses 
to questions from the members of our subcommittee. Mr. 
Chairman.
    Mr. Culberson. Thank you, Mr. Honda. Madam Attorney 
General, you are recognized for your opening statement and, 
without objection, your written statement will be entered into 
the record in its entirety. And if we could I would encourage 
you to keep your statement to five minutes to summarize and 
that will give us additional time for questions. But again, 
welcome. We look forward to hearing your opening statement. And 
we will proceed. Thank you.
    Attorney General Lynch. Thank you so much, Mr. Chairman. 
Good morning, and also good morning and thank you also to 
Ranking Member Honda, all the distinguished members of the 
committee, the hard working staff. It is an honor to appear 
before you today.
    I am grateful for this opportunity to discuss the 
President's fiscal year 2017 budget for the Department of 
Justice, which reflects our enduring commitment to creating the 
stronger nation and the more empowered communities that every 
American deserves.
    In the last year thanks to the thousands of dedicated men 
and women who serve the Department of Justice, and thanks to 
the ongoing support of this distinguished committee, we have 
taken tremendous steps toward that goal. We have prosecuted 
violent extremists and dangerous criminals. We have defended 
the integrity of our markets and the beauty of our natural 
resources. We have also worked to end human trafficking, to 
disrupt the flow of illegal drugs and weapons, and to eradicate 
international corruption. And we have created new opportunities 
for second chances in our justice system and new foundations of 
trust in our cities and towns. These are real and meaningful 
achievements and the request set forth in the President's 2017 
budget request will allow us to build upon this encouraging 
progress.
    Now as always, the Department of Justice's first priority 
is the safety and the security of the American people. The 
President's Budget would invest an additional $781 million in 
our national security capabilities, including in critical 
measures to address evolving challenges like homegrown 
extremism, online radicalization, and increasingly 
sophisticated encryption. Among other items that request 
contains funds for a new state of the art FBI headquarters 
which would reduce inefficiencies and streamline internal 
communications and also significantly boost our ability to 
thwart emerging criminal and terrorist threats. It devotes an 
increase of $63 million to reinforcing our intelligence sharing 
capabilities. This would allow us to more rapidly coordinate 
with both our Federal partners and our counterparts overseas 
and it directs $38 million towards developing the tools that we 
need to lawfully access encrypted data and communications so 
that we can successfully investigate and prosecute criminals 
and terrorists who attempt to hide the evidence of their 
crimes.
    Now as we have seen recently this is not a theoretical 
issue. As we have made clear the going dark problem is a very 
real threat to law enforcement's mission to protect public 
safety and ensure that criminals are caught and held 
accountable.
    It is a long standing principle in our justice system that 
if an independent judge finds reason to believe that a certain 
item contains evidence of a crime then that judge and authorize 
the government to conduct a limited search for that evidence. 
If the government needs the assistance of third parties to 
ensure that the search is actually conducted, judges all over 
the country and on the Supreme Court have said that those 
parties must assist if it is reasonably within their power to 
do so. And that is what we have been asking. And we owe it to 
the victims and to the public whose safety we must protect to 
ensure that we have done everything under the law to fully 
investigate terrorist attacks on American soil.
    Now as technology continues to evolve we are also focused 
on stepping up our work against those who attempt to use the 
internet to attack America's infrastructure, to steal trade 
secrets, and to jeopardize the privacy and the property of 
everyday citizens. Accordingly the fiscal year 2017 budget 
would dedicate $121 million in additional resources to 
investigating cyber crimes and fortifying the Justice 
Department's vital information networks. The majority of those 
resources, $85 million, will be used to enhance the FBI's 
ability and capacity to collect and analyze digital evidence 
and to increase the overall number of cyber investigations. 
Together this important funding will allow us to keep pace with 
the fast changing landscape of cyber crime.
    Now our commitment to protecting the American people is 
matched by our dedication to ensuring that they benefit from a 
criminal justice system that is fair, efficient, and 
responsive. The fiscal year 2017 budget requests an increase of 
$247 million for one of our most successful and groundbreaking 
undertakings in that area, the Smart on Crime initiative, which 
encourages alternatives to incarceration for low level non-
violent offenders, eases overcrowding in correctional 
facilities, and frees precious resources for the prevention and 
deterrence of the most serious crimes. Of that total Smart on 
Crime request, $184 million will go to the Bureau of Prison's 
reentry, rehabilitation, and mental health programming, which 
are all essential components of our work to help formerly 
incarcerated individuals make the most of their second chance 
while ensuring that our communities are strong and safe.
    Those are the kind of communities that we seek for every 
American and they require bonds of trust and respect between 
law enforcement officers and the people we serve. Helping to 
repair those bonds where they have frayed is one of my top 
priorities as Attorney General and the President's request 
reflects that focus with an increase of $25 million in a number 
of programs designed to foster collaboration between residents 
and law enforcement, including racial reconciliation and 
restorative justice initiatives as well as improved data 
collection. It includes additional funds for the department's 
smart policing program, which encourages local jurisdictions to 
improve police-citizen interactions while developing cost 
effective solutions to crime in their communities. And it 
enlarges our investment in the community oriented policing 
services hiring program, which extends funding to State and 
local departments to hire or retain officers so that they can 
continue to meet the full range of their constituents' needs.
    Those of us who work in law enforcement have a special 
responsibility to protect the most vulnerable among us and few 
crimes prey more savagely on the vulnerable than human 
trafficking, which destroys families, weakens communities, and 
erodes our society's basic foundations of decency and security. 
The fiscal year 2017 budget sets aside $89.3 million for the 
department's efforts to combat this scourge, including $45 
million for efforts to help victims of trafficking rebuild 
their lives and reclaim their futures. We are also resolved 
that each and every one of our young people should grow up in 
safety and security, which is why the budget includes a net 
increase of over $64 million for Office of Justice program 
grants focused on juvenile justice and at risk youth, including 
an increase of $25 million for the Delinquency Prevention 
Program which seeks to prevent young people from entering the 
criminal justice system by providing assistance and guidance as 
early as possible.
    Mr. Chairman, Ranking Member, I look forward to working 
with this committee and with Congress to secure the timely 
passage of the President's budget which asks for a total of $29 
billion in discretionary funding for the department, including 
$27 billion for federal programs and $2 billion for state, 
local, and tribal assistance programs. This level of funding 
will ensure that the outstanding men and women of the 
Department of Justice, whom I am so proud to lead, can continue 
their tireless work to protect Americans citizens, to defend 
America's values, and strengthen America's communities in the 
days and months ahead.
    I thank you once again for the opportunity to appear before 
you today and I am happy to answer any questions. Thank you, 
Mr. Chairman, and Mr. Ranking Member.

                             GUANTANAMO BAY

    Mr. Culberson. Thank you very much. Madam Attorney General, 
there has been a lot of concern expressed by our constituents 
and citizens across the country about a proposal just released 
yesterday that the Department of Defense released to close the 
military detention facility at the U.S. Naval Station in 
Guantanamo Bay that at present holds 91 detainees. And as you 
know the fiscal year 2016 appropriations act for the Department 
of Justice includes two very specific provisions that prohibit 
funds from being used to transfer or release or assist in the 
transfer of detainees to and that prohibits the Department of 
Justice from acquiring, building, or modifying any facility in 
the U.S. or its territories to house those detainees. And I 
just wanted to ask, make sure that, to reassure the country and 
the Congress, would you agree that the Federal government is 
prohibited from establishing such facilities and from 
transferring Guantanamo detainees into the United States or its 
territories?
    Attorney General Lynch. Thank you, Mr. Chairman. Certainly 
that is the state of the law most recently passed in the NDAA 
and certainly as it respects the Department's appropriations. 
We also do not participate in any efforts to do so.
    I believe the President's plan reflects the 
administration's ongoing goal to close Guantanamo Bay because 
of the ongoing problems it causes our country, particularly 
abroad, as a terrorist recruiting center. And certainly in our 
national security work we do see the effects of that. The 
administration is committed to closing that and of course we 
support those efforts.
    I would note that the administration is committed to 
working with Congress to make that happen. And certainly in 
light of the current statutory framework we anticipate that 
that is what will occur. So if there is any request of the 
Department in connection with that effort, of course we would 
be happy to help in that regard.
    Mr. Culberson. But obviously you will not take any action 
of any kind to assist in the transfer of Guantanamo detainees 
into the United States until Congress changes the law?
    Attorney General Lynch. Well certainly we would be 
prohibited from doing so.
    Mr. Culberson. Right.
    Attorney General Lynch. I am not aware of any efforts to do 
so at this time in any event.

                       EXECUTIVE ACTIONS ON GUNS

    Mr. Culberson. Thank you very much. In January the Obama 
administration announced a new executive action dealing with 
Americans' right to keep and bear arms, and that is a source of 
great concern to Americans across the country. Certainly the 
Second Amendment is an absolute right guaranteed to all 
Americans and as the subcommittee chairman it is highly 
important that I will do everything in my power to ensure that 
that right to keep and bear arms is protected. I was 
particularly concerned with the guidance on firearms and on 
licensing that was published as a part of this executive 
action. And it is, I wanted to ask in particular if the 
guidance, will in any way impact or affect hobbyists who may 
engage in just ordinary lawful transfers?
    Attorney General Lynch. Well thank you for the question, 
Mr. Chairman. I agree with you that it is a very important 
issue and worthy of debate.
    The guidance recently published by ATF, which is going to 
be distributed at gun shows and to individuals who have 
questions about whether or not they are required to obtain a 
license to sell firearms, is designed to gather existing law in 
one place in a clear, easily understandable version of the 
various court cases that have opined on this issue. Individuals 
who have those questions who routinely come to ATF, either the 
ATF booths at gun shows or frankly even by calling ATF 
headquarters, will know, will be able to have at their 
fingertips an outline of what the current law requires. And of 
course the current law does contain the exception if one is a 
hobbyist or a collector you are not engaged in the business of 
dealing in firearms.
    Mr. Culberson. Right.
    Attorney General Lynch. And a license is not required for 
those types of transfers. Similarly if one is a family member 
and given a gift, again, a license is not required for those 
types of transfers.
    Mr. Culberson. Terrific. That is what I am aiming at. I 
just want to reassure people that are listening today that they 
know that if you are a hobbyist, and you are transferring a gun 
to a family member as a part of an inheritance, for example, or 
a gift, if you are a hobbyist or a collector you do not need to 
worry about this new guidance. Is that what you are telling 
Americans?
    Attorney General Lynch. That is correct. And what I would 
encourage people to do is to look at the guidance. Because what 
we have tried to do is have clear examples of the typical 
situations where activities fall within the category of being 
engaged in the business, and also where they typically fall in 
the category of a hobbyist transfer, a collector's transfer. 
And I think people will see in those examples the types of 
everyday activities that are typically not covered by the law 
that requires them to get a license and that will distinguish 
them from those individuals who are engaged in the business.
    Mr. Culberson. So for Americans listening today they need 
to know that if they are, unless they are engaged in the 
regular buying and selling of firearms for a profit as a part 
of their daily life, that is what they do as a part of their 
living, obviously those folks need to have a license. But 
otherwise, you are not targeting or going after individual 
Americans' right to keep and bear arms, or transfer them to 
family members, or buy and sell them casually or occasionally. 
They are not on your radar screen?
    Attorney General Lynch. Well what I would say is that while 
that is generally the case, there are situations where the 
courts, in reviewing the statute, have found that even the sale 
of a few weapons, even if it is not someone's everyday 
livelihood, if there is other factors, they hold themselves 
out, they have a business card, for example, they may go to not 
even a gun show but even a flea market, the courts have held 
that the individuals in those situations can be considered as 
being engaged in the business. And so our concern is that, 
again as I noted, a number of people do reach out to ATF for 
guidance in this. These are generally individuals who want to 
comply with the law. And we felt that it would be helpful to 
provide them with clear examples of situations where the courts 
have found that individuals with certain activities are engaged 
in the business of dealing in firearms and provide the 
assistance to help them gain a license if they want to continue 
making certain types of sales. The number of guns is not the 
only factor. And in fact, it need not be someone whose only job 
or only source of economic income is the selling of firearms, 
because the courts have found that also.
    We also felt that as much as I enjoy being a lawyer, we 
should not impose that on everyone else to seek out these cases 
and do the research and try and find on their own what the 
courts have said about these particular situations. And so we 
felt that it would be useful, frankly and in response to 
requests, to gather this information in one, clear, easily 
understandable format.
    Mr. Culberson. Well I appreciate the response I got back 
from the Director of the ATF, and I know it went through your 
office as well. But it is just important to reassure average 
Americans that they can relax and there is no need to be 
concerned unless you are doing this to make a profit on a 
regular basis. That is very important I think for all of us. I 
deeply appreciate your answer and I recognize Mr. Honda. Thank 
you.

                       SEXUAL ASSAULT KIT BACKLOG

    Mr. Honda. Thank you, Mr. Chairman. Last year dealt with 
sexual assault kit testing and today there are estimated over 
400,000 untested rape kits still collecting dust in the 
evidence room of law enforcement crime labs across this 
country. We have the technology and the means to process these 
samples. But we must provide adequate resources, funding, and 
collaborative efforts to ensure that the testing actually 
occurs to reduce the existing rape kit backlogs. The fiscal 
year 2016 omnibus included $45 million for reducing the sexual 
assault kit backlog nationwide. Now this is in addition to $41 
million included in fiscal year 2015. In the President's fiscal 
year 2017 budget request included another $41 million for the 
program. So are there any best practices that have come out of 
this work so far? And could you share with us the communities 
that are implementing these policies and their progress?
    Attorney General Lynch. Well, thank you for that, 
Congressman, and thank you for your commitment to this 
important issue as well. You certainly are correct in noting 
that the current budget request includes $41 million for a 
community grant program to ensure the resolution of these 
sexual assault cases to get these kits tested. And these are in 
fact kits that have never been submitted to crime labs. And the 
numbers across the country are literally staggering, 10,000 in 
some cities, 11,000 in other cities. And these of course 
represent victims. They represent individual women who have 
suffered one of the most heinous crimes that we can.
    With respect to this we have in fact funded the different 
laboratories who are working with a DNA related forensic 
program to reduce the backlog also. And so we are looking to 
enhance that capacity and that capability. Since 2009 we have 
been working with this effort and the labs who are funded by 
our DNA capacity enhancement and backlog reduction program have 
processed almost half a million cases, over 550,000 cases. As a 
result of just this work alone over a quarter of a million 
cases, about 240,000 cases, have been uploaded to CODIS and we 
have gotten almost 100,000 hits so far, 92,000 hits. Meaning we 
have connected information from the rape kit with someone 
already in the system. This has allowed us to close numerous 
cases. While I do not have those figures for you, certainly it 
has allowed us to close cases and do further investigations.
    When we announced the recent grant last September I was 
privileged to be in New York with the Vice President at the New 
York forensic laboratory announcing that in conjunction with 
the Manhattan District Attorney Cy Vance. At the same time we 
received communication from other district attorneys across the 
country that money that the federal government had provided and 
also money that the Manhattan DA's Office had provided was 
allowing them to close open rape cases and provide comfort to 
those victims who were living without knowing whether they 
would ever find justice.
    Mr. Honda. Thank you. And as we proceed it would be very 
informative for us to know the progress that is being made and 
its impact on our system. Because as you said, if they are 
untested then we have victims and perpetrators who are being 
denied our justice system's process. So it will be very 
important if we could kept up to date on the progress of that.
    Attorney General Lynch. Yes, sir. And we will do that.

                             TRIBAL JUSTICE

    Mr. Honda. Thank you. On parts of tribal justice and 
victims of crimes, Native Americans are two and a half times 
more likely to experience violent crimes than other Americans, 
yet tribes have not been receiving necessary funds from the 
Crime Victims Fund. Between 2010 and 2014 only 16 states passed 
through money to tribal victims totaling 0.5 percent, or one 
half of one percent, of available CVF funds. The Department's 
fiscal year 2017 request for the Office of Justice programs, 
that request of $25 million to support tribal assistance for 
victims of violence from the Crime Victims Fund. Could you 
describe the ways in which you anticipate this funding will 
help provide tribal members with crime victim services that 
they really need?
    Attorney General Lynch. Yes. Thank you for the opportunity 
to talk about this important work that the Department of 
Justice is involved in. We take our obligations in Indian 
Country very seriously. As you know we have a trust 
relationship with tribal nations, and that is a special 
obligation and a special bond. And in fact it is a commitment 
that we look forward to living up to and enhancing.
    As you note, Congressman, we are requesting $25 million for 
the Crime Victims Fund for tribal assistance. I would simply 
note that the other funding requests that connect with our 
obligations to work with our tribal partners the Office of 
Justice Programs request of $71 million as part of a flexible 
tribal grant set aside program. And also the COPS program, 
community oriented policing, request of $3 million that will 
support the Tribal Access Program. Because we have found that 
it is very helpful if tribal law enforcement has the same 
access to the NICS system and computerized crime information as 
other law enforcement agencies, as well as money for the 
Environmental Natural Resources Division to address 
environmental problems in Indian Country, and money for the 
Office of Tribal Justice.
    For the crime victims in particular we are focused on the 
victims of violent crime in Indian Country who tend to be 
statistically more often women and children, particularly 
sexual assault victims. And unfortunately that includes 
children as well. So funds will go toward creating programs for 
counseling these survivors as well as enhancing tribal justice 
to ensure that their perpetrators are caught. As I am sure that 
these members are aware, two years ago in the Violence Against 
Women Act, an amendment to that Act allowed tribal nations for 
the first time to have jurisdiction over non-Indian 
perpetrators of violence against Indian women on the 
reservation. This had been a gap that prevented justice for a 
number of victims. This year we are also including grant money 
to help tribal law enforcement agencies and tribal courts with 
their court programs to actually focus on prosecuting those 
cases as well. So it is our hope and our intent to deal with 
the issue of victims of crime on Indian land, both with a view 
toward focusing on dealing with victim trauma, particularly 
that of children, and also strengthening the tribal justice 
systems that allow for prosecution of those crimes on the 
actual reservation.
    Mr. Honda. So Mr. Chairman, the sexual assault kit testing 
issue is there an issue there in Indian Country? And are the 
programs and the fundings that we are making available, are 
they also available to the tribal, Indian Country?
    Attorney General Lynch. Yes, indeed.
    Mr. Honda. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Honda. Mr. Jolly?
    Mr. Jolly. Thank you, Mr. Chairman and Ms. Lynch.
    Attorney General Lynch. Good morning.

                           EQUITABLE SHARING

    Mr. Jolly. Thank you. My apologies for, I was delayed on 
the floor. I apologize. I missed part of your opening 
statement. A couple of questions this morning. I work very 
closely with our local law enforcement leadership back in 
Pinellas County, Florida. And as I think many members of this 
panel and other members of Congress heard regarding the asset 
forfeiture program when the memo went out in December 
essentially announcing a suspension of reimbursement of some of 
the DAG's request. Obviously that created a lot of concern and 
consternation among local law enforcement. I am aware of the 
rescission request that had come up, some of the additional 
rescissions that had come through as well that led to that 
decision. But my understanding--and we had a very constructive 
meeting with your senior leadership on this about a month ago--
is that the Department anticipates renewing the equitable 
sharing of the asset forfeiture program sometime in the few 
coming months. Could you comment on your perspective on where 
that is and the anticipation of when it might be restarted?
    Attorney General Lynch. Yes. Thank you, Congressman. And 
thank you for the opportunity to address this issue. Because it 
has been one of great concern to our State and local 
colleagues, and also to those of us in the Department of 
Justice who rely upon them so heavily for the important work 
that they do in our task forces. If you look at the task forces 
throughout the Department of Justice law enforcement agencies 
they are 50 to sometimes 60 percent local law enforcement 
because they have the best information and we have found it to 
be an incredibly helpful partnership and one that has saved 
lives and built cases.
    When the rescissions were applied to the Department late 
last year of an amount greater than I think had been 
anticipated, certainly the $1.2 billion was larger than we had 
anticipated or ever received before, we were forced to 
temporarily suspend those payments. I have been in contact with 
the leaders of the law enforcement groups, including police as 
well as the national sheriffs groups, to discuss the situation 
with them and advise them, as I am happy to advise you, that 
this is a temporary deferral of payments. We anticipate that 
through the course of our work over the year that the Asset 
Forfeiture Fund will be able to be replenished to an amount 
where we can resume those payments. We had initially promised 
our law enforcement partners an update about a month after the 
action, so I spoke with them at the end of January. We have 
promised to update them also on a monthly basis and a promise I 
think to update this body by mid-March as well.
    We essentially are looking at the fund to make sure that as 
we look at the obligations that it sustains to the victims, 
etcetera, that we have the ability to start those payments. But 
it is our intent and we have in fact made the request of our 
law enforcement partners to remain in the task forces and to 
continue submitting their requests to us so that we can process 
them as funds are available. And we have noted and we have also 
made sure that they are aware that even though the equitable 
sharing payments are temporarily deferred, what is called the 
JLEO, the joint law enforcement operation payments, have not 
been. Because so much of that money goes to support the 
incredible amounts of overtime and the equipment that they use 
in supporting these joint efforts. And so we are essentially 
prioritizing those so that in the immediate term they will be 
able to cover those expenses. But we have asked them to 
continue, and I have received commitments from many of them 
that they will continue working with us.
    Mr. Jolly. And I appreciate that answer and I suppose just 
for the record, and I do want to work constructively with you 
on this and your team. But I think there is a little bit of 
disagreement on how we got there because, yes, the rescission 
was larger than anticipated. But as you are aware there is the 
anticipated settlement of roughly $900 million coming into the 
fund. This Committee also provided flexibility as to when your 
Department could execute the rescission. And while I look 
forward to working in a constructive manner, I do want to make 
sure this Committee stays on top of ensuring it is restarted, 
equitable sharing is restarted. And that some of the decisions 
regarding the accounting of the fund were not made for 
political purposes but in the best judgment of the department. 
Because in the estimation of some on the Committee the 
rescission could have been held off for several months and 
perhaps prevented a delay. Obviously at the end of the day we 
appreciate the partnership, as you have said, between local law 
enforcement and your department. It is critical to many 
communities, including ours, particularly in the area of human 
trafficking which I know has been a priority of yours and I 
thank you for that.

                       SURPLUS MILITARY EQUIPMENT

    I am about out of time. But I would ask just one more 
question. If you could provide your perspective on the 1033 
program? I know it is largely a Department of Defense program 
that shares surplus equipment with local law enforcement. But 
it has been a program that in some ways has been under scrutiny 
from the very top, of the President of the United States on 
down. Could you provide your perspective as the Attorney 
General in terms of the role that surplus equipment provides in 
supporting local law enforcement and leadership, or your 
concerns about it?
    Attorney General Lynch. Well certainly I think that this 
has been a topic of concern and I hope constructive discussion 
over the last year, certainly since I have been in this chair. 
I have had the opportunity to talk about it again with my state 
and local colleagues, as well as my law enforcement officers 
and sheriffs about this issue. And as I am sure the group is 
aware, essentially the administration did issue guidelines on 
the acquisition of surplus DOD equipment using federal funds. 
Of course departments using other funds would not have to deal 
with those particular guidelines. But we hope that they would 
be instructive. And the focus was on making sure that the 
equipment was not only appropriately sourced but that 
appropriate training was provided for the equipment.
    Mr. Jolly. Right.
    Attorney General Lynch. So we see great value and great 
benefit in having that partnership, again where State and local 
law enforcement entities, our police officers, our sheriffs 
departments, can obtain surplus equipment. Certainly it has 
been very effective in specific operations that we can all come 
to mind. It has been very effective, for example, with helping 
ensure the SWAT teams are adequately sourced and resourced. And 
so we want to make sure that, again, the appropriate training 
is set in place and that the equipment is accounted for. So the 
initial review was to determine what types of equipment worked 
best and essentially where federal funds were involved to come 
up with a list that would at least in the administration's view 
continue to meet local law enforcement needs but also deal with 
the issues of perhaps overuse of equipment or use of the 
equipment by departments that were not as well trained as 
others. And where the use of it, rather than being in the sense 
of protecting the community, of SWAT type situations, was used 
in ways that simply inflamed tensions, which was not the intent 
of anyone.
    So I have had an ongoing dialogue, as I noted, with the law 
enforcement groups as well as my sheriffs, about this program. 
And it is our hope that as we work through it they will find 
that they can still obtain the equipment that they need using 
federal funds, our grants for example, and that it can be put 
to good use, good use, effective use, in terms of public safety 
without the intended, the unintended collateral consequences of 
having the more open program that existed before.
    Mr. Jolly. I appreciate that. I know the full committee 
chairman came in. I would just offer for your consideration, 
and I have shared this with folks in the White House as well, 
this is also an interest of mine given my relationship with 
local law enforcement. My approach is pretty simple. I have it 
in legislation that has been introduced. It keeps the 1033 
program in place but does require local law enforcement to 
certify that they have personnel capable or trained on the 
equipment they are receiving. It leaves the decision as to 
which equipment is most appropriate for local law enforcement 
in the hands of local law enforcement but it does require the 
training to ensure that any equipment is operated within the 
means of their mission. I appreciate your comments this 
morning.
    Thank you, Mr. Chairman. I know I am over my time. I yield 
back.
    Mr. Culberson. Thank you, Mr. Jolly. It is my privilege now 
to recognize the former District Attorney from Pulaski and Rock 
County, Kentucky, the gentleman from Kentucky, and chairman of 
the full Committee, Mr. Hal Rogers.
    The Chairman. Thank you very much. Thanks for the 
recognition of a former life. But I enjoyed my, enjoy is not 
the word, I appreciated the time that I served as DA and law 
enforcement.
    Thank you, Madam Attorney General, for being here. Your 
request totals $29.5 billion. That is a 3 percent increase over 
current levels. This committee has a responsibility to 
prioritize the administration of justice and support for our 
men and women in law enforcement. And I believe we can do so 
without spending away our financial integrity.
    Though it highlights some important programs, your budget 
request does not reflect the very real budget constraints that 
we are faced with. And we look forward to working with you to 
meet the challenge that we both face in that regard together.

                    BYRNE JUSTICE ASSISTANCE GRANTS

    That being said, let me specifically mention a couple of 
concerns that I have, especially first I am disappointed that 
you propose to slash Byrne Justice Assistance Grants by $39.6 
million. I have heard from law enforcement people around the 
country about the importance of that very flexible grant 
program to their crime prevention and drug enforcement 
activities. Such a drastic reduction in Federal support will be 
devastating for my state and local partners, particularly as we 
work collaboratively to address the terrible and magnifying 
opioid epidemic facing the country. We are losing 100 people a 
day now to that scourge, epidemic by the CDC's definition.

                  PRESCRIPTION DRUG MONITORING PROGRAM

    And speaking of opioids I am also concerned that you 
propose to cut money from the National Prescription Drug 
Monitoring Program. It may seem insignificant, $1 million, but 
that is nearly eight percent of the funding of that whole 
program. And that is where States are able to catch people who 
are abusing prescriptions. I cannot imagine you would want to 
do any kind of harm to that kind of program. It has been 
extremely successful. Every state has a program except one: 
Missouri. And they are coming along, but boy are they slow. But 
it works. It has reduced prescription abuse in 49 states and 
yet you are trying to shave it away.
    There is still progress to be made. This grant program is, 
I think, part of the solution to the opioid epidemic that is 
facing our country. One hundred families a day are losing a 
member to death. My district at one time was leading the way. I 
hate going to those emergency rooms and seeing a dead young 
teenager with a family surrounding them. But this program is 
critical to stopping just that. I would appreciate you telling 
me what you are going to do about it.
    Now those PDMPs in each State are learning to link up with 
each other. If a person in Kentucky, for example, goes off to 
Tennessee thinking they can defeat the system, Tennessee's PDMP 
picks it up and tells our PDMP we have got a problem. So we are 
getting interoperability, and we are trying to make it now real 
time. It has been days of delay but if we can make it real time 
we have got a real thing going. So I would hope you could help 
us.

                           EQUITABLE SHARING

    I am highly concerned of the Department's suspension of 
equitable sharing payments from the proceeds of the asset 
forfeiture program. Those funds are essential in helping law 
enforcement fight drug trafficking, among other things. The men 
and women working at these State and local agencies are your 
partners, often working side by side with federal agents. And 
DOJ must find a way to restore those payments as soon as 
possible to avoid permanent harm to public safety around the 
country. That one is critical and I cannot believe the action 
of the department in regard to it.

                         MARIJUANA ENFORCEMENT

    I am also troubled by your continued tacit approval of 
marijuana legalization efforts around the county in clear 
violation of Federal law. Four States and our nation's capital 
have legalized recreational use of this drug without any 
Federal response. Casting aside the fact that marijuana is a 
known gateway drug for young people and its long term effects 
on their intellectual development is unknown, the bottom line 
is this. Congress makes the laws of the country. The executive 
branch enforces those laws. You're tasked with enforcing 
Federal law as our nation's chief law officer, and I hope you 
will see O17 as an opportunity to fulfill your mandate given to 
you by the Congress in this regard.

                          PRISON CONSTRUCTION

    We thank you for being here. I want to ask you briefly 
about prison construction. As you know, overcrowding in our 
penitentiaries poses significant problems for both inmates and 
guards, not to mention prisoners. In overcrowded facilities 
inmate misconduct increases, availability of vocational 
training and meaningful work opportunities diminish, and the 
risk of disease, mental health, and substance abuse increase. 
Overcrowding also poses a significant security threat to guards 
who are already vastly outnumbered by inmates. It is especially 
dangerous in medium and high security prisons where the 
majority of inmates are serving sentences for violent crimes.
    I see your request slashes the Bureau of Prison's 
construction funding by a whopping $417 million, nearly 80 
percent at a time of such need of these crowded Federal 
penitentiaries. It is a headline in tomorrow's newspaper: the 
overcrowding in federal prisons and the treatment that we are 
subjecting people to, including guards and the staff. That is 
going to be a story. I hope you will help us keep it from being 
a story. Casting aside any conversation about criminal justice 
reform, how do you intend to deal with the short term problem 
of prisoner and guard safety with such a dramatic reduction in 
necessary resources to build new facilities and renovate old? 
Can you help me?
    Attorney General Lynch. Thank you, Mr. Chairman, for the 
opportunity to speak on what you certainly have accurately 
described as one of the challenges facing our prison system 
today, and the Bureau of Prisons is certainly not immune from 
that. And I also thank you, not only for your attention and 
interest in this, but for your support for the Department over 
the years.
    This Committee was instrumental, certainly in prior years 
up to and including 2016, for providing the Department with 
funds, approximately $444 million dollars in fiscal year 2016, 
and that those funds are going to build a new prison, and I 
believe it is going to be in Letcher County in Kentucky.
    And so that is certainly an important part of reducing our 
issues of overcrowding, as you so accurately note, issues of 
correction officer safety as well as inmate safety are 
certainly implicated by that.
    The reason why that same number was not reflected in the 
2017 request is because we did receive that money in 2016, we 
have begun to utilize those funds--it is a multi-year process 
as I know you are aware--to build the prison and do the 
studies, and therefore, we did not need those funds to recur in 
fiscal year 2017. But I do want to assure you that the funds 
that were appropriated to specifically deal with this important 
issue are, in fact, being put to good use as we speak.
    And so the fact that you do not see that same number 
repeated in the budget is not a reflection of a cessation of 
work, certainly not a cessation of commitment, but simply that 
having been given those funds we are now working towards 
utilizing them, and would not ask for those same funds again. 
That is going to help us tremendously with that.
    And the other initiatives that we have in dealing with the 
Bureau of Prisons, as you mentioned, the overcrowding issues 
result not only in harm but exacerbation of health issues for 
the inmates. You mentioned mental health in particular, and you 
will see within the Bureau of Prisons portion of our budget, 
funding to deal with those issues also because where we can 
deal with those issues, we will have safer institutions for the 
inmates and for the correctional officers who work there.
    The Chairman. I thank you for that statement. I am over my 
time, Mr. Chairman, thank you.
    Mr. Culberson. Thank you, Mr. Chairman. I now recognize the 
gentleman from Washington State, Mr. Kilmer.
    Mr. Kilmer. Thank you, Mr. Chairman. And thanks for being 
with us, I have got a bunch of questions and I will try to get 
to as many as I can.

                              OPIOID ABUSE

    I share the chairman's concern about opioid abuse, it has 
certainly hit a number of the communities in my neck of the 
woods. I have a lot of rural communities, including the town 
where I grew up, and small towns. And, you know, I understand 
the need to balance prevention, and treatment, and enforcement 
to stop the spread here.
    I know the Office of Justice programs provides grant 
funding for State and local law enforcement assistance, I guess 
I am hoping you could speak to how those funds are distributed 
and whether communities like the ones I am talking about, rural 
towns, small towns, whether they are able to benefit adequately 
from this, and what this Committee can do to improve the 
ability of rural communities and small communities that are 
really struggling with this opioid epidemic. What they can do 
to realize this support.
    Attorney General Lynch. Well, Congressman, I thank you for 
raising that issue. Frankly, it is becoming the law enforcement 
issue of our time. And, of course, the opioid issue is a 
precursor to the heroin epidemic that we are seeing as well 
because we are finding that as we look at the heroin epidemic, 
so many of those individuals begin with prescription drug abuse 
and they move on to heroin. And, unfortunately, the opioid 
abuse, the prescription drug abuse, is leading to increasing 
levels of violence, particularly in the rural areas.
    So we do have a request in our budget of about $383 million 
for the JAG funding, which is an increase over fiscal year 
2016. Now OJP does not have programs that specifically address 
the opioid abuse in rural areas, but these grants are available 
to all law enforcement agencies, particularly to--for the 
purchase of naloxone.
    Over the last year, we have spent a great deal of time in 
discussion with our local partners. And this particular tool we 
find is extremely helpful, it is the rapid response overdose 
treatment. And using grant money to make sure that while we may 
not be able to fund a clinic, we can make sure that the small 
police departments and sheriffs offices have access to naloxone 
can go a long way towards literally saving a life and getting 
someone to the hospital on time. And so that is something that 
we are hoping is going to be helpful with regard to that.
    I will also say that when it comes to this problem 
generally, the Administration is taking a whole of 
administration approach, not just the Department of Justice, 
but a number of other agencies are involved in looking at this 
issue: Health and Human Services, Veterans Affairs, for 
example. All of us focus on finding the best way to deal with 
this. And, certainly, I think what has emerged from our 
discussions is that we have to view this as a public health 
crisis as well as a law enforcement issue, and not just focus 
on law enforcement, but have a public health component to 
improve treatment and resources as well for the families and 
for those people who fall victim to this.

                       COMMUNITY/POLICE RELATIONS

    Mr. Kilmer. Thank you, I appreciate the focus on that. I 
wanted to switch gears. Too often we hear stories around 
distrust between neighborhoods and the police who protect them, 
but there are some good news stories out there. One of the 
cities I represent, Tacoma, and communities like them, are 
working very hard to try to foster a good relationship between 
law enforcement and the populations that they serve.
    We saw a great effort by the city's leadership and the law 
enforcement leadership called Project Peace, which was trying 
to bring people together to see how they can improve ties 
between the community and the police. I guess I would point 
out--and those sorts of efforts are costly, and programs like 
Project Peace often can be limited in their success simply due 
to resources being spread thin in a large city.
    I know that the Department's budget proposed doubling the 
community policing development program, and I am grateful for 
that, but I am concerned as to whether that is even still 
enough to meet the demand in our nation.
    I just want to get a sense from you, how confident are you 
that the additional funds that are requested in the budget will 
actually meet the needs of our communities?
    Attorney General Lynch. Well, Congressman, I think that is 
an excellent question, because I think those needs are deep. 
And, certainly, I have spent a great deal of time working on 
this issue. In 2015 I was engaged in a six city community 
policing tour, and I did travel to the Pacific Northwest, and 
this year I will travel to six more cities, focusing on cities 
that had had a very challenged relationship with the police--a 
shooting, a pattern and practice investigation, even a 
lawsuit--but have found a way to create a dialog between law 
enforcement and the community, and include young people in that 
to restore those bonds of trust to build those bridges again.
    This year I am focusing on cities that are exemplifying the 
Six Pillars and the 21st Century Policing Task Force that was 
the product of last year's work. So I am familiar with some of 
the programs that you mentioned, I am always happy to pull more 
into our ambit.
    We do have, as you know, key increases for building 
community trust and community policing; for body worn cameras; 
for smart policing; collaborative reform. And I think our 
Community Relation Service is going to be very important in 
this.
    We are asking for $3.5 million for law enforcement 
reconciliation work. Community relation services are not law 
enforcement officers, but they essentially go into the 
community and work to build those bridges. They work with 
community leaders in particular, and law enforcement, and the 
local elected officials as well, to foster dialog around these 
important problems. They are not investigators, they are not 
gathering evidence for our law enforcement components at all. 
And so we are requesting additional funding for them. And so I 
think that that will be helpful.
    I will tell you that I think the most promising efforts 
that I have seen as I have traveled the country, are those that 
come from the community as you mentioned, such as Project 
Peace. And so we are looking for ways to continue to support 
them through our grant programs. It is a deep need, it is an 
ongoing need, and I am incredibly impressed with the work that 
I have seen going on across the country. And we are hopeful 
that the funds that we request, for a host of issues involving 
community policing, will help in that regard.
    As I talk to police departments, for example, we are 
supporting a number of them with the body worn camera 
initiative, and this is an area that I think people have 
different opinions on. But as these body worn cameras come into 
use, I think people on both sides of the debate are seeing 
their utility in providing for accountability and a level of 
trust in the types of interactions that law enforcement has 
with civilians.
    So we see civilian complaints go down in communities and 
departments that are implementing the body worn cameras. And we 
see incidents and reports of use of force go down. And that is 
all part of the web that we have to build to rebuild the trust 
bonds that have been frayed in some areas. But I do believe, 
frankly, that this can be accomplished because I have seen it 
happen.
    Mr. Kilmer. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Kilmer. Now I would 
like to recognize a former district judge from Williamson 
County, the gentleman from Texas, Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman, and welcome, General 
Lynch, we are glad you are here. My first opportunity to be 
able to speak to you. As he says, I come from a background of 
what is the highest trial court in our state, the great state 
of Texas, and have some familiarity with the criminal justice 
system in our state.
    This last Monday, I did what we call a telephone town hall. 
We get in touch with roughly 35,000 to 50,000 telephones and we 
let people get online and ask questions on the phone. When we 
get about 10 or 15 of the same people asking the same question, 
we pick that question. This question came up, this is a tough 
one, people will be saying it is politics, but I told them I 
would ask you.

                        STATE DEPARTMENT EMAILS

    Here is the issue. The State Department has publically 
stated that the emails sent and received on Hillary Clinton's 
personal server are classified. In fact, they refuse to 
disclose numerous emails as they contain top secret 
information. As Secretary of State, and one who is seeking the 
highest office in the land, she should have known better.
    Now if the FBI makes the case that Hillary Clinton 
mishandled classified information and put America's security at 
risk, will you prosecute the case? Do you know of any efforts 
underway to undermine the FBI investigation? And please look 
the American people in the eye and tell us what your position 
is because you are the chief prosecutor of the United States.
    Attorney General Lynch. Well, thank you, Judge, and 
Congressman Carter. With respect to our investigation into how 
information was handled by the State Department, how they 
handle classified information, as I am sure you know, that 
matter is being handled by career independent law enforcement 
agents, FBI agents, as well as the career independent attorneys 
in the Department of Justice.
    They follow the evidence, they look at the law, and they 
will make a recommendation to me when the time is appropriate. 
And so beyond that, I am not able to comment on the specific 
investigation at this time. But what I will say is, again, that 
this will be conducted as every other case, and we will review 
all the facts and all the evidence, and come to an independent 
conclusion as to how to best handle it.
    Mr. Carter. And----
    Attorney General Lynch. And I am also aware of no efforts 
to undermine our review or investigation into this matter at 
all.
    Mr. Carter. Well, there were enough people that are 
concerned about that that you ought to know there is an 
American public concern that maybe the Justice Department will 
not do this for political reasons. I am not accusing you of 
that. I certainly would not expect you to comment on the 
investigation, and did not ask for that information. But I 
promised the questioner that asked me the question. I said no 
one is above the law in the United States, and if you should be 
brought before a grand jury, the right thing to do would be 
bringing somebody before a grand jury. That is where you are, 
and I hope you remain there.
    Another question if I got--do I have enough question--
enough time?
    Mr. Culberson. Yes.

                     DOJ/LAW ENFORCEMENT RELATIONS

    Mr. Carter. A few times in history it has been difficult to 
be a police officer, and it really is. You often have 
belligerent public holding cameras in your face every time the 
officer wants to make an arrest. You have civil unrest in high 
crime communities, and police who do not feel that the 
Department of Justice really supports them.
    Mostly importantly, I am concerned of the perception among 
our law enforcement officers that the DOJ is opening 
investigations as an intimidating tactic to force state and 
local police to push this administration's soft stance on 
crime. What are you doing to change the perception amongst many 
of the law enforcement agencies that the DOJ is looking over 
their shoulder waiting to sue their department every time they 
make an arrest?
    I have heard horror stories of U.S. attorneys refusing to 
prosecute drug and alien smuggling cases along the border. And 
let me tell you, if you get caught with 200 pounds of marijuana 
in Bell County, one of my counties, or Williamson County, you 
are going to go to prison. Yet, I cannot say that about the 
smugglers along our southwest border, and it needs to change. 
Would you please comment?
    Attorney General Lynch. Well, thank you for the opportunity 
to talk about the important relationship that the Department 
has with our colleagues in State and local law enforcement, and 
they are very much our colleagues, with respect to the 
important work that we all do for the protection of the 
American people.
    I think the issue, as we have discussed just recently, of 
trust between communities and the law enforcement--particularly 
law enforcement in the communities that we all serve--is an 
important one. And I will tell you that the message that I have 
heard as I have traveled the country speaking directly to law 
enforcement officers--I speak to the rank and file officers 
when I visit cities, I speak to community members--is how 
dedicated they are to their jobs, and how focused they are on 
their mission.
    And I talk to them about why they became police officers 
and that mission that they feel. And the pressures that they 
feel because this is a time of great change in policing. But 
what I hear is their dedication and commitment to continuing 
their work in protecting the American people.
    And so where we have situations where those bonds have been 
broken, and where law enforcement feels under siege as well--
and I have had those conversations with officers--we try and 
engage them also in discussions about why that is and what 
might be the causes of it.
    One of the things I will say, Congressman, is a benefit of 
having been a prosecutor for over 20 years, is that I have 
noted, with actually a very positive view, the way in which we 
actually do interact with police departments in this current 
administration. I was involved in reviewing police issues in 
the 1990s when I was a U.S. Attorney in New York at that time, 
I have been involved in reviewing them as a U.S. Attorney from 
2010 on, and now as Attorney General.
    And I think one of the benefits of the relationship now is 
that the Department has police departments actually coming to 
it and asking for assistance through our Community Oriented 
Policing Program, which people refer to as the COPS Program. As 
you know we fund police officers, we have all that information 
in the budget for you to review to improve that and to increase 
our ability to provide additional local law enforcement 
support.
    We also provide what is called collaborative reform. We 
provide technical assistance, we do not charge departments for 
this. So police departments come to us and they say, you know, 
we are having a problem or an issue, and it may be a community 
relations issue or it may be a training issue. It may be 
keeping up with the latest data. It may be finding the 
resources to, as we always have done, to support them in buying 
vests, in buying the body worn cameras, as I mentioned. So I 
have seen a positive relationship between law enforcement at 
the State and local level and the Department of Justice through 
this.
    Where we have to look at issues of accountability, we speak 
directly to those departments and try and engage them so that 
they can be the first person holding an officer accountable 
when there has been a problem because we all know that there 
will be issues, and the important thing is to make sure that as 
we deal with those issues, the American people see that we are 
dealing with them in a transparent way, in a fair way, and that 
everyone is treated equally before the law. And we have had a 
great positive response to that.
    So we provide a great deal of support to our local law 
enforcement officers, again, through the COPS program, as I 
mentioned. You will see in our budget a number of other areas 
in which we are seeking to provide support to our state and 
local colleagues. And we also spend a great deal of time trying 
to get their input.
    I have found it, frankly, very positive to have their input 
in some of the policies that the Department is putting forth. 
Most recently, we promulgated policies on dealing with sexual 
assault victims and domestic violence victims. And this policy 
was greatly informed by discussion with our state and local 
colleagues because they are the first responders to those 
cases. And so as we support those types of cases, for example, 
with grants for training, we rely on them to give us the actual 
on-the-ground experience to talk about the best practices and 
the best policies.
    So, Congressman, I would say that this Department of 
Justice is focused and is, in fact, working well with state and 
local law enforcement. We have a very positive bond with them 
because we do the same work, we have the same mission, and we 
all want to improve as we, in fact, carry out our highest duty 
which is the protection of the American people.

                         ACTIVE SHOOTER PROGRAM

    Mr. Carter. Quick follow-up. Yesterday I filed a bill, and 
your Department has worked with me on it, to include the Active 
Shooter Program in the COPS criteria. The small departments 
around the country want to train their people up on the active 
shooter issue and they don't have the funds. And I know that 
your office helped us, we appreciate it, hope you will support 
adding the Active Shooter to the criteria of the COPS grants.
    And, finally, the reason I mentioned the 200 pounds, 
because we are clearly told--I think the Chairman has been told 
also--that it has to be over 200 pounds of marijuana on the--in 
the Rio Grande Valley and along the border, or the Justice 
Department will not prosecute. And we think 200 pounds is a 
lot. Thank you.
    Mr. Culberson. Thank you, Judge.
    Attorney General Lynch. Thank you.

            DOJ SUPPORT FOR STATE AND LOCAL LAW ENFORCEMENT

    Mr. Culberson. Attorney General Lynch, I was especially 
appreciative of your response to Judge Carter's question, on 
how important it is that every law enforcement officer out 
there in America know that the Department of Justice has their 
back. That is a message I hope you will continue to speak out 
loudly, and clearly, and repeatedly, to make sure that all 
those local law enforcement officers know how dedicated you are 
and your Department is to supporting them and helping them.
    Last August, our neighborhood deputy, Darren Goforth, was 
murdered in my neighborhood and it was a catastrophic event, 
and all of us I know on this Committee and across the country 
are very concerned. We want every law enforcement officer in 
the country to know that the members of Congress, and 
particularly the Department of Justice, know that we have their 
back and we support them. And appreciate you saying that.
    We recognize, as a part of that relationship that you have 
with local law enforcement, one of the most critical parts of 
that successful relationship is a sharing of information that 
local, and state, and Federal law enforcement officers have to 
know, have to have a complete and open relationship where they 
share every bit of information possible about criminal 
defendants.

                            SANCTUARY CITIES

    And a source of great concern to the country--and I know 
from our conversations before the hearing began, a concern that 
you have as well, and I am delighted we are headed in the same 
direction--is with sanctuary city policies that where a State 
or local jurisdiction refuses to share information with the 
Federal--whether it be Homeland Security, Judge Carter--or with 
the Department of Justice because that information sharing is 
so critical.
    And the policies that a lot of these cities, and counties, 
and states have where they will refuse to honor a detainer, to 
hand over a criminal defendant in their custody to federal 
authorities to be deported, is just unacceptable and terribly 
dangerous.
    Of course, it is standard procedure if an individual is in 
the Williamson County jail, if they are in the Pulaski County 
jail, Mr. Chairman, before they are released from that county 
jail, it is just long standing commonsense that the Pulaski 
County Sheriff is going to check with State authorities, with 
Federal authorities, is there an outstanding warrant.
    And that individual, when he has served his time in the 
county jail, will not be released onto the streets of Pulaski 
County. If there is a warrant in Michigan, they are going to 
call Michigan and say do you want this guy, and Michigan, come 
pick him up. And that has been the standard policy of every law 
enforcement agency in the history of this country.
    Until you get to these sanctuary cities where they will not 
release these individuals. If they have got an illegal alien in 
their custody who has a criminal warrant for their arrest, 
these communities have policies that they will not release them 
to federal authorities for deportation. And this is just 
absolutely unacceptable. It is outrageous, and has resulted in 
the murder of untold thousands of individuals.
    And the one that I know that hangs in everyone's mind with 
great concern is the young lady who was shot and murdered in 
San Francisco, Kate Steinle, who died in her father's arms. She 
was shot and murdered by a seven-time convicted felon, a five-
time deportee who was released onto the streets of San 
Francisco due to their utterly unacceptable and illegal 
sanctuary policy.
    And that refusal to share information, that refusal to 
cooperate with Federal law enforcement authorities, is just 
absolutely unacceptable. And as we talked about earlier, I am, 
as the new Chairman, the rules are going to be in this 
subcommittee if you want--if you expect to receive Federal 
money, comply with Federal law.
    And I want to thank you, Attorney General Lynch, for your 
timely response to a letter that I sent you earlier this year 
on sanctuary cities. And, your response to my letter to my 
expressing the concern that I just laid out here.
    You said, in part, that where the Department of Justice 
receives a credible allegation that an entity, State or local, 
is receiving funds under a Department grant or a reimbursement 
program has--after they have assured the Department that they 
are in compliance with applicable federal laws, where that 
entity is--where you have credible evidence that they violated 
a specific applicable federal law, the Department can 
potentially seek criminal or civil enforcement options against 
that entity.
    As we had discussed, the Title VIII section 1373 of the 
U.S. Code, specifically prohibits States or localities that 
have policies that prohibit the sharing of information with ICE 
about the immigration status of their prisoners, that law says 
very clearly that local jurisdictions cannot interfere in any 
way with the sharing of information with Federal authorities.
    And I wanted to ask you to assure the committee that the 
Department of Justice will review grantees with such policies 
to ensure that they are in compliance with all applicable 
federal laws?

               IMMIGRATIONS CUSTOMS ENFORCEMENT DETAINERS

    Attorney General Lynch. Well, certainly, that is a part of 
our grant review process. And as was also conveyed in the 
letter, I do want to reiterate the fact that one of the things 
that we are hopeful will be as effective also, and more 
immediately effective, is our policy whereby the Bureau of 
Prisons instead of deferring to the State or local entity's 
detainer and turning an individual, a deportable individual, 
over to them, that instead Immigration Customs Enforcement, or 
ICE, will instead have the ability to step in and exercise 
their detainer first.
    We have in the past deferred because, again, we work with 
our State and local colleagues and we want to make sure that 
they can, in fact, adjudicate their cases as well. But 
particularly where we are dealing with a jurisdiction that 
essentially is not prone to honoring the ICE detainers--and 
those vary across the country, they just vary over time and 
place--our policy is going to be that ICE will instead have the 
first detainer, and that individual will go into ICE custody 
and deportation.
    Now this may have the effect that there may be local cases 
that may not be able to be prosecuted because, again, the 
person will be taken into ICE custody and then deported. And if 
a jurisdiction has a concern over that, we will talk to them, 
we would have to have assurances that ICE would also then be 
able to get the individual back at the end of an adjudication 
so that the deportation process could go underway. So we are 
trying to be respectful of our State and local colleagues' 
desires and goals to prosecute cases, but also do with this 
issue as well.
    Mr. Culberson. I genuinely appreciate that, and I think as 
an example of the cooperative relationship that this committee 
has had with the Department of Justice, and with you as the new 
Attorney General, I want to express my sincere gratitude to you 
for this new policy that you have adopted. Yes, Mr. Chairman?

                   GRANT FUNDING FOR SANCTUARY CITIES

    The Chairman. I am not clear. Will the Department seek to 
cease any grants going to a particular so-called sanctuary city 
if they violate your terms? Will you seek to stop that grant 
program?
    Attorney General Lynch. Well, where again, if the grant is 
tied to the applicable law. Again, it has to be a connection 
between the issue and the grant. For example, you know, a grant 
for human trafficking would be different from a grant for 
community policing.
    But certainly as part of the audit process, as part of the 
Inspector General review, and as part of the overall grant 
management review, which the Department's Civil and Criminal 
Division can also take under investigation, if we receive a 
credible allegation that a grantee has violated a specific 
applicable federal law, we will make that referral. Again, 
there is a audit process in general, but we also have the 
office of Inspector General who can step in and do a specific 
investigation of a specific jurisdiction or municipality, and 
we also have our Civil and Criminal Divisions. Depending upon 
how the allegation arises.
    The Chairman. Is this a new policy?
    Attorney General Lynch. Well, I think it is in response to 
the concerns that have been expressed and as part----
    Mr. Culberson. Thank you.

                          NEW DETAINER POLICY

    Attorney General Lynch [continuing]. And in result of the 
discussions that we have had with the chairman here as well as 
other members. But as I indicated, we feel that a way to deal 
with this issue immediately is to make sure that individuals 
who are being released from the Bureau of Prisons, rather than 
be released into state custody, would go directly into 
immigration custody and be dealt with for deportation there, 
because a large part of the problem has been that as part of 
our collaborative working relationship with our State and local 
partners, as, Mr. Chairman, you indicated, if there is a 
detainer on an individual coming out of federal prison--
certainly when I was young prosecutor, individuals would be 
released from federal custody but have to go into New York 
State custody to either finish a sentence or to be prosecuted. 
And then at that point--at the end of the state case, 
deportation would be an option.
    Where a city is not necessarily inclined to work with the 
Department of Homeland Security as a general matter, we will 
instead use the immigration detainer first. And as I indicated, 
where jurisdictions indicate this was likely to be a problem, 
we will talk with them and we will work with them. But it is an 
area of great concern for us.
    It is particularly an area of concern for us because there 
is, unfortunately, case law that exists that--only in one 
circuit, but there is case law with a particular holding that 
in certain circumstances, cities' compliance with the 
requirement that they provide us information may be voluntary. 
We are also actively litigating the matter in two other 
jurisdictions.
    And so this matter may be unsettled for some time in the 
courts. So we feel that a way to deal with this issue 
immediately and directly is to have the policy change as well 
as to have the review of the grant program that we have been 
discussing.
    Mr. Culberson. It is really a great example, Mr. Chairman, 
of the cooperative relationship that this Committee has had 
with the Department of Justice. I am very grateful to you. She 
has announced today a new policy that the Department of Bureau 
Prisons will first check to see if there is a criminal alien in 
the custody of the federal prisons has a deportation order, and 
where that individual may also--as in the case of this guy that 
murdered Kate Steinle--where San Francisco has a policy they 
are not going to honor the federal detainer.
    In response to the concerns that this Committee, 
Subcommittee, Mr. Chairman, has addressed to the Department of 
Justice, you have changed the policy at the Bureau Prisons, 
which we deeply appreciate, that you will not release that 
individual to San Francisco, you are going to hand him over to 
ICE, Chairman Carter, so he can be deported.
    We thank you for that change in the policy, that is very 
important. And then, secondly, we have also learned today, Mr. 
Chairman, and we very much appreciate that, the Department is 
moving towards--because this will be litigated forever and we 
can't wait on that, our lives of countless Americans depend on 
quick and decisive action.
    And in response to the concerns I have expressed earlier 
this year, you responded immediately and in a very favorable 
way, which I really appreciate, they are moving right away to 
go look carefully. And we will provide you with that list of 
those jurisdictions that do have policies where they will not 
share information with Federal authorities. They have actually 
got an explicit policy on the book, we are not sharing 
information, we will not hand over these individuals to ICE for 
deportation.
    We can provide you with that list, and you have just 
indicated that you are going to begin an audit process to 
ensure--to encourage them, because we want them to change the 
policy. We are not looking to cut them off from Federal money, 
we want to give them a chance to change their policy, correct, 
and that's the goal. Change the policy so you hand these 
individuals over to federal authorities for deportation.

                   STATUS REPORT ON SANCTUARY CITIES

    The Chairman. Mr. Chairman, if I could----
    Mr. Culberson. Yes, please.
    The Chairman [continuing]. Suggest something. This is 
encouraging to hear this, but I believe that old saying, is 
trusting and verifying.
    Mr. Culberson. Yeah, Ronald Reagan.
    The Chairman. Yeah. I wonder if you could give us a report 
on this after a period of time here, say four months, to give 
us report on how many of these instances you have actually had 
success with so that we have some way to gauge----
    Mr. Culberson. Exactly.
    The Chairman [continuing]. How things are going and maybe 
make mid-course corrections as we go. This is significant, a 
very important matter for a lot of us and I would like to know 
that it is working. Is that agreeable?
    Attorney General Lynch. Well, certainly I think that we are 
all moving to an evidence-based model, and a host of things. 
And certainly we are happy to work with you and your staff to 
provide you the information, both with regard to the new BOP 
policy, which I think would be instructive----
    Mr. Culberson. Yes.
    Attorney General Lynch [continuing]. And also any instances 
again where these allegations occur. As you know, however, once 
a matter goes into an investigation, if we refer it to the 
Inspector General, for example, we wouldn't have the 
information about the investigation readily available at that 
point. But certainly, you know, if these situations do come up, 
I think we can work with the Committee to find a way to keep 
you informed.
    The Chairman. Let's do a quarterly report----
    Mr. Culberson. Let's do that.
    The Chairman [continuing]. For a while to see how things 
are going. So we would expect that you would give us a report 
on how things are going, as much detail as you can give us at 
the end of the first quarter.
    Mr. Culberson. I think that is a good idea. Would that be 
agreeable?
    Attorney General Lynch. Thank you, sir.
    Mr. Culberson. And this is a very significant change, and 
we are deeply grateful to you. I know the country is grateful 
to hear that you are moving in this direction. And it is a good 
time for it because I know the grant solicitations are just now 
coming in, Mr. Chairman, the jurisdictions, local city and 
state jurisdictions across the country, Madam Attorney General, 
are just now beginning to send in their applications for Byrne 
JAG, for the various law enforcement grants. So it is a good 
time for this change to kick in.
    As I said, we will provide you and your staff with a list 
of the jurisdictions that have these policies that refuse to 
provide information or refuse to honor detainers. And I deeply 
appreciate your moving in this direction, and we will find a 
way to do this in a cooperative, friendly, and supportive way 
to ensure that these jurisdictions are in compliance with the 
Title VIII Section 1373, that they have a chance to change 
their policy, and try to avoid losing their Federal grant 
money.
    But if they insist--and we will work with you--if they 
insist on hanging onto their policy and they will not honor 
detainers, and they will not share information, you know, don't 
ask for federal money unless you follow our Federal law. 
Delighted to hear you are moving in that direction, and we are 
going to work with you cooperatively and in a supportive way to 
ensure that that happens, and to make sure that the law 
enforcement communities across the country continue that close 
cooperative working relationship that has been so successful in 
the past. We really appreciate very much your help in this 
matter and look forward to working with you. And we will get 
quarterly reports, Mr. Chairman.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. And as a ranking 
member, I request a congressional 5 minutes if I may. And I 
just want to add my congratulations to the Attorney General 
also, and that how well you respond to our questions and 
because I understand it is very complicated and there is a lot 
of different tiers that need to be considered as you move 
forward on this complex issue of criminal justice and civil 
rights, and things like that, that we have to face. And I, too, 
would look forward to seeing a quarterly report because I am 
confident that will be based upon good judgment and laws that 
we expect to be able to follow.
    And I think that Mr. Chairman had touched upon some of the 
other issues on the policies and clarification of the 
guidelines of the sales and handling of firearms relative to 
hobbyists, and those folks, so I won't take any time to do 
that.
    But I do notice that a lot of the concerns that we do have 
has been based upon lack of resources and things like that. But 
I just wanted to say that we as Congress have also been part 
and parcel of providing the appropriate resources in the past, 
and I am very glad that this past year that we have had an 
increase, and I think that that bodes well for all members of 
this subcommittee that we can have an expectation on increasing 
staffing, increasing in training, and I think that that was a 
lot of concerns around that. And a lot of this is because we 
are able to hire more folks to do the things that is expected 
of your Department.
    So, you know, I see that we are making progress on sexual 
assaults on college campuses, and with the ATF, there is a lot 
of clarification on the kinds of priorities and policies that 
is going to be promulgated by the ATF. And also in terms of law 
enforcement hiring overall, there is going to be increase in 
that. So I think that there should be an expectation of meeting 
some of these needs, and I am very gratified to see COPS coming 
back.
    I think COPS has a basis for improved community and police 
force relationships, that they understand working in 
conjunction with the communities is beneficial for everybody 
around, and we will learn a lot from them.

                   HUMAN TRAFFICKING AT THE SUPERBOWL

    One of the questions I wanted to sort of formulate is 
around human trafficking, and cyber systems, and cyber 
stalking. We just finished the Super Bowl in Santa Clara 
County. And the Super Bowl was the culmination of a lot of work 
that has been done by different agencies. I noticed that each 
department that is involved in providing services to make sure 
that we have a safe environment and successful outcome of a 
activity like Super Bowl, which the next one will be in 
Houston, I believe.
    Mr. Culberson. Yes, it is.
    Mr. Honda. And so over the last couple of years and this 
year, we have been looking at the services that is expected in 
terms of providing a safe environment. And so I just wanted to 
have some sort of comment about budget, personnel, assignments, 
in such a way that you can provide those services without 
having to juggle the different Departments' budgets so that in 
the next Super Bowl in Houston, it will be run smooth and 
seamlessly through our agency so that Congressman Culberson can 
expect the Houston Super Bowl to come out well as it did this 
past year.
    I do not care who the team is, but I hope that it is the 
49ers. But the basic question is can you give us some feedback 
on the budgetary approach to providing the necessary resources 
and personnel to address the kinds of expectations that one 
would have having a safe environment at the next Super Bowl?
    We have a template and we have folks who have been involved 
in it that we can touch bases with to ask that question, and I 
will be asking that question of every department, Federal, 
local, and State, so that Houston will have a good solid 
preparation for--in the event that whatever team goes to the 
Super Bowl will have a good outcome. And I think the two things 
that are very prominent in the planning would be human 
trafficking, and cyber security and cyber stalking. Do you have 
any comments relative to that?
    Attorney General Lynch. Yes. Thank you. Thank you. Those 
two important issues actually do collide at an event like the 
Super Bowl, or the Olympics if we were to host it here again, 
it would be a similar situation certainly. And I thank, not 
just you, Congressman, but this Committee for your support of 
the Department's efforts in human trafficking. I know it is an 
important issue for you, and your efforts have really made a 
difference in the lives of people. So I thank you and the 
Committee for your support over the years, and in this most 
recent budget as well.
    So with respect to human trafficking, I think the request 
is about 89 million--89.3 million for 2017, with 45 million 
going for the victims of trafficking program, and for cyber we 
are asking for a total of 121 million which would increase 
positions. The FBI would receive funds to enhance their 
investigative personnel and the number of cyber investigations, 
and also attendant money to increase DOJ's internal security, 
DEA's internal security, and our grants as well.
    With respect to a specific event like the Super Bowl, I 
would request the opportunity to come back to you and your 
staff with more specific information on that. But what I can 
tell you at this point is that for the Super Bowl in 
particular, and other large events, what happens at the 
planning stage is a great deal of coordination between the 
Department of Justice, Department of Homeland Security, as well 
as the intelligence communities so that we mitigate security 
threats.

                     HUMAN TRAFFICKING TASK FORCES

    For human trafficking in particular, every U.S. Attorney's 
office now is required to have a human trafficking coordinator 
and be part of a human trafficking task force. This pulls in 
our state and local partners and helps us get information on 
the current state of affairs involving cases and 
investigations, but also things that are about to occur as 
large events like the Super Bowl are put together.
    So prior to an event, for example, the Super Bowl was in 
New Jersey a few years ago, my office, when I was in the U.S. 
Attorney's office there, was involved, along with the U.S. 
Attorney from New Jersey, with the preparations for those 
events. And so months before the actual game is played, the 
planning for how to both have a law enforcement presence and 
also protection for any victims that we may be able to rescue, 
begins to occur, in terms of every agency involved, looking at 
the resources they would need. This is another example, also, 
of how we work so well with our state and local counterparts 
because so much of the work for an event like that will depend, 
of course, upon working closely with local law enforcement also 
as well as providing resources from FBI, from DEA if we feel 
that narcotics will be involved.
    And where we have had, for example, situations where we 
have increased funding to our human trafficking task forces, we 
use the information and intelligence gathered from them also. 
So I would appreciate the opportunity to give you more specific 
information about a specific event as that comes to fruition.
    We do have, as you mentioned, templates for how the 
security protocols are put together for that. We feel confident 
that we can take them to Texas and receive as warm a reception 
as we did in New Jersey, and San Francisco, and making sure 
that the event is as safe as possible. And also that it is not 
used, as these events often are, as a cover for illicit 
activities such as human trafficking.
    So I would appreciate the chance, if I could, to come back 
to you with that. But again to note, that the human trafficking 
task forces begin to focus on these events months before they 
actually come into fruition, and specific plans are set in 
place, and specific operational plans are set in place.
    Mr. Honda. Thank you.
    And I also want to add my thanks to the Chairman for 
helping us fund and put into law the establishment of the Human 
Trafficking Survivors Advisory, which is going to be very 
helpful, and also look forward to hanging out with the Chairman 
when that event comes around. I am sure it will be a lot of 
fun. I didn't watch the Super Bowl, I was at the Command Center 
watching the other stuff. So I figured, OK, the next Super 
Bowl, I will come over and visit with Houston and Mr. Chairman.
    Mr. Culberson. We will be glad to have you. Get you out to 
the Johnson Space Center.
    Mr. Honda. Thank you.
    Mr. Culberson. Thank you very much, Mr. Honda.
    Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman.
    Ms. Lynch, just three very specific questions and if any of 
them need to be taken for the record, that is fine.

                       BUREAU OF PRISONS STAFFING

    The Bureau of Prisons staffing request is down about $200 
million, and there is also I think plans to hire a little over 
300 positions in fiscal year 2017. We have heard concerns from 
some of the prison locals, some of the employees about the use 
of augmentation and what that means for frankly their own 
security, but also their own operational abilities. Can you 
provide some perspective on the decrease in the funding 
request, what it means for additional hiring, and the process 
of using augmentation?
    Attorney General Lynch. With respect to the Bureau of 
Prisons and the funding, again, as I think I discussed with 
another one of your colleagues, I think maybe Mr. Rogers, the 
budget numbers are certainly lower than the request for last 
year, because again we did receive the $444 million for 
construction funds that we did not need to ask for again this 
year, that would not have been an appropriate request. So the 
amount may be lower, but those funds are being used to 
alleviate overcrowding and building the new position.
    So the operations of the Bureau of Prisons are not being 
cut. Our overall numbers are going to be requesting not only 
additional new positions, but additional funding to support 
those new positions.
    A lot of the new positions will be in the correctional 
area, but they will also be in the mental health area, because 
this is a problem that is cutting through all of our prisons. 
This is a problem that again I hear from my state and local 
colleagues, is that dealing with individuals who present these 
issues raises safety concerns for the inmates and the officers, 
as well as operational concerns.
    Mr. Jolly. So reliance on augmentation, though, to what 
extent are you relying on that compared to even more than the 
336 positions that may be hired?
    Attorney General Lynch. Can you give me some context? I am 
just not sure what you are referring to.
    Mr. Jolly. In terms of reassigning duties of individuals to 
support those of say full-time security officers at facilities. 
We hear from several prison locals about the concern of using 
employees that perhaps are not as trained or at least well 
trained in certain specific tasks within the prison system, 
that they are being asked to fill in for those duties, and it 
has raised concerns of security for some of the prison locals.
    Attorney General Lynch. Well, with respect to that 
specifically, I do not have information for you at this time, 
but I would be happy if we could have our staffs talk and 
perhaps get some perspective on this, so we can provide you 
with some information for it.
    I will say that I have had the opportunity to meet with the 
heads of the correctional officers' unions for the Bureau of 
Prisons and I am tremendously happy to work with them on a 
number of recommendations within the prison. And so their 
concerns are very important to me, because they do impact 
safety throughout the institution.

                       FEDERAL PRISON INDUSTRIES

    Mr. Jolly. Two remaining questions. The next one is Federal 
Prison Industries, the program that allows inmates to work in 
the production of supply goods for other federal agencies in 
return for a stipend. What is the maturity of that program? Is 
there additional capacity, are there additional savings for 
other federal departments that could perhaps be relying on 
this? What is the state of play for Federal Prison Industries?
    Attorney General Lynch. Well, thank you for the chance to 
talk about Federal Prison Industries, because it is actually I 
think one of the ways in which we can not only provide our 
inmates with job training and job skills, but also help their 
reentry platform out back into the community. Because we have 
had some situations where employers have connected with Federal 
Prison Industries and find that they receive not only well 
trained individuals, but incredibly loyal people who appreciate 
being given a chance to use their skills and become productive 
members of society. And so we are very supportive of that.
    As I am sure the Committee is aware in general, Federal 
Prison Industries provides a wide array of services. Frankly, 
the Department of Defense is a huge purchaser of Federal Prison 
Industries' products, I think they have been very pleased with 
their products as well. It's no longer mandatory that Federal 
agencies use them, but certainly we are encouraging our fellow 
agencies to consider them and looking to actively partner with 
other agencies to help in that effort.
    With respect to the current state of the operation, we are 
very, very pleased to note that we have recently brought a new 
CEO on board who comes with over 20 years of experience in 
private industry, and he is very excited about the prospects of 
rebuilding this great program and in, frankly, enhancing this 
great program. So I am tremendously looking forward to working 
with him as well.
    Mr. Jolly. OK.
    Attorney General Lynch. And we think----
    Mr. Jolly. I am about out of time, I want to get one more 
question on the record. I appreciate that, I look forward to 
working with your department on that as well.

                             CYBER SECURITY

    We provided language in last year's bill regarding digital 
rights management for information security, secure content 
management. And I know there have been incidents, including 
last calendar year, where the identity of FBI agents and some 
DHS personnel was released. If you could just provide some 
perspective on where the Department is with secure content 
management, plans going forward either in your budget or unmet 
needs.
    Attorney General Lynch. Thank you. You know, with respect 
to that issue, it is very important to us, because the release 
of personal information for anyone, the citizens or someone who 
is a law enforcement officer, carries with it grave risks and 
certainly with our law enforcement officers the risks are 
enhanced. And we in fact are involved in prosecuting 
individuals who have released information at the behest of 
designated terrorist organizations. And so it is something we 
take very, very seriously.
    Certainly with respect to the cyber budget overall, we have 
a larger number in there, $121 million, but what I would note 
is that within that we are requesting for $26.4 million to 
strengthen DOJ's own cyber security environment to protect 
against insider threats and also to bolster literally the 
physical security of our systems.
    We are all--when I say we, I now refer to a number of other 
agencies, but we are all at a point where we are dealing with 
the greatest of the last century's technology in many ways. 
Well put together, well maintained by dedicated staff, but 
systems are approaching end of life, systems are changing, the 
costs of maintaining the systems are growing. So I will tell 
you that the Department of Justice is committed to this, but 
looking for ways to make sure that we have the most efficient 
systems possible is included in this budget request as well.

                          FEDERAL PROCUREMENT

    Mr. Jolly. Do you have flexibility to move quickly on 
outside vendors? You know, I also serve on the VA committee and 
this is one of the huge issues when it comes to scheduling and 
how much is done in-house and whether or not there is 
commercial off-the-shelf available that can quickly be 
incorporated in an environment that continues to so rapidly 
change that it creates new vulnerabilities every day. Is there 
a balance between what you are doing in-house and relying on 
solutions, technology solutions that are out there right now, 
today, in corporate America?
    Attorney General Lynch. Well, we certainly try and find 
that balance. Obviously, we have to go through the Federal 
procurement process, but we are allowed to use a variety of 
vendors if they meet those needs. The process can be somewhat 
lengthy, but it is there for a reason, as I am sure you know. I 
think the VA is an excellent example of all the issues that we 
are discussing here. And so I look forward to working with you 
to ensure that the Department of Justice can also be in that 
stream of improving our technological capacity.
    And whether or not, Congressman, we can use off-the-shelf 
products really depends upon the type of system that we are 
talking about also, I will say that. Certainly when it comes to 
case management, for example, managing data for the lawyers who 
are litigating our cases, there are several excellent programs 
that we are able to incorporate into the Department of Justice 
systems. When it comes to managing secure data, you know, our 
national security data, there are not.
    Mr. Jolly. Sure.
    Attorney General Lynch. Not to say that there are none, but 
there are just fewer options. And so a lot of that will depend 
on the type of system that we are talking about as to our 
ability to use outside vendors.
    Mr. Jolly. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Jolly.
    I want to recognize at this time our ranking member, the 
young lady from New York, Mrs. Lowey.
    Mrs. Lowey. Well, thank you, Mr. Chairman.
    And I would like to join my colleagues in welcoming our 
Attorney General here with us today. I apologize, but the 
Secretary of State was next door. So we are moving quite 
efficiently and I hope effectively. Thank you so much.

                        ATF FUNDING AND STAFFING

    I have a question regarding the ATF funding proposed in the 
President's budget. The budget request includes funding for 
additional ATF agents to help investigate gun crimes and 
strengthen the firearms background check system to ensure that 
firearms are not inadvertently sold to persons who are legally 
prohibited from obtaining one.
    In addition, the request includes funding to improve the 
National Integrated Ballistics Information Network to help law 
enforcement solve firearm crimes.
    Many members of Congress often express opposition to new 
gun restrictions by saying that we need to do a better job 
enforcing the gun laws that are already on the books. Isn't it 
fair to say that the budget initiatives that you are requesting 
for fiscal 2017 are designed to do exactly what so many in 
Congress say they want to do, and that is to enforce the gun 
laws that are already on the books by helping State, local and 
Federal law enforcement prevent gun crime and apprehend and 
prosecute those who violate firearm laws?
    Attorney General Lynch. Thank you for the question, Madam 
Congresswoman.
    Yes, indeed. Certainly as the Department of Justice was 
looking at the recommendations to make to the President most 
recently, our mandate was exactly that, to view existing 
firearms laws and determine how we could best marshal and 
leverage Department resources to better protect the American 
people within that framework of laws.
    So as you have noted, we have taken some steps and we have 
some requests for ATF funding that would increase positions, as 
well as increase funding. This funding would allow us to bring 
on board 200 additional personnel, 80 of whom would be agents, 
120 would be what are called industry investigators or Industry 
Operations Investigators, to support our new review on those 
who are engaged in the business of dealing in firearms. The 
Special Agents would be working on violent crime issues, 
trafficking cases and the like. They would enhance our efforts 
in reducing violent crime across the country, again, using the 
existing laws.
    Certainly the NIBIN network has been of great use to law 
enforcement over the years. The sharing of information at the 
Federal, State and local level about ballistics being used in 
crime have been extremely successful.
    And the other initiatives that we propose would also 
enhance our ability to detect when guns are lost or stolen in 
transit much earlier, as those guns tend to be used in crimes. 
We have seen that in terms of firearms recoveries from crime 
scenes. And so having the ability to start those investigations 
earlier would also enhance public safety.
    So indeed, the recommendations that we made are designed to 
tackle these difficult issues of both violent crime and also 
keeping guns out of the hands of those who are not authorized 
by law to have them. But at the same time strengthening the 
background check system called the NICS system, so that the 
licensed dealers who rely on that system to comply with the law 
have the best and most efficient system that they need. And so 
that individuals who are also relying on that system as they go 
through a routine firearm transaction, a purchase transaction, 
will have the best and most efficient system as well to rely 
upon as they go about their business.

           NATIONAL INSTANT CRIMINAL BACKGROUND CHECK SYSTEM

    Mrs. Lowey. I appreciate your mentioning the NICS system, 
because I just want to follow up on that issue.
    We know that current law prohibits individuals from buying 
a gun if because of a mental health issue they are either a 
danger to themselves or others or are unable to manage their 
own affairs. The Social Security Administration has indicated 
it will begin the rulemaking process to ensure that the 
National Instant Criminal Background Check System, the NICS 
system, receives all appropriate information on the tens of 
thousands of persons who are found each year to have a 
documented mental health issue, receive disability benefits and 
are unable to manage those benefits because of mental 
impairment.
    If you could just give us an update on this effort, 
including the Justice Department's efforts to assist the Social 
Security Administration in helping to ensure that persons with 
serious mental impairments do not have access to firearms.
    Attorney General Lynch. Well, thank you, Congresswoman, for 
raising that important issue as well.
    Certainly the law does prohibit individuals with certain 
types of mental illnesses from being able to purchase firearms 
and there are very specific delineations of the adjudications 
that are required to meet that. Also, every Federal agency is 
required to provide information into the NICS system that would 
assist the NICS system in being as complete as possible.
    The Social Security Administration is engaging in this 
rulemaking so that they can in fact produce a clearer, legally 
consistent definition of which types of individuals and which 
types of adjudications involving their mental health would be 
required to be turned over to NICS. And the Department's role, 
as with all rulemaking, is to provide legal assistance and 
clarity as the Social Security Administration goes through that 
process.
    They will essentially craft a rule, it will go out for 
public comment. Those comments are received back and the 
agency, the relevant agency, in this case SSA, would provide a 
response before any rule would be promulgated. But it is 
designed to make sure that the individuals who fall in that 
category are those that are clearly connected to the legal 
prohibition against being able to buy or maintain a firearm.
    Mrs. Lowey. Thank you very much.
    Mr. Culberson. Thank you.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman.

                           IMMIGRATION JUDGES

    You know, I think you can figure out that I am the chairman 
of Homeland Security Appropriations Committee by the comments 
of the chairman. The DHS has been doing all we can to catch and 
investigate criminals, illegal aliens and smugglers that are 
pouring across our southern border. As the chief law 
enforcement officer of the land, you must do your part and 
follow through with the prosecutions and consequences.
    In the past two years, you have requested and received 
increased funding for immigration judges. Mind you, these are 
courts used 99 percent of the time by foreigners who are 
seeking an immigration benefit, yet still we fund them through 
taxpayer dollars.
    Why are we not placing these immigration judges on the 
border where the rubber actually hits the road? Why do our wait 
times increase, even though we are increasing the number of 
immigration courts? And why does my staff report sitting in 
immigration hearings only to see case after case 
administratively closed, allowing thousands to circumvent 
immigration enforcement?
    Would you like to answer those questions?
    Attorney General Lynch. Well, thank you for raising this 
important issue, because as you note managing the immigration 
caseload is one that has become increasingly challenging for 
all of us, those who are involved in interdiction at the 
border, those of us who are involved in prosecuting the cases 
that arise from that. The Department of Homeland Security as 
well as they deal with not just deportation, but managing all 
of the issues that flow from that. And so I thank you again for 
your commitment to that issue as well.
    Certainly with respect to our immigration judges, as you 
indicate, we have received increases over the last two years 
for the hiring of more immigration judges. And let me thank 
this Committee for recognizing the need for hiring more 
immigration judges and express the Department's appreciation 
for your support with that.
    Certainly with respect to the total Office of Immigration 
Review, we are in fact requesting additional funding, but no 
new judges this year. Because we have brought judges on board, 
we are in the process of hiring more using the funds that were 
provided to us, and the additional funding that we are 
requesting is to make sure those judges are up and running. As 
you indicated, there are often long waits, they are often 
crowded courtrooms. And so we are using the additional funding 
request, or the additional funding request would be used, I 
should say, to support the infrastructure for those judges. And 
so we want to be responsible with our request and fully 
integrate those judges and continue hiring using the money we 
already received.
    With respect to immigration judges on the border, we have 
tried to be flexible with regard to that. Certainly within the 
last year or so, it may have predated a bit my time as Attorney 
General, but as I am sure you will recall from dealing with the 
Homeland Security issues, we have waves of individuals coming 
across the border at different times and the composition of the 
groups will change. For example, when we have large numbers of 
unaccompanied children and very young people coming across the 
border, in fact what the Department of Justice did was 
temporarily reassign some immigration judges to the border 
areas to handle just the influx of cases there.
    And we look forward to continuing to be responsive in that 
way, so that we could deploy judges to those areas where their 
colleagues would be overwhelmed. And we hope that the 20 new 
judges that were hired last year will go a long way towards 
that. And we have additional hiring planned, as I mentioned, 
with the money that was already appropriated.
    So again, we feel that we can be flexible and we look 
forward to continuing to be flexible. If there were to be a 
crisis again in another portion of the country, not the border, 
but maybe the northwest border, for example, or the northern 
border, we would again use that flexibility to make sure we 
could staff up those judicial offices so that their colleagues 
would not be overwhelmed.
    And so that is how we would intend to deal with that again, 
but we are requesting additional funding so that we can bring 
on board the judges. And we do appreciate this Committee's 
support of the efforts of the Office of Immigration Review.

                         UNACCOMPANIED CHILDREN

    Mr. Carter. Within the last four months, and we have had a 
sudden drop-off this month, but over the last four months our 
numbers on the UACs, the unaccompanied children, have gone 
right back up to 25 or 30,000. It is really unusual at this 
time of the year. Those of us who have lived in Texas and know 
what goes on at the border because we have lived with it all of 
our lives, when it gets cold, people do not come across the 
river, when it gets warm, people come across the river. It is 
just pretty simple, it is cold to get wet.
    And so the situation is, this is contrary to what we would 
expect. This means that there is something driving people up 
here. If we cannot get them before an immigration judge 
hearing, if we give them the notice to appear, they are then 
picked up by another federal agency and transported God knows 
where in the United States. It could be all the way to Maine, 
Washington State or the tip of Florida. We do not know where 
they are going. With a notice to appear, the chances are, 
especially since most of the children that we are calling 
children are 14 to 17 years old, that is the highest number of 
category that are coming up as unaccompanied, quote, 
``children.'' By the time they get reached, there is a good 
chance they will be adults. OK? We have got to fix that.
    And I know you are trying. And, if you ask for more money 
for judges, I personally will give it to you, because I truly 
believe the solution is bringing them before a court of 
jurisdiction and have a real hearing, not an agency and a 
bureaucrat.
    So thank you for what you are doing. Ask for it and I 
personally will be on your side.
    Attorney General Lynch. Thank you, sir.
    Mr. Culberson. Thank you, Judge.
    I recognize the gentleman from New York, Mr. Serrano.
    Mr. Serrano. Thank you so much.
    Thank you for being here with us and congratulations on 
being our Attorney General.

                             VOTING RIGHTS

    You know, when I first came from Puerto Rico as a young boy 
and I started paying attention to what was being discussed in 
my house, it was at the beginning of the civil rights movement 
and it was whether Puerto Ricans could vote in New York or not. 
And both movements had something in common, which was voting 
rights. In our case, it was whether we took a test in English 
or in Spanish. That was settled by the courts.
    Lately, many of us, as you know, have felt that we are 
making it harder for people to vote, not easier to vote. And 
that brings me to the question of what happened with the 
Election Assistance Commission where a commissioner wrote to 
some states and said you cannot ask for citizenship. That has 
always troubled me because, you know, in my case and in the 
case of many other people, we do not walk around with proof we 
are citizens. That is just the way it is.
    In fact, this voting card is probably--my congressional 
voting card is probably the only proof I have on me that I am a 
citizen, because we would assume that all members of Congress 
are citizens of this great land, but that is it.
    And so my question to you is, what role is the Justice 
Department playing on that particular issue with that 
commissioner from the Elections Commission? Do you feel that he 
had a right, without giving me a judgment if that is what the 
case would be, to write that letter?
    And lastly, very briefly, what in general are we doing to 
protect people's rights to vote? Because it seems to me that at 
this time in the history of our country to be fighting the 
voting rights issue all over again is a very sad state of 
affairs.
    Attorney General Lynch. Well, Congressman, with respect to 
the specific case that you raised, it is actually currently in 
litigation. Typically, it is the Department's responsibility to 
represent Federal agencies. We do advise all of our client 
agencies on the applicable laws and issues that are raised by 
their actions. And with respect to this case, it is currently 
in litigation, so I am not able to give you specifics on that. 
I think that there is a judge who is going to be holding a 
hearing soon to review whether or not there is a legal basis 
for certain actions. And so I will leave that matter there.
    With respect to voting rights in general, it is in fact one 
of the Department's priorities to make sure that we fully 
enforce all of the relevant and applicable laws that protect 
the rights of everyone to vote. Certainly there have been 
changes in those laws recently with respect to the Voting 
Rights Act itself. Pre-clearance is no longer an option or a 
tool that we have, but that does not diminish the Department's 
resolve and commitment when issues are brought to us of where 
we do not have pre-clearance eyes on something where there is 
evidence of irregularity or issues arising later in the process 
of starting investigations and working there.
    And I would note that this is also an important issue in 
the field with respect to the U.S. Attorney community also. 
They are very concerned at the local level as to whether or not 
there would be any irregularities with voting and are very 
focused on that.
    So we are very committed to protecting the right to vote 
for all Americans and making sure that it is exercised in as 
free and open a way as possible. We provide guidance to States. 
Some States do come to us and ask us questions about changes, 
we still do that, and we will consult with them and have had 
very positive dialogues on specific issues about the best way 
in which to ensure an open right to vote. And where necessary, 
we will litigate those issues also and then we will let a court 
decide.
    But where we feel that the right to vote is being infringed 
in a way that is inconsistent with the values of this country, 
which is that every American needs to participate in this 
democracy of ours, we will bring those actions as well.
    Mr. Serrano. In the time that I have left, I know you 
cannot comment on litigation or something that is being 
litigated, but are you at liberty to comment on whether it is 
true or not about the rumor we hear that the Justice Department 
has asked the judge for a stay on the sole issue of--by the 
Elections Commission?
    Attorney General Lynch. Well, I think that the pleadings 
have been filed now and I think that the plaintiffs did ask the 
court for an injunction. I think the matter is under 
consideration now.
    Mr. Serrano. Thank you so much.
    And thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano. I appreciate very 
much your focusing on making sure that every American has a 
right to vote and that means eligible to vote, and I deeply 
appreciate that.
    And that you will also defend, as the Department always 
has, Federal agencies and, therefore, you will be defending the 
Federal Elections Commission. I think that is really important 
and I appreciate that very much.
    I want to recognize Mr. Kilmer and then I believe we are 
going to wrap up.
    Mr. Kilmer. Thank you, Mr. Chairman.

                         21ST CENTURY POLICING

    I am grateful that the President established the task force 
on 21st Century Policing to provide a roadmap on how to build 
trust and incorporate best practices to reduce crime and make 
sure everybody is safe. And I know that the task force made 
several recommendations that were specific to the LGBTQ 
community and making sure that everyone is safe.
    I know the Department is taking the lead on promoting the 
adoption of those best practices and those recommendations. I 
was hoping you could just give an update on how that is coming 
and what the strategy is for getting these measures adopted 
nationwide.
    Attorney General Lynch. Yes, thank you. This is an 
important area. It is essentially an area in which some of our 
most vulnerable citizens have often either felt that police 
protection did not extend to them or they were reluctant to 
seek police protection because of a view that they would not 
receive it. And so it is also an area that, frankly, when I 
talk to law enforcement, they do not want anyone feeling that 
you cannot call on an officer for help.
    And so we have tried to provide guidance, we have tried to 
provide training on how to deal with individuals who are in 
this vulnerable situation, either under attack or under 
assault. We have tried to provide training in dealing with 
individuals who present issues of gender identity, so that 
police officers have the training that they need to recognize 
the issues that come from that, ranging from booking to 
housing, for example.
    And so one of the things that we have done is, and I may 
have mentioned in an earlier response to a question, that we 
have recently released guidance on sexual assault and domestic 
violence. This guidance focused on identifying and preventing 
gender bias and law enforcement's response to domestic violence 
and sexual assault. And we have consulted closely with State 
and local law enforcement, both for their experiences and the 
questions that they had also.
    And so that guidance came out in December and it does 
identify and recommend practices that will help law enforcement 
agencies develop best practices to respond to crimes of 
violence, not just what people traditionally view as domestic 
violence against women or sometimes men, but also the LGBTQ 
community, to recognize those symptoms and to be able to 
respond to those individuals.
    And the guidance also seeks to make sure we have ways to 
connect law enforcement with a very, very important part of the 
community when it comes to all types of domestic violence, 
which is other agencies and resources, often community 
resources or non-governmental agencies or NGOs, that can 
provide support for victims of domestic and sexual violence.
    Mr. Kilmer. Thank you for that.

                          SUPPORT FOR VETERANS

    With the time I have left. I represent a district that has 
a large Navy base and I think I represent more military 
veterans than almost anybody in this place, and I feel very 
lucky about that. And I fundamentally believe, if you serve, we 
should have your back. My State's Human Rights Commission has 
had to meet a surprising number of instances where service 
members or veterans have voiced concerns around housing or 
employment discrimination.
    I know the Civil Rights Division under your jurisdiction 
deals with those issues. And I want to just get a sense from 
you whether it is properly resourced to deal with the needs of 
service members and veterans in this regard, and what sort of 
demand you are seeing for those services and the ability of the 
division to meet that demand.
    Attorney General Lynch. Well, I want to say that I 
certainly agree with you in the fact that I think we owe our 
veterans the greatest support when they return home, be it an 
issue of health or be it an issue of services, or the all-
important right to vote when they are also stationed overseas. 
Because one of the things that we do in the Civil Rights 
Division is have a very active practice in making sure that 
service members who are stationed overseas have the information 
they need to know how to vote and that that particular right is 
not infringed through a logistical problem or some other issue. 
We do enforce the Federal laws that help them also return to 
their workforce when they come home from military duty.
    And also we have seen a number of disturbing cases that 
involve financial exploitation of our service members, both 
when they are coming back and trying to seek housing, and also 
while they are on active duty, of service members and of their 
families. We have seen some unfortunate instances where that 
type of fraud is growing and that is a matter of grave concern 
to me as well.
    And we also have issues of course with many of our service 
members returning injured. Some of these injuries are visible, 
some of them are not visible, but it presents them with a 
disability that gives them special needs in terms of housing 
and employment. And so we take very seriously our 
responsibility to defend their right to those reasonable 
accommodations as well.
    Currently, the fiscal year 2017 budget includes a total of 
4.1 million in resources, which is going to plus up the service 
members civil rights cases work by a little over $580,000.
    We also have a service members initiative at the Department 
of Justice that is led by my outstanding Associate Attorney 
General. And it really has been instrumental in making sure 
that we at the Department look at all of the issues that our 
service members present and make sure that, whether it is not 
just civil rights, but other areas also. I mentioned the fraud 
cases growing, that the Criminal Division is cognizant of these 
issues as well.
    And so we are trying to look at all of the issues presented 
by our service members and be responsive.
    Mr. Kilmer. Thanks. We would love to follow up with you on 
that.
    Attorney General Lynch. Yes.
    Mr. Kilmer. Thanks.
    Thank you, Chairman.
    Mr. Culberson. Mr. Kilmer, thank you. Committee members, 
thank you.
    And above all, Attorney General Lynch, I want to thank you 
for your service to the country and in keeping us all safe, and 
for your cooperative relationship with this committee, it is 
deeply appreciated, in ensuring that Americans can sleep 
soundly at night knowing that the Department of Justice and 
their local and State law enforcement officers are working 
together to protect themselves and their families.
    Thank you very much and the hearing is adjourned.
    Attorney General Lynch. Thank you, sir.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                       Thursday, February 25, 2016.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

HON. JAMES B. COMEY, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
    Mr. Culberson. The Commerce, Justice and Science 
Appropriations Subcommittee will come to order. The 
Subcommittee welcomes today Director James Comey to present the 
President's fiscal year 2017 budget proposal for the Federal 
Bureau of Investigation.
    The FBI Director is of course at the forefront of the news 
today where the topic is terrorism, cyber threats, foreign 
espionage, and international organized crime. The FBI is 
responsible for leading America's domestic anti-terrorism, 
counterintelligence, and national security efforts, along with 
your mission, Director, to combat gangs, financial fraud, human 
trafficking, and public corruption. Prior to 9/11 the FBI 
focused on investigating crimes. However today, of course, the 
FBI is charged with anticipating and preventing attacks from 
terrorists along with investigating federal crimes.
    We on the Commerce, Justice and Science Appropriations 
Subcommittee, Director, will always provide you and your men 
and women who serve us and protect us with the support you need 
to meet the increasing demands that are placed on your fine 
people and resources. But as you know the committee faces 
unrelenting pressure to trim budgets and in an environment 
where essentially we are facing flat budgets from year to year 
and increasing pressure on our mandatory social safety net 
programs that have simply got to be brought under control if we 
are ever going to balance the Federal budget. The Committee 
will do everything we can to help you in that difficult 
environment.
    Today we will probe your request, seeking assurances that 
our investments in the FBI will significantly improve your 
capabilities, will strengthen national security, and measurably 
reduce crime. We have the highest esteem for the FBI, Mr. 
Director, but the committee will not be giving any free passes 
for funding increases. We must be convinced that our 
constituents' hard-earned tax dollars are going to be used 
frugally and carefully to advance our highest national 
priorities.
    Before we proceed I would like to recognize Mr. Honda, our 
ranking member from California, for any comments he may have.
    Mr. Honda. Well thank you, Mr. Chairman, and welcome Mr. 
Secretary. And I appreciate our continued work together as we 
enter into the third CJS hearing today and I am looking forward 
to pursuing our mutual interests together with all of our 
respected colleagues on this subcommittee in crafting a strong, 
bipartisan CJS appropriations bill. And thank you, and welcome, 
Director Comey. It is a pleasure to have you join us this 
afternoon to hear your testimony and take our questions.
    First and foremost I would like to say that I have a great 
respect for your prior statements that partisan politics should 
play no role in your department. And I would like to also 
personally thank you and the dedicated men and women at the 
Federal Bureau of Investigation who work tirelessly to protect 
the American people against threats, primarily here at home in 
the United States but also abroad. And I think that we all 
agree that the work of the FBI is vitally important to the 
security of our nation. But I also strongly believe that 
safeguarding the civil liberties of all Americans is equally as 
important, if not more so.
    The Constitution is never tested during times of 
tranquility. It is during times of tension, turmoil, tragedy, 
trauma, and terrorism that it is tested. We must make sure that 
it survives these tests.
    With that being said I am eager to learn about the progress 
the FBI is making in combating sexual assault and human 
trafficking and keeping guns out of the wrong hands, among 
other activities.
    Thank you again, Director Comey, and I look forward to 
hearing your testimony.
    Mr. Culberson. Thank you, Mr. Honda. It is my pleasure to 
recognize the chairman of the full committee, the gentleman 
from Kentucky, Mr. Rogers.
    The Chairman. Thank you. Mr. Director, welcome to the 
Congress. Thank you for the work you are doing. Thank you for 
your dedication to public service.
    Everyday the FBI is on the razor's edge in protecting our 
homeland from extremism, guarding against global cyber threats 
and espionage, and putting dangerous criminals behind bars. The 
world is changing quickly as new threats emerge, ones that we 
did not even dream of 5 years ago. The tragic attack in San 
Bernardino showed that those who wish to do us harm are 
adopting more sophisticated recruitment tools than ever before 
and we routinely witness the FBI rising to the challenge. And I 
have no doubt that they will continue to do so in the future. 
Your work is essential to our national security and our 
economy. And so this committee thanks you, Mr. Director, and 
your 35,000 coworkers for your dedicated service.
    As with virtually every year in recent memory, we are 
forced here to make difficult decisions to stay within the 
confines of our budget parameters. Your request of $8.4 billion 
is essentially flat. But many of the offsets will effectively 
reduce the operational capabilities of the FBI. A few 
problematic reductions include almost $74 million in additional 
funds that we gave to you in fiscal year 2016, $57 million for 
personnel, $74 million for an operational rescission, and $150 
million in fees for IT and criminal database improvements.
    While we should always be judicious on how we allocate 
scarce resources, we need to hear from you about why you feel 
these accounts are the best places to scale back. It is also as 
important as ever for the FBI to make the most of its local, 
State, and even international partnerships to ensure that every 
penny is spent as efficiently and effectively as can be. These 
partners thrive with the support and leadership the FBI 
provides.
    One of my highest interests, and I am sure it is yours as 
well, is the effort to combat drug trafficking around the 
world. As you know my corner of Kentucky was among the first to 
feel the pain of opioid addiction in the 1990s, and more 
recently the surge in heroin. With your success combating 
production and trafficking in South and Central America, and 
then new initiatives like your joint documentary with the DEA 
called Chasing Dragons, I am confident that your partnership in 
this epidemic will yield results. But we have got to keep our 
foot on the gas pedal hard.
    As we discussed last year, the growing threat of homegrown 
terrorism. ISIS and other extremist groups have spread that 
poisonous doctrine worldwide through the Internet and social 
media. We have got to be diligent to stay ahead of the curve 
and I look forward to hearing your plans to stop the 
radicalization of American citizens. More specifically how we 
can be sure that the internet, this new international mode of 
conversation, that also allows evildoers to organize their 
efforts, how can we tackle that part of the problem?
    I look forward to hearing from you. Thanks for coming.
    Mr. Culberson. Thank you, Mr. Chairman. At this time it is 
my privilege to present our ranking member, the gentle lady 
from New York, Mrs. Lowey.
    Mrs. Lowey. And I would like to thank the chairman. And it 
is a pleasure to have you with us, FBI Director Comey. You have 
served this country through multiple presidents and parties so 
I welcome you and thank you for your service.
    The internet and social media have revolutionized our 
economy and our way of life. They have also become the weapons 
of choice for terrorists to spread propaganda and recruit and 
radicalize followers. As we tragically witnessed in Paris and 
San Bernardino we are facing a new type of terror attack, 
including the growing threat of homegrown extremists and lone 
wolf terrorists. And Congress must provide the FBI with the 
resources to keep up with these evolving threats.
    I look forward to hearing how increased funding to enhance 
the technical capabilities of the FBI's investigative 
personnel, increase the number of cyber investigations, improve 
cyber collection and analysis, would help meet this need.
    I wholeheartedly support the administration's requested 
increase for the National Instant Criminal Background Check 
System, or NICS. Black Friday, 2015 broke records for gun sales 
with 185,345 background checks processed in a 24-hour period, 
slightly more than two background checks every second. It is 
clear that the FBI will need additional investments to keep up 
with the record breaking sales.
    Last month the President rolled out his executive actions 
to prevent mass shootings and loss of innocent American lives. 
Many NRA-backed Republicans in Congress seized that opportunity 
to make clear they will not support any measures to implement 
the President's plan, including increased NICS funding to keep 
up with an increase in background checks. I fear this is 
misguided and is indicative, I hope not, of what is to come 
during the appropriations process.
    Despite the threats facing our nation, the men and women of 
the FBI put their lives on the line everyday so that we may 
live safely and securely. They deserve to be commended, as do 
you. We thank you for your service, Director Comey, and I look 
forward to hearing your testimony. Thank you.
    Mr. Culberson. Director Comey, I also thank you on behalf 
of the people of Texas for your service and we recognize you 
for your opening statement. Without objection, your written 
statement will be entered into the record. But we would ask if 
you could to keep your remarks to five minutes to permit 
additional time for questions.
    Mr. Comey. Certainly.
    Mr. Culberson. Thank you, sir.
    Mr. Comey. Thank you, Mr. Chairman, Chairman Rogers, Mr. 
Honda, Mrs. Lowey, thank you for having me here. Again, it is a 
pleasure to be before you. Thanks for your good words about the 
people of the FBI because they are the magic of the 
organization I am lucky enough to lead. I always tell them we 
do not have a lot of fancy stuff, but we have great people. 
Moments before I got in the car to come here I welcomed 170 new 
employees who are joining us from all over the country. They 
come together to make sure that we are knitting them to a 
common culture, including our ethics and integrity 
responsibilities. And I said to them, I hope you did not sign 
up here to get rich. This is not about the money. I do not 
believe the FBI is something you do, I actually think it is 
something you are. It is an orientation towards life and 
towards service. So thank you for your support of our folks. It 
makes a big difference.
    I just want to say a few words about stewardship. I am very 
proud of the way in which the FBI has acted as a good steward 
of the taxpayers' money in the United States during my two and 
a half years as Director. In particular, as I told you, we 
tried to be very conservative my first two years on this job in 
what we asked for. And I promised you that if I really needed 
more dough in areas, I would come and tell you, and I am here 
today to tell you about some of those ways in which I think we 
need more resources.
    But we are trying to go even farther. We have made it one 
of our strategic objectives in the FBI to reinforce that 
culture of stewardship so we maintain an approach that is like 
this when people drive a car that is an FBI vehicle, I want 
them not to think of it as somebody else's car. I want them to 
think of it as the taxpayers of the United States' car, so they 
must care for it like they borrowed it from somebody they care 
about deeply. And we want that attitude about our buildings, 
about our pens, about all of our resources. Because it is all 
borrowed from people who work hard to pay their taxes. We are 
trying to drive that attitude into this organization so that 
stewardship becomes part of the fiber of this great FBI.
    I just want to say a few words about the things that I am 
here to ask for more support on. In particular we need a new 
headquarters very, very badly. If our people are going to be 
safe, be effective, and if we are going to be good stewards of 
the taxpayers' money, we have got to get them all in a modern, 
safe, efficient FBI headquarters. So there is a big sum asked 
for in our budget to support that and I very much appreciate 
the support across the aisle on our need for that headquarters.
    Cyber also remains a top priority of the FBI for reasons 
that this committee knows. As you know, we are asking for an 
additional $85 million for cyber. That is going to go mostly to 
equipment and to training. We have to have equipment that is at 
least as good as the bad guys' so that we can move information, 
analyze information, and respond to the threat as fast as it 
comes at us, which is at the speed of light.
    We have also asked for $38 million to deal with the problem 
we call going dark, which is far broader than the problem with 
locked devices or encrypted communications. It encompasses a 
whole host of challenges to our lawful functions. And so we 
need to invest in technology, in particular, so we are able to 
execute lawful court orders in a good way.
    And as Mrs. Lowey mentioned, we are also asking for 
additional support for our responsibilities to check the 
backgrounds of Americans who want to purchase firearms. We have 
seen a huge increase in the number of transactions we have to 
process. That has put great strain on our folks. They are 
working like crazy to make sure they meet that obligation to 
ensure that bad people do not get guns. But we have got to get 
them help, and that help has got to come in additional 
personnel. So we have asked for $35 million to plus up the 
folks who answer the phones and who process the transactions.
    And the last one I want to mention, Mr. Chairman, you and 
Mr. Rogers mentioned the challenge we face in counterterrorism. 
This ISIL threat is not your parents' Al Qaeda. As we have 
talked about many times, it is a dispersed threat. It is an 
effort by these savages to motivate troubled Americans to kill 
in their name and to reach them wherever they are, which 
unfortunately is in all 50 states. If we are going to be 
effective against that threat, one of the tools we have to have 
and to use well is surveillance. We have to follow some of 
these people to make sure that they do not harm innocent 
people. So we have asked for an additional $8 million to hire 
additional people to make sure we are following bad people and 
keeping Americans safe.
    Those are the items I wanted to mention in particular. I 
will just close by saying thank you, again, for the support to 
this organization. We know we can count on the resources, even 
in tough times, that are absolutely necessary to keep the 
country safe. And we are grateful for it. Thank you, sir.
    Mr. Culberson. Thank you, Director. I know I speak on 
behalf of all my colleagues with the admiration that we have 
for the FBI and the good work that you do. But as Chairman 
Rogers said, and I deeply appreciate your recognition, that we 
have to all be good stewards of these very precious and scarce 
hard-earned tax dollars. And I particularly like your approach 
that you have played out, that you have asked all your 
employees to think of every asset, every resource, everything 
that you work with at the FBI as borrowed from someone who they 
care deeply about. That is a great way to think about it.
    We have in this Subcommittee in past years and in the 
fiscal year 2016 bill worked hard to protect the supply chain. 
That has been a real source of concern. My predecessor Frank 
Wolf quite correctly identified this early on--I think Frank 
was one of the very first out of the gate, to recognize the 
threat posed to this country by cyber espionage, cyber theft, 
particularly from China. And the supply chain is one particular 
source of concern and vulnerability. So I wrote into the 2016 
bill, in consultation with the good people in your office, to 
give the FBI an enhanced role in reviewing the supply chain for 
telecommunications equipment, for computer equipment, acquired 
by agencies under the jurisdiction of the Commerce, Justice and 
Science Subcommittee. Could you describe, Director, the threat 
that all agencies in the Federal government face from foreign 
governments and other bad actors to their information 
technology systems?
    Mr. Comey. Yes, thank you, Mr. Chairman. And thank you for 
your support of that effort. The FBI has taken your urging and 
marched out and executed on it. After the language in last 
year's bill we have promulgated already to every Federal agency 
on our website a primer on the best practices to think about 
supply chain. Because we are only as strong as our weakest 
link. So you can spend all the time in the world making sure 
that foreign states are not penetrating the top corporation in 
the chain but if they get in down below, they are going to 
wreak just as much havoc. So we have tried to train the rest of 
the Federal procurement world on how to think about that. We 
have also stood up something called the Hybrid Threat Center, 
which I just talked to the House Intelligence Committee about 
this morning. We have brought together a lot of elements of the 
intelligence community and other parts of the U.S. government 
to literally sit together and think about the threat posed to 
the United States by corporations who are allowing themselves 
to be co-opted and act as agents of foreign powers, and the 
work of foreign powers trying to penetrate that supply chain 
maybe at a lower level and work their way up. It is an enormous 
undertaking. I am not here to report that we have licked it. 
But thanks to your support, I think we have made a good 
downpayment on that effort.
    Mr. Culberson. And the approach that we took, Mr. Chairman, 
in order not to overwhelm these good men and women, was asked 
the FBI to come up with sort of a Good Housekeeping seal of 
approval from the FBI, best practices as the Director just 
said. And the best practices, which you just published and I 
thank you very much for that, the agencies under the 
jurisdiction of CJS are compelled to follow the FBI's best 
practices to protect the integrity of their supply chain. 
Because we know of the threat posed by, there are a lot of 
countries but China is the worst offender, in building in hard 
wiring, Trojan horses, or back doors into computer chips. And I 
think Australia has just forbid, they will not allow any 
government entity to buy routers or telecommunications 
equipment manufactured by the Chinese. They just flat will not 
buy them because of the pervasive threat posed by the Chinese 
and using that Chinese built equipment to penetrate the 
government.
    What has the response been, Director, from agencies once 
you have published the best practices? Are they adopting, do 
they seem to be adopting the best practices that you have 
published? And are you working with agencies to ensure that 
they understand their supply chain threats?
    Mr. Comey. I am told they are making the right positive 
noises about it. It is probably too early to say what progress 
people are making at pushing those best practices into their 
procurement. But everybody seems to understand the threat, 
which is one of the most important parts of the whole exercise, 
to open eyes to what nation states could do to us. And so we 
really have to watch this space to see how well they do it. But 
that is part of our job, is to watch that space.
    Mr. Culberson. So far so good?
    Mr. Comey. So far so good.
    Mr. Culberson. Could you tell us, and I know this is an 
open setting, but you have talked to me about this in a 
classified setting, what could you tell us in an open setting 
about some of the, you have opened I know some eyes in some 
agencies and had some positive result. Is there anything you 
can tell us a little bit about that here today in a setting 
like this without getting too specific?
    Mr. Comey. Yes, I want to be careful because I do not want 
particular countries and companies who have been co-opted by 
those countries to know what I know. But there is no doubt 
there is a concerted effort by hostile states to use not just 
traditional espionage but to use so called legitimate ventures 
as an instrument to gain access to our systems and our 
processes. It is a fairly sophisticated effort that goes on. 
And as I said, it really requires eye opening on some--I see 
the world fairly darkly given the nature of my life. But it is 
important to make sure that some of our colleagues in agencies 
that do not have enforcement responsibilities, they see enough 
of the darkness to know that they should ask good questions and 
ask hard questions. That is what this education process has 
been about.
    Mr. Culberson. I guess what I am driving at does this 
approach appear to be that it looks like it is going to be 
successful?
    Mr. Comey. It does. I think it is.
    Mr. Culberson. OK. Very good, sir. Thank you very much.
    Mr. Honda. Thank you, Mr. Chairman. The House fiscal year 
2016 CJS report included language on private lab and uploads to 
the Combined DNA Index System, called CODIS. We are very 
concerned that the current requirements make the validation of 
this data very time consuming. While we want to ensure that 
CODIS has a high level of integrity it is also important to get 
the information in a timely fashion, especially in the light of 
our need to bring sexual offenders and other violent criminals 
to justice as soon as possible. We asked that you examine ways 
to expedite this process. So how are you moving forward with 
the recommendations included in this report?
    Mr. Comey. Yes, thank you, Mr. Honda. That is a very 
important topic, one you and I, I think, have spoken about for 
the last two years. We have really wrestled with this, whether 
there is a way to require something less than 100 percent 
validation of a private lab before we will let them put 
anything in what is the gold standard database for this country 
on DNA--CODIS. And honestly, we have come to the place where we 
feel we cannot allow anything less than 100 percent. Because if 
we do anything to damage the gold standard that is the nation's 
DNA database by letting subquality work be deposited into it, 
we are going to be sorry someday. So we have looked at that in 
good faith and been unable to come to a place where we think we 
can weaken the requirements for a private lab. Instead, we are 
trying to focus on ways we might equip the States, in 
particular, to catch offenders quickly while the validation 
process is going on. And what I understand we have been trying 
to do is equip states to allow private labs to put data into 
the State's DNA holding, before we allow them to put it into 
the federal. Because most of the hits for any particular 
offender are going to be in a single state, and so we think 
that deals with part of the problem. We have not done it long 
enough to know whether people are going to be happy enough with 
that to stop beating on us. But we have held the line on not 
allowing private laboratories direct access to CODIS. We have 
tried to speed it up by equipping the States to work with 
private laboratories in a better way.
    Mr. Honda. So explain to me then the relationship of the 
State's process and their inputting their data into CODIS, and 
how are they reaching the 100 percent validation standards that 
you are requiring?
    Mr. Comey. My understanding of the way it works, and if I 
screw this up I am sure experts will fix it and will come back 
to you. States have to validate 100 percent of the work of the 
private lab before it can be part of CODIS. And that is a time 
consuming process. We think it is necessary to maintain the 
purity of the gold standard. But what we have said is we have 
no problem if you want to use the private lab's result in 
conjunction with the state's depository of DNA data. And we 
think that deals with a large part of the problem because most 
offender information is going to be within a particular state, 
so the hits will be generated from intrastate data.
    Mr. Honda. Well not to be argumentative, but you are saying 
the states can achieve 100 percent validation according to your 
golden standards, and you are requiring each State to have 
these private entities to achieve that at the state level, and 
then it goes into the FBI, in your system, the CODIS system?
    Mr. Comey. I think that is right. We have told the country 
that we will not allow a private lab to put their information 
directly into CODIS. We will require that someone stand up for 
them and say ``we have checked all of this out, 100 percent, 
and so it is good enough to go into the CODIS database.''
    Mr. Honda. So help me understand, who stands up for the 
State to validate the 100 percent?
    Mr. Comey. I do not know the answer to that. I think we 
rely on the States to do it. But I am sure there is some audit 
function where we, at the national level, check how the States 
are doing. But we can get you that answer for sure if you need 
it.
    Mr. Honda. So can local law enforcement and district 
attorney's office achieve that validation requirement that you 
require?
    Mr. Comey. Can, say, local labs do it?
    Mr. Honda. Local labs and the DA's office? Or can law 
enforcement offices be trained to do that, aside from private 
entities?
    Mr. Comey. I do not know the answer to that. I will find 
out the answer and get back to you on it.
    [The information follows:]

    A State is responsible for verifying data they enter into the 
National level of CODIS--whether generated by a private laboratory or 
by the state laboratory themselves. In order to ensure that a state is 
adequately verifying the quality, there are auditing requirements that 
must be followed in order to participate in CODIS. The requirements 
mandate that a laboratory is audited annually, and that this audit must 
be performed by an external laboratory at least once every two years. 
All audit records must be submitted to the FBI for review.
    In response to the whether or not local labs or DA offices could 
participate, these reviews are technical in nature, and require the 
scientific expertise of a DNA analyst to confirm that the analytical 
results are supported by the data and that all controls and standards 
were appropriate. An alternative available to laboratories, however, is 
the use of a qualified contract employee to perform the technical 
review. A law enforcement agency or prosecutor's office could provide 
finding for such a qualified contract employee to assist the laboratory 
with the technical review of outsourced DNA records. The quality 
requirements for technical review and auditing can be found on the 
FBI's web page at: https://www.fbi.gov/about-us/lab/biometric-analysis/
codis.

    Mr. Honda. Yes, your comment about things happen just in 
the States, we just did an analysis in Alameda County, and we 
had a hit in Florida. So I think that the value of this kind of 
system is that bad actors can run around different States and 
so many, many crimes are left unsolved until we can input some 
of the data that we have in other places. So----
    Mr. Comey. I agree.
    Mr. Honda. I think that we need to keep moving forward. I 
am pushing this, but I appreciate, you know, our conversation 
and hope that we can continue this to a point where we can get 
rid of the 500,000 untested rape kits that are sitting on 
shelves. That is 500,000 victims and perpetrators who are not 
getting justice.
    Mr. Comey. I agree.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Honda. I recognize Chairman 
Rogers.
    The Chairman. Mr. Director, ISIS and company are using 
technology to recruit members and encourage--you are battling 
with Apple over access to the iPhone of Syed Farook, the San 
Bernardino shooter. You are hoping to gain access to that phone 
to find out if there may have been other people involved, and 
so forth. The CEO of Apple says that your request would create 
dangerous legal precedent, would endanger the privacy of anyone 
with an iPhone. What do you think?
    Mr. Comey. Yeah. What we are doing in California with the 
U.S. Attorney's Office, in the San Bernardino investigation, is 
we have a search warrant for one the terrorists' phones, and 
the phone is one that is locked and cannot be opened without 
his pass code. And if we try to guess his pass code, after the 
tenth guess, the phone will essentially auto erase.
    And so what the judge, in the court the search warrant came 
from, has done is issued an order to the manufacturer of the 
phone saying, you must do two things; you must shut off the 
auto erase feature on that particular phone, and you must also 
shut off the feature that when you start to guess potential 
passcodes it makes you wait a longer period of time between 
each guess. The reason being so the FBI can then electronically 
try to guess this terrorist's passcodes. And instead of it 
taking ten years, it could be done in maybe minutes and or 
hours. That is the judge's order.
    The manufacturers resisted it, and will have an opportunity 
to explain its legal basis, I think either today or tomorrow--
which is as it should be. That is the great thing about the 
American system, we serve an order, people can litigate and 
object.
    I do not fully honestly understand all the argument about 
privacy. My view of this matter is, this is a single phone in a 
very important investigation where the ask is to write a piece 
of software that will work only in that phone, right, not 
anybody else's phone. And you, Apple, can hold the phone so 
that the software you write never has to leave your premises. 
We will send you guesses electronically. And if you open it, 
tell us that it comes open.
    So I do not quite understand some of the comments that have 
been made publically about how this is going to affect our 
world, but I think it does illustrate the bigger challenge we 
face. I am a huge fan of privacy. I love encryption, it is a 
great thing. But our need for public safety and our need for 
privacy are crashing into each other, and we have to sort that 
out as a people.
    Sometimes I hear companies say, we are going to get you to 
a place where no one can ever look at your device. And even I 
react to that quickly saying, well, that's great, I don't want 
anyone going through my phone. Then you stop and say, well, 
wait a minute, law enforcement sometimes saves our lives, saves 
our children, saves our neighborhoods by getting search 
warrants from judges--sometimes for suitcases or for 
apartments, sometimes for phones--and if we are going to get to 
a world where there are spaces in American life that are immune 
to judicial search warrants, that is a very different world 
than the one in which we live and we have to talk about that.
    Corporations should not drive us there, the FBI should not 
make this decision, the American people should decide how do we 
want to be governed. That is where I think this matters so 
much. San Bernardino matters because it is a hugely important 
case, but the bigger issue is tremendous and tremendously 
important.
    The Chairman. What would you be looking for in this 
particular case?
    Mr. Comey. In this case, we are simply looking for 
compliance with the court's order that Apple write a one-off 
piece of software that shuts off the auto erase feature.
    The Chairman. No, what I meant was, what could you possibly 
learn from this--from being able to access the phone?
    Mr. Comey. Well, possibly, as I have said, I don't know 
whether there is evidence of the identity of another terrorist 
on the phone, or nothing at all, but we ought to be fired in 
the FBI if we did not pursue that lead. We could not look the 
victims in the face and say, you know what, we decided not to 
execute a search warrant on that phone because it would be 
awkward or people would feel uncomfortable about it in some 
way. We have a duty to try to do that.
    Now, if the judge says, no, the law does not permit that, 
we are big fans of the rule of law, and that will be the end of 
it, but we think we have to follow that lead. This is a live 
investigation, and it is hard to imagine a circumstance where 
our work is more important than this.
    The Chairman. Well, as you said before, it leads us to a 
discussion of the larger picture of the use of the new 
technology that we enjoy today for evil purposes. What have you 
to say about that?
    Mr. Comey. This is the hardest problem I have seen in 
government because it implicates America's gift for innovation, 
implicates privacy, it implicates the rule of law, it 
implicates public safety, and so it cannot be bumper stickered. 
That is what I explain to people.
    The FBI has a limited role here. First, it is to 
investigate cases to try to save people's lives and people from 
pain. The second is to make sure folks understand that this 
world some people imagine where nobody can look at your stuff, 
is a world that will have public safety costs. And we may 
decide, OK, it is worth it, but we shouldn't go there without 
people understanding it.
    So what I am hoping is we will never have a day where folks 
look at us and say, what do you mean you can't? You have a 
judge's search warrant, right? A child is missing, or there has 
been a horrific crime, what do you mean you can't? Before we 
ever get to that day, we just have to talk about it and 
understand how we optimize both of these things we care about: 
privacy and safety. How do we do that? And it is not easy.
    The Chairman. Quickly, my time is almost out. Heroin. In 
the last decade heroin use in this country has increased by 63 
percent. How much of that is attributable to the Mexican 
cartels, like Sinaloa? And how are we letting this amount of 
heroin come into the country?
    Mr. Comey. The country is facing--and Mr. Chairman, you 
know this better than any American--a wave of highly pure 
heroin that is washing across primarily the eastern half of the 
United States. But as big a wave of highly pure methamphetamine 
is washing across the western part of the United States, and 
the waves are actually moving towards each other. They are 
starting to pass each other in the middle of the United States, 
and almost all of it comes from Mexico, that methamphetamine 
and that heroin.
    It is highly pure, it is cheap because the Mexican cartels 
are growing the poppies in southern Mexico. So they are a 
business, their supply lines are very short so they are pushing 
this highly pure heroin into the United States. And especially 
kids are finding it so easy to move from opioid abuse to this 
highly pure heroin abuse and dying in the process.
    So this is something I have had my eyes opened to and 
formed a partnership with the DEA to try and do something 
about. It is washing over us from Mexico and there are lots of 
challenges to the interdiction effort--the Director of National 
Intelligence this morning was talking about how, in his view, 
we need more resources for the Coast Guard because their 
ability to interdict these multi-ton loads has been diminished 
as their resources have diminished. I don't know the answer for 
sure, but I do think it is an emergency in the United States.
    The Chairman. And now they are mixing a very powerful 
synthetic called fentanyl with heroin----
    Mr. Comey. Yes, sir.
    The Chairman [continuing]. Not knowing the potency of that, 
and overdosing and dying. What can you say about that?
    Mr. Comey. Yes, fentanyl is 40, 50 times more powerful than 
heroin. And so they are mixing fentanyl--a lot of which comes 
from China, which is something we are now focused on--with the 
heroin. Even people who think they have gotten used to the 
heroin are killed in a snap when it has that extra hit of 
fentanyl in it.
    You mentioned a film that Chuck Rosenberg, the DEA 
Administrator and I did an intro to to try and help educators 
and families understand what's going on here. There are 
thousands of people dying in this country from heroin--tens of 
thousands from opioid abuse and heroin. And it is so big a 
problem that it is almost hard to get our minds around, but we 
simply must.
    The Chairman. More people dying from overdose from opioids 
than car wrecks. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman. And thank you again 
for articulating so clearly the challenge we are facing between 
privacy and security. I will not continue on that path, but 
many of us have very definite views on that.
    And another issue related to cyber security. I remain very 
concerned with the attacks by cyber criminals on corporation's 
payment systems resulting in the theft of consumers' personal 
information. In the last few weeks, the fast food restaurant 
Wendy's announced an investigation of a potential credit card 
breach, of which they do not know the size yet.
    Other the recent large financial data breaches affecting 
payment systems include Target, in 2013, 40 million payment 
cards, 70 million records of customers' names, addresses, 
telephone numbers, email addresses; Adobe 2013, 152 million 
customer names, encrypted passwords, encrypted payment card 
information; Home Depot 2014, 56 million customer email 
addresses and payment cards. Just some of the examples of 
breaches that we know of, and thousands more I am sure are not 
printed in the newspaper because the companies do not want to 
get this information to their stockholders.
    Your budget includes an additional 85 million to address 
the problem, but it seems to me that unless there are 
consequences, arrests, and prosecution, these will continue to 
be very attractive activities for criminals. I can remember 
being briefed ten years ago by Ray Kelly, the New York Police 
Department, and it seems they were always behind. They would 
always hear of these events after they occur.
    So how many of these large cyber breaches end with the 
responsible parties being arrested and prosecuted? And what can 
we really do about this? How do we improve that? What concerned 
me most about the briefings I got from police Commissioner 
Kelly is that we were always behind. And very often the 
corporations do not want anyone to know. So, thank you.
    Mr. Comey. The honest answer to your how many question is 
not enough. We do not have good statistics on how often it is 
happening for some of the reasons you alluded to. But the major 
problem we face is so many of these offenders are outside the 
United States because the Internet allows them to travel as a 
photon. They do not ever have to come in at JFK and get their 
luggage and then come in someplace and steal from us, they are 
able to do it through the internet.
    And so we have to, as you said, impose a cost so they do 
not think it is a freebie to steal from America. And our goal 
is to have them feel somebody's breath on their back as they 
are sitting at the keyboard, wherever they are around the 
world. And the only way we get them picturing that is if we 
lock people up.
    We have made good progress here, not good enough in a 
couple of ways. From the FBI's perspective, we are embedding 
more cyber agents and cyber analysts overseas to have them sit 
with local police and local counterparts--as old fashioned as 
that seems--so we can get the evidence to make the case, and 
then get our foreign counterparts to arrest these people. That 
is the first thing.
    The second thing we are trying to do is make it less 
profitable, even for those who steal. What has happened since 
Ray Kelly's briefing is the crooks, their world has evolved to 
such a sophisticated place they actually have marketplaces now 
for criminals where if you steal credit card information, you 
do not even have to know who to sell it to, go to the 
marketplace and hire a cash out person, or hire a carder, or 
hire a coder.
    So we are focused on trying to destroy those marketplaces 
because it is actually a weak spot in the criminal world. They 
have evolved and gotten sophisticated, but it actually gives us 
a chance to attack them at a hub that will disrupt their 
activities. So we've got to lock people up and send that 
message around the world, and we got to attack them where they 
are most vulnerable, and that is in their marketplaces. That is 
how we are thinking about the strategy.
    Mrs. Lowey. You know I mentioned several situations that 
have been pretty public. How good is the communication between 
the private sector and your office, or other law enforcement 
offices, or are they still not quite sharing?
    Mr. Comey. No, it has gotten much, much better. Just in the 
two and a half years I have been director it has gotten better. 
Because a board of directors--boards of directors are asking 
about it, CEOs are asking about. Do we have a relationship with 
the FBI or for the payment card folks, especially the Secret 
Service? And are they sharing information with us, and are we 
sharing it back? That has improved dramatically. It is still 
not good enough because our economy is so big and so complex, 
but it is in a much better place today than it was even two and 
a half years ago.
    Because people understand the business imperative, that it 
will save you money if you develop a relationship with us so we 
can tell you what the indicators are of the crooks so you can 
lock your door against them, and so that we can quickly respond 
if you are attacked.
    Mrs. Lowey. I just wonder--and I am going to close with 
this, Mr. Chairman. In my discussion with some corporate boards 
and individuals, most of them have hired huge numbers of people 
to deal with this at their own business site. And I just wonder 
how much communication is taking place between you, and your 
staff, and the corporations before something happens. Is there 
sharing of technology or are they all keeping their own systems 
to themselves?
    Mr. Comey. I think companies would tell you this as well--
it has gotten much, much better. We are doing things like--and 
I won't get into boring details, but we have built something 
called the Malware Investigator. The FBI, for years, has had a 
database, like our fingerprint database, of all malicious code 
that people use to try and break into different systems. And 
we, when we would investigate, would always query it.
    What we have done now is told our trusted private sector 
partners, we will give you an account. We will let you hook up 
to that. If you encounter malicious code, you think it is 
malicious, type it in, dump it into our database, and you will 
get a result in minutes, sometimes seconds. And that is in our 
interest because we get more people contributing samples, but 
it is in the company's interest because they get quick answers. 
You should call LA, the FBI's LA office has dealt with this.
    That is one example, but we got to get better because even 
that is not what they would call machine speed. But that is 
much better than it was three years ago.
    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Culberson. A very important question, Ms. Lowey, and I 
can tell you from personal experience that I have had several 
companies in the Houston area, one research center here even 
recently complimented you, Director, and your team for it. They 
showed up--the FBI showed up at their doorstep and said, we 
think you have a problem. And they sat down in a private 
setting, and walked this research center through the attack 
that had taken place that the researchers had no idea that, 
once again, the Chinese had broken in and stolen all this 
stuff. So you do great work in this area and it is something we 
need to continue to help you in.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. Director, it is great 
to see you again. Last year, in my first hearing with this 
subcommittee, you testified that there are active terrorist 
investigations in all 50 States.
    Since then, two students in my home State of Mississippi 
were arrested trying to join ISIS. Can you provide us an update 
on what the FBI is doing to keep US residents from joining ISIS 
or other terrorist groups?
    Mr. Comey. Yeah. Thank you, Congressman. I remember well 
our conversation a year ago. The picture today is worse in some 
ways, better in some ways. Worse in the sense that the number 
of investigations we have into people who are on some spectrum 
from consuming ISIS' poison to acting on it has continued to 
slowly rise. We have about 1,000 now in the United States. So 
that is very concerning.
    The good news is, we see fewer people attempting to travel 
to the so-called caliphate, which is a nightmare on earth. We 
see that number dropping. And I don't want to be overconfident 
in saying what to make of it, I hope part of the reason is the 
federal courts have given people significant jail sentences for 
joining ISIL, or attempting to go to ISIL, so people understand 
there are huge costs associated with dabbling with these 
savages.
    So I am hopeful that trend will continue. Over the last six 
months, the number has stayed down. But the case from 
Mississippi illustrates the challenge, especially young people 
who are unmoored who are looking for a center in their life. 
And a lot of people find that in unhealthy way through ISIL's 
propaganda. So it remains a dominant feature of the FBI's work 
in the United States.
    Mr. Palazzo. In your testimony you mentioned that 
terrorists are utilizing social media and the Internet to 
disseminate propaganda and recruit American citizens to travel 
to ISIS, and you said that those numbers seem to be trending 
down. But, you know, they are still trying to recruit people to 
do harm here in America, or attack us from within. What is the 
FBI doing to detect, monitor, and prevent terrorists from 
recruiting within our own country?
    Mr. Comey. Everything we possibly can, under the law. We 
are trying to make sure that we have appropriate source base, 
that is, we have people in communities who will tell us when 
they see something odd going on. We try to make sure that we 
have a robust undercover presence, where appropriate, to find 
out what is going on. We try and make sure that we are tightly 
connected with state and local law enforcement. And I probably 
should have said this one first because it is the deputy 
sheriffs and the police officers who know their neighborhoods 
and know the kids in the neighborhood who will have a sense of 
who is going sideways, so that is really important.
    And then we are building relationships with American 
companies, all of whom think about this the same way. They do 
not want their products used by terrorists. And then the last 
one I mention is, we are also making sure we are tight with our 
foreign partners who may see things overseas that are leads 
into the United States for us to follow up on. And I have 
probably forgotten something, but those five are probably the 
core of it.
    Mr. Palazzo. Thank you, Director. I yield back.
    Mr. Culberson. Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman, and thank you, Mr. 
Director, for being with us. I am honored to represent 11 
tribes in the district I represent, I take our nation's 
responsibility to promote tribal sovereignty and to protect 
treaty and trust obligations, I take that seriously.
    Right now 25 percent of violent crimes prosecuted by the 
U.S. Attorney's offices are tied to Indian country. So I would 
like to hear more about how the FBI promotes and supports self 
sufficiency for tribal law enforcement. I would love to get a 
sense of how much money the FBI is making available through 
this budget request for us supporting tribal law enforcement. 
And also just get a sense of internally how do your operations, 
you know, just within your own capacity, support the 
investigation of violent criminal acts in Indian country?
    Mr. Comey. Thank you, Mr. Kilmer, and thank you for your 
interest in this issue. I worry a lot that at times the 
reservations seem like crime scenes without a constituency, 
that no one speaks for the violence and especially the harm to 
children on so many of our reservation lands and among the 
Native American people. So thank you for this.
    We deal with it, operationally, through the Safe Trails 
Task Forces, two of which we work out of the Seattle office. So 
that is a huge feature of our work, especially west of the 
Mississippi. It is one that I have taken a personal interest 
in. I have visited reservations when I was Deputy Attorney 
General.
    I have two daughters who, on a church mission, went to an 
Indian reservation 2 years ago and came back and said, ``Dad, 
you are the FBI director, you must do something.'' They are 
probably the most important constituency in my life I have had 
to report to--Chairman Culberson is an important constituency, 
but I have to report to my daughters and tell them what I have 
done. So among the things I have done is try to incentivize our 
talent to go do that work.
    The details are not important, but we have created 
incentives for our best and brightest special agents and 
analysts, to go work in Indian country to do that work, which 
is incredibly difficult work.
    As you know, we continue to do a lot of training with the 
BIA and with tribal law enforcement, and I don't remember off 
the top of my head the particular numbers, because they have to 
be the front line of defense. The FBI is enormous, but it is 
not as enormous as this problem, and so we rely on the BIA and 
tribal law enforcement.
    But I am not here to tell you that I think the FBI is 
solving this challenge, honestly. It is so big, and so 
horrific, and so invisible to so much of our country, that 
there is not an easy answer.
    Mr. Kilmer. I would very much like to follow up with you 
and your team on that. I want to switch gears entirely. Earlier 
this month, a hospital in Los Angeles fell victim to a 
ransomware scam, and ended up paying $17,000 to hackers just to 
regain access to the hospital's computers. And we have heard 
about these sorts of attacks being perpetrated against cities, 
and law enforcement agencies, and schools, and companies, and 
just regular citizens where people are often forced to pay 
their own money just to get access to their own technology.
    I would like to just get a sense from you of what sort of 
safeguards against these types of cyber crimes should we be 
looking at? What can we do? You know, I know as the FBI 
investigates these sorts of things, are you learning any 
lessons from that? And is there any direction to us as 
policymakers in terms of what might be done in this space that 
may not currently be providing you the resources you need?
    Mr. Comey. Yeah, thank you. This is a phenomenon, as you 
said, that is sweeping across people and nonprofit and profit 
institutions. From the computer hygiene perspective, the lesson 
we have learned here is everybody within the sound of my voice 
should have a good backup. Whether it is your laptop, or 
whether you run a hospital or a business, you must ensure that 
you have adequate backup because the Internet is a very hard 
place to police successfully.
    At some point, someone may try and lock up your device and 
then demand money for it. You are immune to them if you have a 
good backup, as a company, as a hospital, as an individual. So 
that is my overwhelming piece of advice to folks. And then from 
our perspective, to follow up on my conversation with Mrs. 
Lowey, we have to impose costs on those people who are mostly 
outside of the United States, reaching in and locking up 
peoples' systems, then asking that bitcoin or money be wired to 
them. So we need to track those people down and lock them up to 
send a message that this is not some game or some freebie. That 
is hard, but it is something we are trying to do every single 
day. So those are my two pieces of advice.
    Mr. Kilmer. Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you very much.
    Judge Carter.
    Mr. Carter. Thank you, Mr. Chairman. Director, welcome. You 
know the high regard I hold your agency and you personally, and 
all of these agents. I think you are an example of excellence 
that we have to be, and are very proud of.
    And I want to start off with something that is local to me. 
After much frustration with the VA on the lengthy time waits 
and the conspiracies that seem to have existed to shuffle 
papers and harm veterans, I asked for your assistance, and you 
all became involved. And I am very aware, from having dealt as 
a judge with the FBI, you do not comment on investigations.
    Not asking you to do that really, but in a way, because we 
get about 250 to 300 calls a week, and they know you are there, 
and they know you are working, and they are concerned, these 
are veterans that are concerned. What can we tell the veterans 
about progress on looking into whether there is actual criminal 
activity that involves in the stories we have heard about 
people making money over delaying veterans getting reached?
    Mr. Comey. Yeah, thank you, Judge. The most you can tell 
them is we are working it and working it hard. I checked on it 
yesterday knowing that I was going to be here, and knowing of 
your interest in it. We are working it. As you also said, we do 
not talk about our work for good reasons, but I can assure the 
folks who call you, we are on it and we are working very hard.
    Mr. Carter. And most of them trust you too and, therefore, 
that would be a good message to send.
    Secondly, something that is very important to me. 
Yesterday, or this week, I introduced a bill to expand COPS 
grants to include the active shooter training. I am well aware 
that the FBI is heavily involved in active shooter training, 
and I think it would be--give that access to local law 
enforcement that for something they can't--many of them can't 
afford now, by using COPS grants to get involved with active 
shooter.
    Would you comment on what your thoughts are on the active 
shooter training that the FBI gives and receives, and then the 
expansion to--or the necessity to expand to other law 
enforcement to understand how that active shooter program 
works?
    Mr. Comey. That ALERRT training, which, as you alluded to, 
comes out of the great state of Texas, out of a university, 
Texas State, I think----
    Mr. Carter. Yes, sir.
    Mr. Comey [continuing]. That training saves lives in the 
United States. And it is so important. We have trained tens of 
thousands of law enforcement folks using it so they can then 
train others; so millions of people in law enforcement in the 
United States should have that training. And then it ought to 
go beyond that, frankly. So I am a huge fan of it. Any way it 
can be supported and spread more is in our national interest in 
my view.
    Mr. Carter. Well, I think it is making it as one of the 
criteria you can apply for COPS grants for is a good concept. 
Right now it would not be covered, but we think we can--we are 
going to get a huge amount of support. And I think from both 
sides of the aisle, we will get a huge amount of support 
because I truly believe after the shooting at Fort Hood, and 
realizing that both officers who responded and were successful 
in bringing down the shooter were both active shooter trained, 
one of them by the FBI. So it is quite--it obviously works.
    Mr. Comey. Yeah. And I hear about it all over the country, 
Judge. I travel a lot and meet with State and local law 
enforcement, and they talk about it constantly. It actually 
inspired us to produce a video--I don't know whether you have 
seen it yet--a movie called The Coming Storm--which is about an 
active shooter incident at a community college. That movie is 
good and so important to law enforcement; we have made tens of 
thousands of copies and just given it away around the country.
    Mr. Carter. It is great, and thank you for that. And, by 
the way, as we started this process we contacted your office, 
they were very cooperative and very--and encouraged us very 
much, and I am happy to do that. Thank you, Mr. Chairman, I 
will get the next round.
    Mr. Culberson. Thank you, Judge.
    Mr. Jolly.
    Mr. Jolly. Thank you, Mr. Chairman. Mr. Director, thank you 
for being here. I appreciate the full Committee chairman 
bringing up of the current matter with Apple. I have some very 
strong opinions about that and there is a question here, but I 
want to start by thanking you for being diligent in pursuing 
the court order and staying on top of this.
    I looked at my view of the world, and I realized that as 
one member of this committee does not necessarily reflect the 
entire committee, but this is a court order applying to one 
phone, and Apple is refusing to comply with that order. And, 
frankly, if their failure to comply means that there is 
additional information out there that has already contributed 
to other incidents, or will in the future contribute to other 
incidents of terrorism or national security, I think Apple 
leadership risks having blood on their hands. And I think Tim 
Cook is going to have a very hard time explaining why he stood 
in the way of justice on this issue. So I thank you for what 
you are doing.
    This is not my iPhone you are trying to look at, this is 
the iPhone of Syed Farouk, who I believe is an individual who 
gave up every single one of his civil liberties the day he 
killed 14 Americans and injured 21. And so I thank you for what 
you are doing on that.
    I know our chairman asked what might be on that phone, and 
it led to a bit of supposition about the content of 
communications. From a factual standpoint though, what are the 
files on a typical phone, and what profile might you be able to 
build of his activity or communications? As a layperson, I 
would presume phone calls, messages, but what profile do you 
not have of this murderer that you might otherwise have?
    Mr. Comey. Yes, the particular challenge we face in this 
case is the phone was last backed up over three weeks before 
the attack. Again, I don't do any of this to pick on a company, 
I actually find the company has been helpful in a whole lot of 
ways, they just got to a point where they said we will not 
assist you further, and for reasons that I don't doubt they 
hold honestly. But if the stuff is backed up to the iCloud, 
Apple cooperates with court orders, and we get backed up 
photos, or all kinds of records about people we can get 
lawfully with a judge's authorization.
    So anything that might have been backed up to the cloud may 
still be on the phone. That would be photos, or texts, or 
notes, or GPS information where this phone traveled. One of our 
real concerns here is, we have 19 minutes we can't figure out 
where they were after the attack. We have looked at every gas 
station camera, every intersection camera, we have the whole 
route, but we are missing 19 minutes before they were finally 
killed by law enforcement. The answer to that may be on the 
device.
    Mr. Jolly. Because a phone would typically--you would have 
some type of GPS or tower signals that you would know 
approximately where they were----
    Mr. Comey. Sure. They may have----
    Mr. Jolly [continuing]. During those 19 minutes?
    Mr. Comey [continuing]. All kinds of locator services 
turned on in connection with the phone. These phones are 
wonderful, I love them. And our entire lives, in a way, are on 
the phone. And that is why people ask good questions about 
privacy, but it is also why I want people to take a step back 
and say, so if we got to a world where those places were 
warrant proof, what does the world look like?
    And that is the other thing I want people to understand. It 
is not the Bureau going and opening people's devices. No, no, 
no. If we want to open your device, we go to a judge, we make a 
showing of probable cause, the judge issues a specific warrant, 
tells us what we can take from the warrant, and what we can 
take from the device or the place and how we can do it.
    Mr. Jolly. Well, I thank you for that. Obviously, you know 
the perspective from which I am coming. And I am sick and tired 
in this town, and across the country, with people not siding 
with law enforcement. And in this case, that includes Apple, 
and it includes Tim Cook.
    You have got folks up here that I know side with law 
enforcement. I appreciate what you are doing, I hope you do 
prevail. We will leave that to the courts to decide. I don't 
doubt their intentions. And I agree with you, I do not doubt 
Apple's intentions. I just think they are wrong on this one, 
that they are erring on the side of privacy, and cloaking what 
is a national security moment in which they could contribute to 
a safer America, and they are choosing not to. So I appreciate 
you. Thank you very much.
    Mr. Culberson. Thank you, Mr. Jolly. Director, I recently 
visited the National Cyber Investigative Task Force to see the 
very serious and persistent threats to our information security 
systems and infrastructure. And last year the country learned 
of the huge loss of personal data from the Office of Personnel 
Management, again stolen by the Chinese, who continue to be the 
worst actors out there. And during the Super Bowl weekend 
hackers posted online personal information for over 20,000 FBI 
and 9,000 Department of Homeland Security employees. It is a 
source of great concern to all of us.
    The Department of Justice said that it was looking into the 
unauthorized access of a system operated by one of its 
components and there have been news reports that an arrest has 
been made.
    Director, you are asking for $626 million for your cyber 
security programs, which is an $85 million increase. Could you 
talk to us about how the FBI is dealing with this threat and 
the realities of intrusions like this, and how will this 
requested increase help you address that threat, both for the 
FBI, for the Department and for the country in general?
    Mr. Comey. Thank you, Mr. Chairman.
    We are dealing with this threat in a number of different 
ways, which I can summarize briefly. As we are trying to shrink 
the world--and what I mean by that is we are trying to impose 
costs on the bad guys, so they know no matter where they are, 
we can reach them and put handcuffs on them--but we are also 
trying to shrink the world within the government. And I am so 
glad you visited the NCIJTF, because that is the best example 
of what we are doing.
    Probably ten years ago, the cyber response is a bit like 
four-year-old soccer, everybody chases the ball--I have five 
children, so I have watched a lot of four-year-old soccer, they 
chase the ball in a big clump. What the NCIJTF represents is 
about 20 federal agencies with responsibilities that touch 
cyber sitting together, which is a big deal in our national 
government, and sharing information about what do you see, what 
do you see, and who is going to do what about it.
    So we have really spread out on the field, to stay with the 
soccer metaphor, and we are deciding who has the clearest shot, 
who is in the best position. And that is the answer, because 
the problem is so enormous that nobody can do it alone and, if 
we all chase it, we are going to ignore a big piece of it. That 
is the first thing.
    The second thing is, what the budget increase is for is we 
have to make sure that we equip our people with the right stuff 
to be able to respond to this. So a key part of our ask is for 
us to be able to have a better high-speed network to move these 
enormous clumps of data that will help us see and understand a 
cyber threat.
    And the last piece of the $85 million is for training. It 
is vital for us to train our folks and state and local law 
enforcement to be able to respond to this threat, because it is 
getting more sophisticated every day.
    So we are trying to shrink the world, we are trying to 
equip our folks better, and we are trying to make sure our 
folks are trained well. Then, obviously, we need to attract 
great people to do this work for us and keep them in the 
harness doing the work at the FBI. That is how I would describe 
our strategy.
    Mr. Culberson. Thank you, sir.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Director Comey, I have serious concerns about the privacy 
implications also of the FBI's ongoing attempts to force Apple, 
which is based in my district, to create a hack to allow to 
allow the FBI to gain access to encrypted information on the 
phone of one of the San Bernardino shooters. I realize that you 
face a tough challenge investigating this attack on our nation 
and our communities; however, what the FBI requests will echo 
beyond this case. It will create a weakness that can be 
exploited and invite attacks on Apple by those seeking to gain 
access to the new code the FBI seeks. These possibilities must 
be weighed against the information the FBI will be able to 
recover from the phone of the San Bernardino shooters.
    You have said repeatedly that this is about one phone, yet 
there have been multiple news stories highlighting other phones 
that the government seeks to access.
    Can you promise that this is the only time you will ask 
Apple or any company to create software to gain access to a 
phone?
    And as you know, Apple is an international company. If 
Apple were to comply with the U.S. Government's request to 
build code to its specific needs, do you worry about China and 
Russia requesting the same?
    Mr. Comey. Thank you, Mr. Honda. And I am going to try and 
make sure I hit all parts of your question.
    First, let me start with what I understand the court's 
order to be directing. And I am not an expert, but I have 
talked to a lot of experts, so I will give this my best shot. I 
do not think it is accurate to say that the manufacturer is 
being asked to create some code that could get loose on the 
land and do harm in two different respects.
    First, what the court has directed them to do is to write a 
piece of code that would only work in the terrorist's phone. It 
would not work in anybody else's phone because it is written to 
the unique signature of that phone. And the second is, they 
will have custody of it the entire time. The phone would be at 
the manufacturer, the code would be at the manufacturer, and I 
think they have excellent security.
    In fact, in 2014 and before, Apple would unlock phones 
routinely in response to search warrants and do it at their 
headquarters, and I have never heard anything about anything 
getting loose and hurting us there. So I greet that, honestly, 
with a little skepticism, but the judge will sort that out.
    Mr. Honda. Well, excuse me, let me ask the question then. 
Are you saying that Apple's technology say for i6, the access 
code is only for one individual phone and that will not affect 
other i6 phones?
    Mr. Comey. Here is the way I understand this. And again, I 
have talked to experts, but I am not one, but again I am going 
to try to explain it as I understand it.
    What makes this case unusual and I wrote about it as, the 
relief we seek is increasingly obsolete, and here is why I said 
that. This is a 5C phone running iOS 9. That confluence of 
operating system and hardware is increasingly outdated. The 5C 
still has the ability for Apple to write a unique code for that 
one phone that will shut off the auto-delete function and shut 
off the delay function. I do not believe that is possible the 
way they built the 6 and phones built after the 5C. They did 
the hardware differently.
    So I actually do not think that even if the judge says this 
is appropriate, after hearing from Apple the some technique 
will not be useful in later-generation phones running iOS 9 and 
thereafter.
    That is what I am told by experts, but as I said, the great 
thing about the American court system is they will be able to 
bang together and sort this out.
    Mr. Honda. Well, I am not a lawyer, but let me ask the 
question then. If that were to be done for one phone at this 
one instance and it creates a precedence, will that precedence 
require other opportunities for law enforcement to access other 
technologies and other people's phones?
    Mr. Comey. Yes, I am a lawyer. It definitely might, because 
here is what would happen----
    Mr. Honda. Well, my follow-up question is then, if that is 
yes?
    Mr. Comey. Can I explain why? I am sorry.
    Mr. Honda. Go ahead.
    Mr. Comey. Can I explain why I say that? Because a judge 
will issue a decision in California interpreting the All Writs 
Act statute, that would not be binding on other judges, but 
there will be other phones because, as I have been saying for 
two years, this is a huge issue for State and local law 
enforcement. There will be other phones and other judges will 
look to that to see whether that is a similar circumstance. So 
there is no doubt about that.
    Mr. Honda. So my follow-up response is, if it does create 
precedence, what is its impact on constitutional principles?
    Mr. Comey. Well, that is a good question, because the 
precedence will be created under the framework of our 
Constitution. Right? I mean, a search warrant is an exercise of 
authorities under the Fourth Amendment. The All Writs Act, 
which Congress passed when it passed the Fourth Amendment in 
1789, is an exercise of the court's jurisdiction. That is why I 
keep stressing, this is not us going and opening people's 
phones, it is us going to a constitutional court, asking for 
permission under the Fourth Amendment to do something.
    And so it would be a precedent in the sense that a court 
would look to it to see whether it was useful, but the entire 
framework is under our rule of law.
    Mr. Honda. Mr. Chairman, not to be argumentative, but this 
is technology, but still it is a constitutional question, it 
seems to me, in terms of you are arguing security versus 
privacy clashing.
    In 1941, December, we had Pearl Harbor, and there was a 
group of U.S. citizens in this country that were incarcerated 
based upon security and privacy and national security. And 
these folks were moved in total to other places out of their 
homes without due process. When we looked at it 40, 50 years 
later with some hindsight, we realized that we reacted not 
judiciously, but we used the courts, the Supreme Courts also, 
to justify some of the actions of the government.
    So I am just saying this as one person who has seen this 
kind of thing happen, I am very cautious about how we move 
forward. I understand the tragedy. I have mentioned that in 
times of tranquility, our Constitution is very rarely 
challenged, but in times of terrorism and trauma and tragedies, 
you know, it is when we need to be vigilant and thoughtful 
about it and just think it through, because we do not want to 
make a mistake as a nation that believes in the rule of law.
    Mr. Comey. I agree completely, Mr. Honda. That is why I 
think it is so important that this be a national conversation, 
because the stakes are too high. It affects how we are going 
live, how we are going to govern ourselves, for our children's 
lives and our grandchildren's lives. And so I do not think it 
ought to be decided by one court case or another court case, or 
the FBI or some company. The American people ought to decide 
how do we want to be.
    Mr. Honda. Thank you, Mr. Chairman. And just to say that I 
agree that we should have a national conversation, because in 
the past these kinds of things have always been rushed into and 
thoughtful people need to get together with their own opinions 
and hash it out.
    Mr. Comey. I agree.
    Mr. Honda. So I appreciate this.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you.
    Chairman Rogers.
    The Chairman. Your request includes 783 and a half million 
for FBI headquarters construction. Actually, 646 million is for 
the building and the other is for other things. That is a huge 
request. And at the same time you are proposing significant 
cuts in FBI operations, which I find a little bit troubling.
    Tell me how important it is for a new building.
    Mr. Comey. Very, very important. And I will have failed if 
I leave the FBI in the current crumbling infrastructure and 
failed the taxpayer, frankly, because we are in a dozen or more 
facilities around Washington, it is incredibly inefficient. We 
are blowing all kinds of dough on leases that we should not be 
spending, because we have outgrown a headquarters that was 
built 40 years ago and it is literally falling down.
    And the reason we have netting around the top floors of the 
FBI is not to protect us from the civilians, it is to protect 
the civilians from us falling on them. Not us or my employees, 
I am sorry, the building flaking off.
    And so I think it is critical that the Bureau be in a place 
that is commensurate with the mission of the FBI to protect the 
American people. And I know it is expensive, but the vision is 
build a building that I will be long gone from this earth and 
it is still functioning and efficient and safe for our folks.
    So I am a fairly stingy person when it comes to money, this 
is money that I believe is well spent. But to be good stewards, 
we are also squeezing ourselves in other areas, as you said, to 
make sure that we are not only talking it, but we are walking 
the walk.
    The Chairman. Well, just as you earlier very eloquently 
described your instructions to employees, that car is not 
yours, treat it like it is the American public's, we do that 
with the dollars. So we are really stingy with what we pass out 
too. We try to treat these dollars like they are our own, I 
guess.
    Actually, the request total is for 1.4 billion, about half 
of which is for GSA----
    Mr. Comey. Right.
    The Chairman [continuing]. And half roughly for FBI. But 
the request also includes what I think is an unworkable gimmick 
to authorize DOJ working capital funds to be used for 
construction.
    How do you propose that to work?
    Mr. Comey. Mr. Chairman, I do not know enough about that to 
give you an intelligent answer. I understand that GSA intends 
to have whoever wins the bid take our existing building in 
partial payment, but I do not understand enough about the 
working capital fund. I will get you a smart answer, but I 
can't answer it right now.
    [The information follows:]

    The FY 2017 President's Budget includes language allowing the FBI 
to use up to $315 million from the Department of Justice's Working 
Capital Fund to mitigate funding shortfalls that arise in the new 
Headquarters project.

    The Chairman. Do you know what the intended use for the 
present building would be?
    Mr. Comey. I think GSA's idea is sell it to a developer. 
The developer who builds the new building will get, in partial 
payment, the current building on Pennsylvania Avenue and can 
develop it however the local law allows them to develop it, 
hotel or office building or something like that. But we will be 
using that object as partial payment for the new building.
    The Chairman. Now, has there been----
    Mr. Comey. That is my understanding. This is a GSA deal, 
but that is my understanding of how they are going to do it.
    The Chairman. An unfair question really.
    Has there been a site picked for the new building?
    Mr. Comey. No. It is narrowed to three possibles and this 
year the competing developers and builders will offer their 
proposals. Then there will be a selection thereafter to pick 
which of the sites is the smartest one. Two are in Maryland, 
one by the Greenbelt Metro, one next to FedEx Field. The third 
site is in Springfield just south of where 95 leaves the 
Beltway heading south.
    The Chairman. Mr. Director, thank you for your service.
    Mr. Comey. Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Director, have you also explored, rather 
than selling the property, hanging onto it and leasing it in a 
long-term lease? I know that some of the most successful real 
estate developers in downtown Houston that owned that property 
way back in the 1840s and '50s just hung onto it.
    The Chairman. It would make a great McDonald's, you know. 
[Laughter.]
    Mr. Culberson. Yeah. Well, what they do, they lease it out 
like Shell headquarters. Most of those big buildings in 
downtown Houston are on leased property, 99-year leases. So 
hopefully explore that as well. Why sell that valuable piece of 
real estate? Why not hang onto it and lease it out virtually in 
perpetuity and it will be like a little oil well for you, just 
keep pumping year after year.
    Mrs. Lowey.
    Mrs. Lowey. Thank you, Mr. Chairman.
    And I just want to say again how much I appreciate and how 
fortunate we all are to have a person of your caliber in this 
position. I know you served in an outstanding role in New York 
and we are glad that the President was wise enough to bring you 
here to Washington, D.C. Thank you.
    And I just want to say as a result of my colleagues' 
comments on both sides of the aisle, I also appreciate your 
articulation of the challenge you are facing between privacy 
and security. I may have a different perspective than my 
colleague Mr. Honda, but I certainly appreciate the sincerity 
and the thoughtfulness with which you presented your views. So 
I thank you.
    I wanted to continue a discussion briefly within my time of 
an issue I brought up in my opening statement and that is 
background checks. As we know, under the law, background checks 
must be done within three days or the transaction is allowed to 
proceed regardless of whether a person is lawfully permitted to 
purchase a firearm. To meet the growing demand, your budget 
requests 35 million in funding for improvements to the NICS 
system, the National Instant Criminal Background Check System, 
to support 175 additional staff.
    It seems to me it is vitally important that background 
checks are done thoroughly, as the results of incomplete 
information can be deadly. For instance, following the tragic 
South Carolina mass shooting, it was discovered that the 
shooter had passed a background check despite information that 
could have disqualified him. I was shocked to hear of that. And 
to those who lost their lives, they must feel the pain to think 
that this could have been avoided. And I was pleased that last 
summer you ordered a review of the incident.
    Can you briefly share what the review discovered, is it 
appropriate for you to share it with us?
    Mr. Comey. Yes, sure. And thank you for that.
    The fact that the South Carolina murderer, Dylann Roof, got 
the gun is an extraordinarily painful thing for all of us at 
the FBI. And he did not actually pass the background check, we 
just had not resolved a question about his criminal history by 
the end of the third day. And so the seller, under the law, was 
able to transfer it to him and he killed the folks thereafter.
    So the review I ordered established the facts as I had 
understood them at the time were what we had understood. We 
learned that we needed to do better--it is a long story, but 
the reason he was not picked up is our information on some of 
the geographical oddities of South Carolina caused our examiner 
to miss something. And that makes it clear enough, so we fixed 
that.
    Then we concluded we need more folks answering the phones, 
because the number of gun purchases is going up. We need to 
update our technology, which was already underway.
    And then we need to get the American criminal justice 
system to dramatically improve its record keeping, because one 
of the big flaws in our whole country's criminal justice is 
dispositions. People are not good enough at entering the final 
conviction or result in a criminal case, at the Federal level 
and at the local level. And if that is not in there, our 
examiners are not going to see that the person is a convicted 
felon and prohibited people get guns.
    Those were the big conclusions from the study. And so we 
are asking for your support to get more people in there, the 
technology updates are already underway, and we are talking to 
our State and local partners and others in the Federal 
government to improve our record keeping so we have better 
results.
    Mrs. Lowey. Yeah, thank you for that. However, as I 
understand it, the majority of firearm purchases from law-
abiding citizens can take minutes, but for those with 
incomplete information or red flags, the request for 
information can go on for days. So it is not necessarily that 
you need more people answering the phones or do what they have 
to do.
    So the question is in these cases, how long can it take for 
final determinations even after a gun has been purchased? And I 
am concerned that three days may not always be enough time to 
evaluate a background check with questionable information. And 
I think that is an issue that we have to discuss no matter 
where we stand with the NRA, not the NRA, whether you can buy a 
gun or not. We need a careful background check. And I think it 
is not just that you need more people, you need more time; is 
that correct?
    Mr. Comey. Under the law, we have three days and----
    Mrs. Lowey. That is exactly what I am questioning.
    Mr. Comey [continuing]. About 9,000 people a year we find 
out after the third day that they were prohibited. About 58 
percent of those we find out between day four and day ten. So 
most of the prohibited people who are outside the three days we 
find out before the tenth day. Now, that is 9,000 people of, as 
we talked about earlier, millions and millions of gun 
transactions, but still we have to improve.
    I mean, the law is the law. The FBI doesn't make the laws. 
So if it is three days, we have to make sure we are as good as 
we can possibly be within that three-day window. That is why we 
need more people, that is why we need better technology, that 
is why we need better records.
    Mrs. Lowey. I would just like to ask you, if in fact the 
time was extended, I am not saying it should be five days, ten 
days, that is a professional judgment, but would fewer 
prohibited individuals be able to purchase firearms if this 
time were extended?
    Mr. Comey. Well, the math would tell me yes, that--yes, 
because nine----
    Mrs. Lowey. OK.
    Mr. Comey [continuing]. Because of the numbers I gave you. 
But as I said, the law is the law, and so the Bureau is working 
very hard to make sure that we are excellent within the time we 
have.
    Mrs. Lowey. I understand. I do not want to put you on the 
spot and I understand the law is the law, but you have many 
people here who make the laws.
    So I just want to conclude, Mr. Chairman, I think it should 
be a serious consideration. If in fact we saw what happened in 
Charleston and we see many other cases, if three days does not 
seem sufficient, none of us would want people to go around 
purchasing guns if you look at the facts and they shouldn't be 
able to do so. And I would hope we can consider extending the 
days, working on a recommendation that makes sense that would 
give you some guidance. I certainly understand you are obeying 
the law and should continue the law, and I hope we can deal 
with the law.
    Thank you.
    Mr. Comey. And to be clear, the smart people who work for 
me say I got the number right. About 9,000 people were denied 
whose reviews had gone beyond three days. About 270,000 total 
checks went beyond three days, but 9,000 were prohibited people 
who were denied. So I had that about right.
    Mrs. Lowey. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Culberson. And it is also important to remember, it is 
not about standing with the NRA, it is standing on the Second 
Amendment and protecting our constitutional right, which is 
written in plain English, to keep and bear arms, which is 
fundamental to who we are as Americans.
    Mrs. Lowey. Oh, I don't know, are we going to have that 
debate now? [Laughter.]
    Mr. Culberson. Let me go quickly, we are short on time, let 
me go to Judge Carter. Mr. Palazzo, forgive me.
    Mr. Palazzo. OK, I will make my question quick.
    Director, before coming here, I served on the Homeland 
Security and the House Armed Services Committee, so I take it 
very seriously, you know, making sure Americans are protected 
abroad through making sure we have a strong national defense, 
and also protecting Americans here in our homeland. So that is 
why your remarks earlier about those who are trying to recruit 
Americans and doing the radicalization here to do harm here in 
our country, we talk a lot, not just during presidential 
political years, but how are we going to fix our southern 
border.
    I am concerned from more so than people coming over here to 
find a job to send money back home to their family as I am 
foreign nationals who may want to do us harm, human 
trafficking, drug trafficking. We know how devastating drugs 
can be to a community, to families. And just the things, the 
external threats coming in. I know you have spent time, you 
actually went down there and investigated the possibility of an 
ISIS camp in El Paso and I remember your remarks in that 
regard.
    But from your job being the FBI Director, do you have any 
recommendations to us, to Congress, on how we can gain some 
form of operational control more so than what we have now, I 
think it is like 43 percent, maybe up or down, I am not sure, 
to make sure we are protecting Americans here at home?
    Mr. Comey. Yes, thank you. I don't have any great 
suggestions for you. The piece that the Bureau focuses on, 
especially in our counter-terrorism mission is to make sure 
that we have trip wires in place, so that if any terrorists are 
trying to use the border as a porous way to get into the United 
States, we get an indication of it. I have not seen it so far, 
but it is something we are laser-focused on because of the 
vulnerability there.
    And so that is the Bureau's business to make sure all of 
our border offices are doing lots of things, but especially 
focused on if they have the sources and relationships in place 
to know if somebody gets wind that a terrorist is trying to 
come in that way.
    So I think we are doing that in a good way, but I do not 
want to be overconfident, because it is a vulnerability and so 
that is why we have spent so much time worrying about it.
    Mr. Palazzo. Do you have a number that you could share with 
us, the people who have crossed our border that may have links 
to terrorism in other countries?
    Mr. Comey. I don't. It is very small, we have not seen it 
yet. Obviously, there are areas where those people who are 
smuggling humans or smuggling drugs try to smuggle terrorists, 
in an odd way we count on the fact that they know what would 
happen if the American people found out that a drug cartel was 
smuggling terrorists into the United States. So that actually 
acts as a deterrent, oddly enough, on the cartels from getting 
in that business. But, look, I do not sleep well at night 
counting on the cartels to act in a rational way.
    So I do not have a number. It is very, very small. In fact, 
I don't know that in my two and a half years we have identified 
anybody coming in who we have confirmed comes in with an 
association with a terrorist organization.
    Mr. Palazzo. OK.
    Mr. Comey. Thank you.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Palazzo.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And I wanted to ask about something I know actually that 
Ranking Member Honda has worked a lot on and that is the 
increase in the level of reported violence against transgender 
people. The FBI's latest statistics suggest a very significant 
increase and there were more transgender homicide victims in 
2015 than in any other recorded year, at least 21 transgender 
women, nearly all of them women of color, lost their lives to 
violence.
    What is the FBI doing to address this increase in violence 
against transgender Americans and do you believe that you have 
the adequate resources to combat what is a very disturbing 
trend?
    Mr. Comey. Yes, there is no doubt it is a disturbing trend. 
I mean, homicide is up nationwide, but it is dramatically up 
among that vulnerable community.
    So we are addressing it in two different ways, through our 
civil rights program that our criminal division runs, we focus 
on that expressly, and then we ask our 56 field offices to make 
sure they have relationships with state and locals and service 
providers who might know of people who are victims or likely to 
be victims, so that we can sort of bring that information in 
and respond to it.
    And with respect to the question of resources, I don't know 
that we will ever have enough resources, frankly. But my sense 
is that in our civil rights program we have adequate resources 
to address what is in front of us.
    Mr. Kilmer. Thank you.
    I know time is short, so I will yield back. Thank you, Mr. 
Chairman.
    Mr. Culberson. Thank you very much.
    Judge Carter.
    Mr. Carter. Director, many of my constituents back home in 
Texas have asked for reassurance that no individual or 
officeholder is above the law. Yesterday I spoke with the 
Attorney General and she indicated she was fully prepared to 
take up the case Hillary Clinton for mishandling the classified 
information should the evidence so be available, and she also 
indicated that she was awaiting the conclusion of the FBI 
investigation.
    I know your position on investigations, but do you have 
some estimate as to when you expect to have findings to the 
prosecutors of the DOJ, if there are any? And have you or your 
staff been under any undue pressure or influence to delay the 
presentation of the case?
    Mr. Comey. Yes. Thank you, Judge.
    I cannot, in keeping with our normal practice, give anybody 
an estimate on timing, but I can tell you this. I am personally 
following this investigation, get briefed on it regularly, 
because I want to ensure that it is done in the ways that the 
FBI does its work, professionally, with integrity, promptly. We 
want all investigations to move promptly and without any 
interference whatsoever, and I can assure you it is all of 
those things. We have the resources on it, both people and 
technical. And I do not normally follow a lot of 
investigations, but I am following this to make sure it is done 
in the way the American people would want it done. I promise 
you that that is what is going on.
    Mr. Carter. This mike doesn't work? Sorry, you didn't get 
the question?
    Well, I would expect nothing less. And this is very 
important, no matter how it concludes, that it be done very 
professionally and that we let the American people know none of 
us are above the law.
    Mr. Comey. I assure you that I have dedicated my whole life 
to that proposition and I am not about to change now.
    Mr. Carter. Me too. Thank you.
    Mr. Culberson. Thank you, Director. We have great faith in 
your integrity and professionalism.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Let me just preface my comments by saying I really do 
appreciate your job, I don't want it. [Laughter.]
    Mr. Comey. You can't have it for 7\1/2\ more years.
    Mr. Honda. You can have it. But having said that, you know, 
I understand that economic espionage is a real threat to 
American economic security and our ability to retain jobs here 
at home, but I am concerned that espionage threats from bad 
actors abroad are creating a climate in which both 
investigators and prosecutors here are jumping the gun into 
pursuing indictments against Americans who happen to be 
language minorities, raising the prospect of serious civil 
liberties violations.
    For example, Ms. Sherry Chen, a Federal employee at NOAA, 
and Dr. Xiaoxing Xi, the chairman of the physics department at 
Temple University, were arrested by FBI agents on false and 
flimsy espionage charges, only later to have all charges 
dropped after some weeks, some months, after they lost their 
jobs and, you know, had been embarrassed and their reputations 
had been tarnished.
    My colleagues and I in the Congressional Asian Pacific 
American Caucus have written letters to the Department of 
Justice asking questions about this issue, but our requests 
were not adequately addressed. And I just wanted to know what 
is it that you are doing to ensure that these factors, race, 
religion, ethnicity, or national origin plays no role in the 
arrests your agency makes, including the idea that folks are 
speaking a language at work and that causing some sense of 
suspicion. And I think that, you know, has happened too often 
that we have to raise that question, I have to raise that 
question, and I would like some sort of response on that.
    Mr. Comey. Thank you, Mr. Honda. It is a reasonable 
question. The challenge I face is, I cannot explain what 
happened in individual cases, because I am restricted in what I 
can talk about, but I think I take your questions at the right 
level.
    The way we ensure it does not happen is the kind of people 
we hire, the way we train them, the way we oversee them, and 
our interaction with the courts.
    Mr. Honda. OK.
    Mr. Comey. I am sorry.
    Mr. Honda. Let me just cut to the chase then. I think that 
we need to have a discussion on the process by which you are 
pursuing these kinds of cases and the thought process that you 
go through, I do not think that is classified. And so I look 
forward to having some sort of meeting with yourself, your 
staff and with CAPAC, and just hash this out, if you want in a 
closed session.
    Mr. Comey. Sure.
    Mr. Honda. But we need to know and there has to be some 
sort of an apology to these folks who have been put through 
this and losing their jobs. And we are trying to seek some sort 
of justice for these folks who have been unfairly targeted and 
this is not unlike some other cases in the past. And, you know, 
if we are going to have Americans of different backgrounds who 
are participating and proud of being Americans here, we have to 
have some sort of resolution on this.
    So, Mr. Chairman, I thank you for this.
    Mr. Comey. And we would be happy to talk to you about it. 
Again, I cannot talk about individual cases. Implicit in your 
request for an apology is an assumption about cases that I 
can't comment on, unfortunately. So I can't----
    Mr. Honda. Well, these cases have been dropped.
    Mr. Comey. Right, but I can't comment on it beyond that. 
But we would be happy to talk to you about how we go through 
the process of thinking about our investigations.
    Mr. Honda. Thank you.
    Mr. Culberson. Thank you.
    Director Comey, we will submit the remainder of our 
questions to you in writing. But again, I want to thank you for 
your service to the country and we do indeed have complete 
faith in your integrity, your professionalism and your absolute 
objectivity in all that you do. We thank you for keeping us 
safe and standing on the walls of Rome to let us all sleep 
soundly at night. Thank you very much, sir.
    And the hearing is adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

                                           Tuesday, March 22, 2016.

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

HON. CHUCK ROSENBERG, ACTING ADMINISTRATOR, DRUG ENFORCEMENT 
    ADMINISTRATION
    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order. It is a 
privilege to us to welcome today Chuck Rosenberg, Acting 
Administrator of the Drug Enforcement Administration, to 
present the fiscal year 2017 DEA budget request.
    The DEA leads the fight nationwide to fight the supply of 
illegal drugs and is a key partner in tackling demand. The 
DEA's unique position in law enforcement enables it to address 
many different threats, including heroin; prescription and 
opioid abuse; methamphetamine and marijuana production and 
abuse; regulating doctors, pharmacies and manufacturers; 
combating drug cartels, violent gangs, organized crime, Taliban 
drug lords, and narcoterrorists. Your plate is full, sir. And 
we really appreciate your service and that of your agents.
    You have had a tremendous number of challenges in recent 
years, including international threats, workforce and 
management challenges. However, the DEA continues to serve as a 
bulwark against the criminal forces who use drugs and addiction 
to damage communities and weaken public institutions and 
finance massive criminal and terrorist organizations as well. 
The Committee is immensely grateful to you, sir, and the men 
and women of the DEA for their contributions to public safety 
and security and we intend to help find the resources that DEA 
needs to carry out its critical work.
    At the same time DEA must work within the fiscal reality of 
tight budgets and must address its workforce and management 
challenges. Before we proceed, however, let me recognize Mr. 
Honda for his comments.
    Mr. Honda. Thank you, Mr. Chairman, and as we begin our 
final hearing of the season for the CJS Subcommittee, I just 
want to say that I appreciate our collaboration throughout this 
whole process. I look forward to working together to craft a 
strong, bipartisan CJS appropriations bill that will reflect 
our mutual interests, along with those of our colleagues of the 
subcommittee.
    And I thank you and welcome, Mr. Administrator Rosenberg. 
It is a pleasure to have you join us this afternoon to discuss 
your work and your budget request. I would also like to 
personally thank you and the dedicated men and women at the 
Drug Enforcement Administration who work tirelessly to protect 
the American people from illegal drug abuse and trafficking. 
And I would like to especially acknowledge the hard work of 
Chairman Culberson and Chairman Rogers who have been real 
leaders in focusing attention on the opioid epidemic that has 
swept across this nation.
    They are doing their best to combat this scourge to our 
constituents and the American people. And with that being said, 
I am eager to learn about the DEA's thoughts on a number of 
issues, including the war on drugs, medical marijuana, the use 
of life-saving drugs to counter opioids and other narcotic 
overdoses.
    Thank you again, Administrator Rosenberg, and I look 
forward to hearing your testimony. Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Honda. I recognize the 
chairman of the full committee, Mr. Rogers.
    The Chairman. Thank you, Mr. Chairman. Administrator, 
welcome to the hearing. I think this is your first appearance 
before the Committee. I recall our conversation in December 
before the omnibus discussing our shared commitment to 
combating the drug abuse plague that has hit my home state and 
the country for far too long.
    Your vast experience across Justice suits you well, I 
think, for your role at DEA. The men and women of DEA serve 
admirably in increasingly trying times for narcotics officers 
nationwide. Their service on the front lines of the war on drug 
trafficking, whether along our southern border or the hills of 
Appalachia, is an essential part of the broader national 
security and public safety campaign. I look forward to working 
with you to build upon your success.
    In that vein, let me applaud you for your discipline in 
assembling a responsible budget request this year, seeking a 
one percent increase to $2.1 billion. So often agencies come to 
us with dream budgets that simply are not realistic. But your 
request gives us a clear picture of your priorities: cyber 
security, your new 360 Strategy, and maintaining adequate 
staffing levels.
    As we talked a few months ago, the drug epidemic has 
evolved at an alarming rate since I first came to Congress. 
Since then, the abuse of prescription painkillers and heroin 
have ravaged our small Appalachian communities. We fought back 
with a holistic approach that incorporates both law enforcement 
and prevention. As you know an organization called UNITE 
(Unlawful Narcotics Investigations, Treatment, and Education) 
has done phenomenal work in Kentucky with this very strategy. 
In addition to their important work engaging with our youth to 
prevent substance abuse on the front end, they have forged 
robust partnerships with local and Federal law enforcement 
agencies, especially DEA, to put over 4,300 drug pushers in 
jail, crack down on unscrupulous doctors, and confiscate 
hundreds of thousands of diverted prescription drugs. In fact, 
at this very moment three UNITE task force agents are assigned 
to DEA interdiction units in Eastern Kentucky. Together, UNITE 
and DEA have had tremendous success with their Take-Back Days 
seizing over six tons of drugs nationwide since 2012 and more 
than 1,800 pounds just last September. I have no doubt that 
replicating this type of effort in your new 360 Strategy pilot 
cities will yield positive results, and I am grateful that you 
will be providing additional insight about this initiative at 
Operation UNITE's National Prescription Drug Abuse and Heroin 
Summit in Atlanta next week. We look forward to hearing from 
you there.
    The importance of taking UNITE's holistic approach to the 
national stage has never been more clear. More than 100 people 
each day die from opioid and heroin overdoses alone more than 
we can fit in this room. We have to redouble our efforts to 
stop this needless loss of life and take back our communities. 
DEA, of course, is a big part of that. As I mentioned, I am 
greatly interested in this new 360 Strategy, which will focus 
on driving down the surge of heroin by attacking the supply 
chain, strengthening diversion control, and partnering with 
community leaders.
    What I particularly appreciate about this initiative is its 
holistic approach. I have repeatedly advocated for a broad 
three-pronged strategy in which enforcement, treatment, and 
education work in unison to combat substance abuse. It would be 
easy to arrest the drug dealers victimizing our citizens and 
claim victory. But the reality is much more complex, of course. 
By broadening your partnerships with communities across the 
nation you will be working hand in hand with the people closest 
to the problem.
    Before I conclude, Mr. Director, I would be remiss if I did 
not express my continued disbelief at the administration's 
disregard for the Controlled Substances Act. Despite changes in 
popular perception in some parts of the country, marijuana 
remains an addictive drug with significant short and long term 
health consequences to its users. It is against Federal law to 
consume, possess, or distribute marijuana. Former Deputy 
Administrator Harrigan himself said that the administration 
should not abandon the science regarding this harmful drug and 
I look forward to hearing what the DEA is doing under your 
watch to fully enforce that law.
    Thank you again to you and your agents, for your steadfast 
dedication to the problem. I look forward to hearing from you.
    Mr. Culberson. Administrator Rosenberg, you are recognized 
for an opening statement and, without objection, your written 
statement will be entered into the record in its entirety. And 
I welcome your testimony. To the extent you can summarize it 
within five minutes it would be terrific. Thank you very much.
    Mr. Rosenberg. I believe I can. Thank you, Chairman 
Culberson, Chairman Rogers, Ranking Member Honda, and members 
of the committee. It is a privilege and a pleasure to be here 
today. It is also a privilege and a pleasure to represent the 
DEA.
    I have spent my professional adult life in Federal law 
enforcement. But I am new to drug enforcement and so I 
recognize that I have a ton to learn. One way I have tried to 
do that is by visiting our men and women around the country. I 
have been to 48 offices so far in my first ten months. And I 
have learned a few things that have surprised me, a few things 
that have pleased me, a few things that have shocked me.
    I had no idea when I started this, despite my background in 
Federal law enforcement, that 47,000 people died last year of a 
drug overdose. You alluded to that, Chairman Rogers. About half 
of that number from opioids, another 8,000 or so from heroin, 
about 130 people a day. If we meet for two hours that will be 
another ten people dead of a drug overdose somewhere in the 
United States. Those numbers are absolutely stunning. And I 
think sometimes in our lexicon we use words of exaggerated 
meaning, historic or unprecedented or unique. But I actually 
think this is an epidemic. I think that is precisely what it 
is, an epidemic. And as you pointed out, Chairman Rogers, we 
need a holistic approach to it.
    We have to do our law enforcement thing. We have to attack 
the supply side. But even when I was a baby Assistant U.S. 
Attorney in the Eastern District of Virginia, I never believed 
that we would prosecute or jail or enforce our way out of this 
mess. And I believe that as firmly today as I did then. We need 
to approach it in a 360-degree holistic way, meaning through 
diversion, making sure that the drugs that are in the 
legitimate chain of commerce stay in the legitimate chain of 
commerce, and of course through education and treatment and 
prevention, something we historically have not paid enough 
attention to. And I am trying to change that, albeit within a 
limited budget.
    We are five percent of the world's population as Americans 
and consume 99 percent of the world's hydrocodone. And so I 
guess we should not be surprised that the connection between 
pills and heroin is as strong as it is. Four out of five heroin 
users started on pills and many folks who use or abuse pills 
get it from a medicine cabinet or a friend or an aunt or an 
uncle or a relative. And that is why we have reinstituted our 
National Take-Back Program. You gave the aggregate numbers. I 
will break it down a little bit, if I may. In September of last 
year we took in 749,000 pounds of unwanted and expired drugs. 
Now by some estimates only ten percent or so are opioids. But 
even if that is true, and even if it is `` only'' ten percent, 
that is still about 74,000 pounds of opioids.
    So we think we are making a difference. We are going to 
continue these programs. Our next Take-Back will be April 30th 
of this year, so not that far away, about five weeks. And if it 
is like our last Take-Back Program it will be in 5,000 
communities around the country. We have a lot to do. And we 
have less to do it with.
    Over the last five years we have lost about 860 people, 
about 350 of those were special agents. So we have made I think 
a reasonable and modest request. I think the President's budget 
for the DEA is a good one. And we will continue to spend the 
money that you give to us I hope wisely and carefully. But we 
have a lot to do.
    I am grateful for the opportunity to be here. I look 
forward to answering any questions you may have.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Culberson. Thank you very much, Administrator 
Rosenberg. If I could I wanted to ask you about the Inspector 
General who had documented a serious problem that you 
inherited, and I know you have dealt with. You inherited an 
agency that was troubled by reports of misconduct and 
unprofessional behavior. The DOJ Inspector General made 
recommendations for policy and management improvements and the 
Inspector General has reported that all of the issues have been 
resolved or closed, and we certainly appreciate that, under 
your leadership. Of course we expect the highest standard of 
professional conduct by all of our law enforcement agencies. 
And if you could, sir, please describe your actions to address 
a system or personnel problems that contributed to the types of 
misconduct that the OIG found?
    Mr. Rosenberg. Thank you for your question, Mr. Chairman. 
We have done a number of things, I believe, to address it, both 
the specific recommendations and more broadly some process 
issues that I found. Let me speak to the latter first, if you 
do not mind.
    For instance our Office of Professional Responsibility 
(OPR) staffing was at about 50 percent. It was too small and 
too slow in order to move cases, to investigate cases, and 
ultimately to adjudicate cases internally. We needed to beef up 
that staffing and we have. We are now at about 90 percent.
    As well we have streamlined I believe the process for 
adjudication, our deciding officials, the folks who receive the 
reports and the recommendations initially from OPR, we have 
increased their staffing levels as well. And we have taken 
smaller cases, I do not mean unimportant but I mean smaller 
ones, and moved that to our Board of Professional Conduct for 
its resolution, freeing up our deciding officials to handle the 
most serious misconduct cases in the agency.
    The good news is that we have relatively few of those. The 
other good news is that we are moving them more quickly. So the 
number of cases we have pending for removal I believe are down 
to a very small number.
    We had to look at the entire process to see where we had 
workflow issues and process issues. We also issued new 
standards of conduct, Mr. Chairman, making it clear that off 
duty conduct, or at least certain off duty conduct, was 
prohibited. One of the things the IG had pointed out was that 
agents who had solicited prostitution abroad were not dealt 
with swiftly and appropriately. We have made solicitation of 
prostitution off duty, on duty, whether it is in a jurisdiction 
that permits prostitution or not, a removable offense for the 
first instance.
    So I think we have done a number of things, Mr. Chairman. 
We have more to do.
    Mr. Culberson. We are going to have a series of votes 
coming up here in just a few minutes. So I would like if I 
could to move on to Mr. Honda, and then we will try to get 
through as many questions as we can before we recess.
    Mr. Rosenberg. Yes, sir.

                            OPIOID EPIDEMIC

    Mr. Honda. Thank you. Administrator Rosenberg, like many of 
my colleagues I am concerned about the surging opioid and 
heroin abuse and overdoses. And one medication, Naloxone, has 
been shown to be effective in reversing an overdose if given 
promptly. In many jurisdictions first responders are now 
routinely carrying this medication. And I know that the Food 
and Drug Administration evaluates drugs from a safety and 
efficacy perspective. From the viewpoint of the DEA would you 
have any concerns with making this drug available over the 
counter or by simply asking a pharmacist?
    Mr. Rosenberg. That is a good question. I have thought a 
lot about this, Mr. Honda. I know--let me just add something 
first, before I answer your question. We have trained our own 
people on the administration of Naloxone. Sixty-four of our DEA 
special agents or EMTs have been trained to administer 
Naloxone. And as part of their training, and this may answer 
your question in part, they were also trained on CPR and on the 
use of defibrillators. Because as I understand it sometimes 
cardiac incidents can attend the administration of Naloxone.
    So whether or not it is appropriate for over the counter 
without a prescription distribution, I do not know. But I do 
know that when we approached it as an agency we wanted to make 
sure that our men and women were trained not just on the 
administration of Naloxone but also for responding to cardiac 
events that may attend the administration of Naloxone. So I 
think it is worth looking at. I love the idea of getting 
Naloxone out there. I think that is terrific. I just want to 
make sure people are properly trained for any consequence that 
may flow from its use.
    Mr. Honda. Are there processes or steps that you would 
recommend in terms of moving into the arena of, for instance, 
having the first responders and other public safety officers 
being trained as the DEA and first responders are on a larger 
scale?
    Mr. Rosenberg. I think that would be wonderful. The more 
people we can have trained to administer it, the better. And we 
are going to do something within DEA, taking the first 64 folks 
that we have trained, and have them train additional people in 
our offices around the country. So getting that out there is a 
good thing. I just want to make sure we take prudent steps to 
ensure that folks who are administering it can administer it 
and attend to all of its consequences. So good thing, but we 
should be careful about how we go about putting it in the hands 
of people who would use it.
    Mr. Honda. One last question, in terms of side effects and 
its use, you said use in conjunction with cardiac arrest. But 
does Naloxone have any other uses other than just cardiac 
arrest? I mean, drug overdose seems to me a cessation of bodily 
function.
    Mr. Rosenberg. I am sorry. I was not clear, sir. What I 
mean is its primary use is to counter the opioid overdose. A 
side consequence, a side effect, is occasionally a cardiac 
incident. And so when we train people on how to administer 
Naloxone, we also want them to be trained to handle any cardiac 
event that may also occur. I am sorry. I did not explain that 
very well.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Rogers.
    The Chairman. Mr. Chairman, pardon my voice but I guess the 
allergies are winning. Let me talk to you about your 360 
Strategy for a moment. As I mentioned earlier, I am thrilled to 
see DEA tailoring its approach to the ever evolving 
prescription drug and heroin epidemic. When Oxycontin appeared 
in my district in the late nineties, we did not see much heroin 
in circulation. But the last decade that has changed 
dramatically. National heroin use has increased by 63 percent. 
Overdose has gone through the roof, I think due a lot to the 
emergence of Fentanyl with heroin. For the benefit of our group 
here today, why don't you give us an overview of how your 360 
approach differs from your normal current operational strategy?

                            DEA 360 STRATEGY

    Mr. Rosenberg. Thank you, Mr. Chairman. The idea here is to 
attack a problem from all sides. My friend Director Comey at 
the FBI talked about the need to fill the time and space that 
you create in a community when you have an enforcement 
operation. And that is precisely what 360 is all about.
    We have to continue our traditional law enforcement supply 
side work. That is sort of the heart and soul of who we are and 
what we are at the DEA. But in addition we have to recognize 
that we create time and space in a community when we put bad 
guys in jail for distributing drugs. And so that is the rest of 
360. Treatment, education, you know, all go to the demand 
reduction leg of the stool. If we do not start knocking down 
the demand side, we cannot possibly win against the supply 
side. And the other part, of course, is diversion, making sure 
that folks who need opioids can get them but that they are 
prescribed in a thoughtful way and a limited way and that we 
have something to do with what remains. That they do not find 
their way into the stream of commerce.
    Because here is the problem. Opioids are highly effective 
but they are also highly addictive. And if you get addicted to 
an opioid, and I am sure you see way too much of this in your 
home state, buying that pill on the street is very expensive. A 
30 milligram pill of hydrocodone or oxycodone, for instance, 
would go for about $30. The heroin or Fentanyl substitute is 
much, much cheaper. And so we see this migration, if you will, 
of folks hooked on pills to heroin. And the old stigma of 
having to inject heroin, that is a thing of the past. Now you 
can smoke it or snort it, you can ingest it in different ways. 
You do not need a needle. And it is simply widely available, 
more potent, and much cheaper than it ever has been before.
    So the approach is keep the pills within the legitimate 
stream of commerce, attack the supply side, and try to reduce 
demand. That is the idea behind 360. And that is what I plan to 
talk about at the summit next week, because it is something 
that is really important to me and has been for a long time.
    The Chairman. Well I really appreciate you coming to the 
summit. This is the fifth straight year that UNITE has put this 
on nationally. And we have got a tremendous line up of 
speakers, including you, which I deeply appreciate.
    Mr. Rosenberg. I think I am going to bring the average 
down, sir.
    The Chairman. I do not think so. At 3:45 we are going to 
learn of another speaker that is going to be at our conference. 
I will wait to announce that at 3:45. But I think you will be 
pleasantly surprised by that speaker.
    360 was started in four cities, Pittsburgh, St. Louis, West 
Memphis, Arkansas, and Milwaukee. How did you come by those 
four?
    Mr. Rosenberg. We looked at cities generally that had an 
uptick in crime, cities, that were large cities but not 
enormous cities, and cities where we thought we could make an 
immediate difference. We are looking now at another round of 
cities and we are trying to approach this driven as much by 
statistics as we possibly can. Where do they need us? Where has 
the problem gotten worse? Where can we make a difference? I 
would not call it an exact science, sir. But it is an attempt 
to put limited resources where we can make a difference.
    The Chairman. Do you see that expanding in time to rural 
locations?
    Mr. Rosenberg. I do if we have the resources. I would love 
to be in more cities. The feedback initially from the first 
four pilot cities has been good so I would love to expand it if 
I can.

                          DRUG TAKE-BACK DAYS

    The Chairman. Congratulations on your Take-Back Programs. 
As you know and have said, expired medications or unused drugs 
often stay in the back of cabinets for months at a time or even 
years. More than 70 percent of people who first misuse 
prescription drugs get them from the medicine cabinet of a 
family or from friends or relatives, or simply take them 
without asking. Local law enforcement agencies simply do not 
have the capacity or the authority, really, to take back these 
unwanted meds. UNITE in Kentucky, though, did this beginning 
seven, eight years ago and it works. The DEA now has taken that 
nationwide. And I am pleased that in September you held your 
tenth Take-Back Day around the country. Do you plan to continue 
that program even more authoritatively?
    Mr. Rosenberg. Yes, sir. For this year we plan to do it 
twice. Our 11th National Take-Back will be April 30, 2016. And 
I anticipate that will be in 5,000 communities again around the 
country. Our second Take-Back in 2016 will likely be in 
October, certainly sometime in the fall. And I am hoping we 
build on the success.
    One thing I should add, in addition to taking in about 
749,000 pounds of unwanted drugs, and this is important, is the 
fact that we do it anonymously. We do not read labels. We do 
not take leads off of those things. If you want to bring in 
Bengay or aspirin or opioids, whatever you want to dump in, we 
will take it. But people need to know that they do so 
anonymously. Because we have to encourage people to empty out 
those cabinets that you spoke about.
    The Chairman. In my area of Kentucky, UNITE started a Take-
Back Program several years ago. Now we have got all of the 
police departments and sheriff's offices as depositories. And 
they have collected tons upon tons of Take-Back drugs. Then the 
sheriff and the police departments would utilize a Kentucky 
National Guard incinerator on wheels. They would burn the drugs 
periodically at different locations as they needed, until EPA 
comes along and says that violates the atmosphere. So they took 
that away. Can you help us with that?
    Mr. Rosenberg. Well I think the way we can help is that we 
have worked through those logistics with EPA. And so when we 
hold these Take-Back Days we can gather the stuff from various 
departments and have it incinerated according to regulation. 
With respect to the specific EPA regulations, though, sir, I do 
not know enough about it. I do know that we are able to help 
the local police departments that gather and collect by holding 
our own Take-Back Days.
    The Chairman. Another example of your friendly EPA doing 
good for America. I yield.
    Mr. Culberson. Mrs. Lowey.
    Mrs. Lowey. Thank you. And welcome, Administrator 
Rosenberg.
    Mr. Rosenberg. Thank you.
    Mrs. Lowey. I too, you can see that we are all on similar 
wavelengths, I am very concerned about the growing use of 
synthetic and so-called designer drugs, like bath salts, 
jewelry cleaner, herbal incense. They pose a serious public 
health concern and can cause vomiting, anxiety, agitation, 
irritability, seizures, hallucinations, heart problems, 
elevated blood pressure, loss of consciousness, significant 
organ damage, as well as overdose deaths. Now I understand that 
the problem is compounded as criminals constantly introduce new 
chemical variations. It seems to me it is a game of whack-a-
mole.
    Last fall the DEA and other local law enforcement partners, 
including the Rockland County Sheriff's Office, halted a 
criminal operation which operated in all five boroughs of New 
York City, allegedly involving the unlawful importation of at 
least 100 kilograms of illegal synthetic compounds, an amount 
sufficient to produce approximately 1,300 kilograms of dried 
product or approximately 260,000 retail packets. Each of these 
260,000 packets of synthetic marijuana had the potential to 
send someone's family member to the hospital or worse.
    In addition to the public health toll, criminal enterprises 
like this have been found to have links to violent conflicts 
and even terrorist activity. Can you share with us briefly the 
challenges in investigating these cases and whether DEA has 
enough authority under current law to prohibit these substances 
which are continuously changing?

                               SYNTHETICS

    Mr. Rosenberg. Congresswoman, thank you. I think your 
description of this as whack-a-mole is apt. But it is a very 
dangerous whack-a-mole game. It is not the one that you find at 
the county fair. This is much, much worse.
    There are several classes of synthetics. Synthetic 
marijuana is a bit of a misnomer. It really is not marijuana. 
It is rather, I think, vile and nefarious that it is marketed 
that way so people will think it is not that bad. But it really 
is, as someone has described, Russian roulette. Although that 
does not quite work either because Russian roulette had one 
bullet in the chamber and this has several bullets in the 
chamber. The list of consequences that you described are all 
accurate but we are obviously also seeing kids dying from this 
stuff. And what makes it so vile is that the folks who are 
building this stuff, for lack of a better word, in their labs 
only have to tweak a molecule or two from time to time to stay 
ahead of enforcement. We have the ability to emergency schedule 
some of these compounds. But at one point not so long ago we 
were seeing two and three new synthetic drugs a week. That 
number is now down to one or two a week, which still 
essentially precludes us from catching up. So it is a race we 
cannot win. It is whack-a-mole but it is also a race we cannot 
win.
    Also sadly it is as easy as sitting down at your computer 
and ordering this poison off of the internet. And with respect 
to synthetic cannabinoids, what some people I think mistakenly 
call synthetic marijuana, you will find this stuff in shiny 
foil packages, you know, with colorful characters on the 
outside, clearly marketed to young adults. Not even young 
adults, young teens, young kids. You can buy them in roadside 
stores or convenience stores. They are just a few dollars. And 
one dose, one time is enough to kill you. Because you do not 
know what is in it. And so we are seeing the synthetic 
cannabinoids, which are I guess pharmacologically related to 
the THC in marijuana. We are seeing the synthetic cathinones, 
which you described, which are similar in effect to stimulants, 
methamphetamine. Flakka falls under that and I know there is an 
enormous problem in New York and around the country with 
Flakka. But Flakka is just one type. And this poison is 
marketed to kids.
    So we have emergency scheduling authority. In 2012, I 
believe, Congress legislatively scheduled a number of synthetic 
compounds and that is a good way to attack the problem because 
you can go faster than I can go. We need help.

                            SOUTHWEST BORDER

    Mrs. Lowey. Thank you. Like many of the members of this 
committee, especially Chairman Rogers who has been really a 
leader for us all, I too am concerned with the rise in opiate 
addiction. And it seems to me that there are two fronts to this 
war, which is affecting every region of the country. The first 
is making sure that prescription drugs are not over-prescribed, 
which we have talked about, and abused domestically. The second 
is curbing the flow of heroin and other opioids from abroad. 
And in your statement you identify Mexican cartels as posing 
the greatest drug threat to the United States.
    DEA has one of the largest overseas presences of any law 
enforcement agency with offices around the world, allowing you 
to work with foreign law enforcement on drug investigations and 
share intelligence. I wonder if you could share with us whether 
this collaboration between the DEA and law enforcement in 
Mexico is working? And what strategies are you employing with 
your Mexican counterparts to ensure that when a cartel is 
disrupted another cartel does not just step right in to meet 
market demand?
    Mr. Rosenberg. Two very good questions, I will try and 
answer them both. First I should mention probably 98 percent of 
our heroin comes out of Mexico. So an enormous problem. But as 
you noted, we have a very large overseas presence and we have a 
large overseas presence in Mexico. We work well and closely 
with our Mexican counterparts. But when you are working in 
another country there are obviously limitations. Not just for 
DEA, but for ATF or FBI or anyone else for that matter. And so 
we are guests of our Mexican counterparts in Mexico.
    We do training. We work closely with vetted units there. We 
have made a number of important inroads. But I come back to a 
problem that I mentioned in a discussion with Chairman Rogers. 
As long as the demand remains so remarkably high in this 
country for that poison, they are going to find a way. It is so 
lucrative.
    So we have successes and we continue to have successes. If 
the DEA is doing its job right, and I hope we are, we are going 
after the biggest, most violent international cartels and the 
most violent and dangerous street gangs in the country. But as 
long as demand remains where it is, Congresswoman, they are 
going to find a way.
    So are we working well with our Mexican counterparts? Yes. 
Is there more to do? Absolutely. But we need help on this side 
of the border, too.
    Mrs. Lowey. Thank you. And thank you, Mr. Chairman.
    Mr. Rosenberg. Thank you, Congresswoman.
    Mr. Culberson. Thank you very much. Mr. Aderholt.
    Mr. Aderholt. Thank you, Chairman, and Administrator 
Rosenberg, thanks for being here. I know that your colleague 
Director Comey has been very outspoken about the issue of the 
smart phone encryption and the impact it has had on law 
enforcement overall. And I have directed several questions 
submitted to him about the situation. But I would like to hear 
your perspective and could you share with the Committee on this 
issue, and how it is impacting DEA and its work?
    Mr. Rosenberg. Certainly, sir. My view is not different 
than his, nor is it different from the Attorney General's. It 
strikes me as odd and dangerous that with a lawful court order 
there are places we literally cannot go. We also favor strong 
encryption. The entire United States government and all of its 
citizens benefit from strong encryption. But it is, as Director 
Comey has said, as if there was a closet or a room for which 
there is no entry. And that is dangerous. We are seeing it in 
our line of work too, of course. And so I do not think I can 
say it better than Director Comey did. It is a problem at the 
DEA. It is a problem throughout law enforcement and it is a 
problem throughout our intelligence community. It is something 
I worry about and it is something I see routinely.

                               MARIJUANA

    Mr. Aderholt. Your predecessor previously addressed the 
situation with legalized marijuana when they were here. Can you 
give the subcommittee an update on how the actions of those 
states has affected DEA and other law enforcement's ability to 
stem the tide of this drug? And does the DEA have the resources 
or has it requested a budget request that is large enough to 
adequately help with the States surrounding Colorado and 
Washington?
    Mr. Rosenberg. Well with respect to the budget request, I 
think the President's budget is good for DEA and I would be 
thrilled to see it enacted as written for us. Do we have enough 
resources? Well, we have lost men and women over the last five 
years. I think I mentioned in my opening remarks, we are down 
about 860 people in the last five years. About 350 of them are 
special agents. So we do not have the resources we once did, 
and that is a problem. Not an insurmountable one if we do the 
following thing. And this is what I have told my Special Agents 
in Charge around the country to do. Go out in your jurisdiction 
and work the biggest, most important cases you have, whatever 
it may be. And this will respond to your question, sir.
    In many cases the biggest and most important cases are 
heroin, opioids, meth, synthetics, as Congresswoman Lowey 
mentioned. But I have also told my SACs, my Special Agents in 
Charge, if your biggest and most important case is a marijuana 
case, go make it. Marijuana is illegal under Federal law. I am 
a law enforcement official and I have no difficulty in 
supporting the men and women of DEA if those are the cases they 
are doing. None, whatsoever.
    But the simple fact and the simple math of it is in most of 
our jurisdictions, and you can see this in our National Drug 
Threat Assessment, it is ranked lower of course than heroin, 
opioids, synthetics, cocaine, and meth. Are we still making 
marijuana cases around the country? Absolutely. We are abiding 
by the memo that former Deputy Attorney General Cole issued in 
I think August of 2014, it might have been 2013, but where we 
have a big, important case, go make it. If it happens to be 
marijuana, so be it.
    Mr. Aderholt. All right. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Thank you very much. We have a 
series of votes coming up. Mr. Serrano has, do you want to ask 
a couple of questions? Sure. Mr. Serrano?
    Mr. Serrano. Thank you for being here. I want to make sure 
that we are speaking about the same thing, what Mr. Honda was 
speaking about, which one was that? Is that the same item that 
is being used by the New York City Police Department?
    Mr. Rosenberg. I do not know specifically what they are 
using, but there is a second name that is often, Naloxone or 
Narcan. Yes, and I think many----
    Mr. Serrano. Because my question would be if that, such a 
large police department has seen fit to use it, why do we still 
have concerns about its usage?
    Mr. Rosenberg. Oh, I do not have concerns about its usage. 
I think it is a wonderful thing. And I love the fact that my 
DEA special agents are being trained to use it. My point only 
was that they are also being trained for----
    Mr. Serrano. Side effects?
    Mr. Rosenberg [continuing]. For possible side effects that 
attend the administration of it. So they are being trained on 
the administration of Naloxone or Narcan, as well as CPR and 
the use of defibrillators.
    Mr. Serrano. All right. And my second and last question is 
some years ago, about 15 years ago, the Cuban government was 
willing to have DEA, I think it went as far as stationed in 
Cuba, on Cuban soil, during the heat, you know, the top of the 
Cold War between us, in order to deal with the fact that some 
boats were landing on Cuban soil and then from there using it 
to transport, or make exchanges. And politics got in the way 
and that never happened. Has that been mentioned again, without 
giving me any state secrets? Or do you think there is an 
opening now for that to happen perhaps?
    Mr. Rosenberg. They do not tell me any state secrets, Mr. 
Serrano. But it is certainly something that we ought to look at 
given its proximity to our shores. I would say, and I mean this 
colloquially, it is a bit of an intelligence gap. So we are 
going to keep our eye on Cuba. It is not presently a large 
transit country or source country.
    Mr. Serrano. Right.
    Mr. Rosenberg. But as you know, things can change. And so 
it is something we are certainly cognizant of.
    Mr. Serrano. Yes, we know that they have been pretty strict 
about, you know, and come down hard on drug situations. But it 
just struck me that it was so incredible, Mr. Chairman, that 
they were willing to have DEA agents stationed in Cuba in order 
to deal with this, which was a problem to them and a problem to 
us. So if there is an opening under this new thing that is 
happening between the two countries, I think we should look at 
it again.
    Mr. Rosenberg. We will look at it. I promise you that, sir.
    Mr. Serrano. Thank you. Thank you so much, Mr. Chairman.
    Mr. Culberson. Thank you. Mrs. Roby.

                            OPIOID EPIDEMIC

    Mrs. Roby. Thank you, Mr. Chairman, and thank you, 
Administrator Rosenberg. And I just want to tell you personally 
how much I appreciate the time that you spent with me last 
week. You really educated me in a way that even after having 
served on this Committee I do not know that I fully could 
appreciate, despite the chairman of the full committee's 
commitment to a lot of these issues and the fact that you are 
diligent, Mr. Chairman, in always ensuring that these are 
issues that are addressed, particularly because of your State 
and your district. I, however, did not quite understand how it 
affected my own district or my own State.
    And so I watched this on YouTube, but you directed me to 
this video Chasing the Dragon. And I hope everybody on this 
committee, I may just be behind the ball, but watching that 
video really gave me a perspective, particularly as a mom with 
young kids, about how quickly someone's life can deteriorate 
from opioid use into heroin and then overdose. And hearing the 
one mother talk about the loss of her child but also seeing a 
mother herself having lost control of her own life and losing 
her children in a different way was pretty remarkable for me. 
And so I just want to tell you, you know, how much I appreciate 
your commitment to these issues. And shedding light on it in a 
way that we can all relate to.
    Because as I said to you in my office, unless you have had 
a family member or someone close to you go through an 
addiction, particularly in this case opioid or heroin 
addiction, and either come out the other side in a positive way 
or lose their lives tragically, I do not think, I mean I 
certainly can say I cannot speak with authority on this issue 
in any way, shape, or form. And so I think it is important for 
those of us who have not experienced that to be able to have a 
glimpse into the lives of families who have been tragically 
affected by this in order to put faces behind the mission and 
the cause that we all on this committee and in the Congress are 
fighting to eradicate. And so just thank you for that. It 
really meant a lot to me to be exposed to this in a different 
way. You know, we spend a lot of time in these committees you 
know reading facts from a sheet of paper or talking about 
things at a 30,000-foot level. But you really helped me 
personally drill down on this issue.
    Mr. Rosenberg. If I may, Congresswoman, first of all it was 
a pleasure to meet you and spend time with you. I truly enjoyed 
that. Second, I do not believe you are behind the eight ball or 
behind the times or whatever metaphor we want to use. Though I 
spent my career in Federal law enforcement as an Assistant U.S. 
Attorney and as U.S. Attorney in two different districts, and 
with two stints at the FBI, I had no idea until ten months ago 
how bad this problem was. None. So please do not feel--
    Mrs. Roby. Yes. Well, that does make me feel a little bit 
better. But I did ask you for some information and one of the 
things that struck me, there is one county in Alabama where the 
number of deaths related to heroin overdose grew from 58 in 
2013 to 136 in 2014. Which as you said, we use these words a 
lot, and we use them sometimes without the appropriate meaning. 
But that truly is stunning.
    Mr. Rosenberg. Stunning.
    Mrs. Roby. And so I appreciate, I mean, all of the things 
that my colleagues have already touched on were things that I 
wanted to talk to you about. I do want you to help us 
understand as members of Congress who work on the federal level 
how can we help you with the Take-Back Program? Because it is 
such a, this is, we talk about rocket science in this room, 
that is not rocket science. That is how do we get these drugs 
out of people's medical cabinets so children or anyone does not 
have access to it? I mean, I do not know if I am one of the 
5,000 cities exist in my district. But I sure want to come up 
with a way to get cities in my district on the list to make it 
as easy as possible for people, including myself, to empty out 
the medicine cabinets of old, unused pills. I think there is a 
way that all of us can use our mouthpiece on social media and 
other ways to be a part of that. I want you to help us figure 
out a way that we can play a role in that.
    Mr. Rosenberg. We would be delighted to work with your 
office or anybody's office here. This is a public good. It is 
one of the reasons I wanted to speak and was so privileged to 
be invited to the gathering that Chairman Rogers has in 
Atlanta. The more people who know about this stuff, the more 
people can help us publicize it. It is, like I said, an 
unmitigated good. So we would be happy to touch base with your 
office.
    Can I also just give a shout out to the FBI? Because we did 
not produce Chasing the Dragon alone. We did it with them. It 
is a very powerful movie. And we will give copies to anybody 
who wants it. If you want to show it in your district, if you 
want your district directors to have it. Watch it first. As you 
know, Congresswoman, there is some rough language in there. 
Probably nothing that our kids have not heard. But it is an 
important message.
    Mrs. Roby. It is great and it is rough, but rough does not 
even begin to describe the reality----
    Mr. Rosenberg. That is right.
    Mrs. Roby [continuing]. That these people go through. So 
again, thank you and I know we are under a time constraint so I 
yield back.
    Mr. Rosenberg. Thank you.
    Mrs. Roby. Thank you.
    Mr. Culberson. Thank you, Mrs. Roby. We are going to come 
back and go to Mr. Palazzo. But we have a series of votes, 
Director, if we could recess briefly and we will come back 
after this set of votes.
    Mr. Rosenberg. Thank you, sir.
    [Recess.]
    Mr. Culberson. The hearing is back in session and I would 
recognize Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.

                                 HIDTA

    Mr. Rosenberg, thank you for taking the time to meet with 
us today. I commend the DEA for its efforts in the war on 
drugs. Drugs rip apart families and devastate communities. It 
doesn't matter if you are in one of our country's largest 
cities or some backwoods town throughout rural America, drugs 
find a way to establish a foothold that seems to never fully go 
away.
    I am blessed to live on the Mississippi Gulf Coast. You 
know, we have got beautiful beaches, great seafood, great 
fishing, awesome people, but we also have the I-10 corridor 
that stretches from the southwest border all the way to the 
eastern seashore, which is great for commerce, it is great for 
travel, tourism, but also it is a great way to traffic drugs in 
between locations. And so it does find its way into our 
community.
    And so with that, I would like you to discuss possibly the 
Gulf Coast High-Intensity Drug Trafficking Area and the DEA's 
partnership with state and local entities to block the flow of 
drugs flowing through the Gulf Coast region.
    Mr. Rosenberg. Certainly, Congressman. And what you are 
seeing in Mississippi, sadly, is being replicated everywhere in 
this country. It is an epidemic.
    Let me give you a little context, if I may. We have about 
4,600 men and women who are Special Agents of the DEA, we have 
another 2,600 some-odd Task Force Officers. So they are 
literally, not just figuratively, but literally a force-
multiplier for us. Something like 35 percent of our law 
enforcement cadre are TFOs, state and local officers assigned 
to work with us on task forces around the country, including 
throughout the Gulf Coast. So it is enormously important.
    If I may add one other point about that, sir? The 
suspension in the Equitable Sharing Program has caused some 
TFOs, the sky isn't falling yet, but some TFOs to drift away 
from our task forces, and it is something I worry about and I 
hope we can get the Equitable Sharing Program turned back on.
    But the task force environment, whether it is HIDTA or 
OCDETF, is enormously important to our work and to our mission.
    Mr. Palazzo. Well, thank you. And I hope we the Equitable 
Sharing Program back on as well, because I have heard from 
local law enforcement officers, as well as district attorneys, 
how important that is.
    Recently, the Commandant of the Coast Guard testified 
before Congress that we have actionable intelligence on 80 to 
85 percent of known drug trafficking, yet because of resource 
restrictions we are only able to intercept and prosecute 20 
percent of those occurrences. One of the biggest issues facing 
the Coast Guard is the lack of available ships. You know, I am 
a big proponent of catching the bad guys and the drugs before 
they actually make it into our backyard.
    So could you comment a little bit on the interagency 
partnerships that you have at the DEA, specifically with the 
Coast Guard?
    Mr. Rosenberg. The Coast Guard is an important part of what 
we do, particularly with respect to their intelligence and 
interdiction work; I have tremendous respect for them. And I 
will point out, my dear, departed father was a Coastie, so I 
have long admired the Coast Guard.
    Through our El Paso Intelligence Center we have a number of 
intelligence community partners, state and local partners and 
DOD partners, including the Coast Guard, that contribute to our 
mission and to our intelligence sharing. So I am enormously 
grateful to the Coast Guard, not just for the experience they 
gave my dad as a young man, but what they do for our mission.
    Mr. Palazzo. Well, so basically you would agree with me, if 
the Coast Guard had more ships, we could intercept more drugs 
before they came to the United States?
    Mr. Rosenberg. If we all had more stuff, we probably could 
do more with it. It is a challenge throughout government, as 
you well know. We try and make do with what we have.
    Mr. Palazzo. Well, it is a serious issue. And, again, drugs 
do rip apart families and communities, which leads me into my 
last question and I will make it fast, is what we are seeing in 
rural areas is the spread of methamphetamines and the 
production of methamphetamines. In fact, 17 percent of all drug 
convictions in the state are related to meth.
    In 2010, we tried to slow this growth down by looking at 
the precursors of meth manufacturing and we basically required 
a prescription for, you know, pseudoephedrine and ephedrine, 
and it has worked, it slowed down. People still go to the 
bordering states, but we are capturing people, you know, that 
are going in and purchasing these precursors more. I think it 
is something that is going to devastate our entire nation.
    Can you tell me, what is the DEA doing to basically combat 
meth production and use in rural communities around the United 
States?

                               ANTI-METH

    Mr. Rosenberg. We are trying to approach it, sir, the way 
we approach these other aspects of the drug epidemic. A lot of 
the meth that we see in the United States actually comes out of 
Mexico.
    Several years ago we had a number of large clandestine labs 
in the U.S. producing meth. Most of the meth labs in the United 
States now are what we call one-pot labs, meaning very small 
with very small yields. We are seeing the precursor chemicals 
going into Mexico, into much larger labs, and then coming 
across our border.
    So, again, it is probably threefold. It is attacking the 
supply. It certainly has, you know, connections to the 
diversion problem. And then it is that education, prevention, 
treatment, outreach component, the demand reduction.
    So we are throwing everything at it. It is a tough battle.
    Mr. Palazzo. Well, I appreciate your testimony. And if I 
can ask one last question, since we are kind of sparse with 
members right now.
    What is the one thing that you wish you had that could make 
your job easier, and that you could protect families and 
protect communities and protect our most valuable resource, our 
children, against the scourge of drugs today?
    Mr. Rosenberg. I wish I had a day where I could talk to 
everybody at once and they would listen to me. I know that 
sounds like a soft answer to a legitimate question. I struggle 
with how do we get this message out, because I really don't 
think supply-side law enforcement interdiction alone will win 
the day or do the trick.
    I feel like what I have learned in my ten months at the DEA 
is both astonishing and frightening, and that if I could 
somehow convince people that we really, really do have an 
epidemic, and tell them how it starts and where it goes. And I 
know it sounds like a soft answer, but that is what I would 
love to do. I would love to have people listen to me just for a 
day. It seems unlikely.
    Mr. Palazzo. Well, I hope more people listen and I thank 
you for your testimony.
    Mr. Chairman, thank you for your time.
    Mr. Rosenberg. Thank you, Congressman.
    Mr. Culberson. Thank you. Thank you, Mr. Palazzo.
    In addition to DEA's appropriation, the committee provides 
over $500 million for drug task forces, OCDETF, which fund both 
investigative and prosecution costs to combat major drug 
organizations. Could you describe how OCDETF, how that process 
works in comparison with DEA's own task forces?
    And should the DEA, FBI and other investigative agencies 
and U.S. Attorneys get their money in their own accounts or, in 
your opinion, does that OCDETF process work well?
    Mr. Rosenberg. Strangely, Mr. Chairman, we just call that 
OCDETF. I don't know quite how that word comes from those 
letters.
    Mr. Culberson. It is tough.
    Mr. Rosenberg. But the OCDETF task forces are an important 
part of who we are and what we do.
    I do like the task force concept, whether it is OCDETF or 
HIDTA. I believe there are 12 OCDETF strike forces around the 
country, they are funded through the Department, I think, I 
believe, and I think nine of the twelve are DEA-led.
    And when you look at the number of cases that we open--so 
OCDETF, generally speaking, are our largest, most important 
cases. It would be transnational, organized criminal gangs and 
the like, violent international cartels and the unholy 
alliances that they have with street gangs in the U.S. So when 
you say OCDETF, it is almost a synonym for our most important 
stuff.
    And of the OCDETF cases that we opened in the last fiscal 
year government-wide, something like 80 percent--I don't know 
the exact number, but I can get it for you--are DEA-led cases 
or DEA cases. So it is a big part of who we are and what we do. 
I like the concept and it works well for us.
    And as I mentioned, nine of the twelve OCDETF strike forces 
around the country are led by DEA agents. So it is a good 
vehicle for us and these are important cases.
    I still don't know why we say OCDETF, but----
    Mr. Culberson. It is a tough one.
    Mr. Rosenberg. It is a tough one.
    Mr. Culberson. Should the DEA, FBI and other agencies and 
U.S. Attorneys get this money in their own accounts, or does 
the way it is currently set up work well?
    Mr. Rosenberg. I think the way it is currently set up works 
well. I would have to give that a little more thought, because 
I don't really know and I have not focused on that question, 
sir. So if you don't mind----
    Mr. Culberson. Not at all.
    Mr. Rosenberg [continuing]. I would be happy to get back to 
you on that with some further thoughts.

                                 CYBER

    Mr. Culberson. Your request also calls for $7\1/2\ million 
in additional staff to enhance internal cyber security and 
combat potential insider threats. Could you describe what these 
are and what the DEA is currently doing to address these 
challenges?
    Mr. Rosenberg. Yes, sir. And I am pleased that the 
President's budget provides for that.
    Cyber security generally is so we can protect our stuff 
from the outside, from intrusions, and we have all seen far too 
many of those, sadly and unfortunately. Targeted not just at 
government, but at private individuals and private sector 
companies. So we want to make sure that our systems are secure 
as can be.
    The insider threat piece is a cousin to that. I want to 
make sure, because I was an Assistant U.S. Attorney in the 
Eastern District of Virginia where Aldrich Ames, the CIA spy, 
was prosecuted and where Robert Hanssen, the FBI spy, was 
prosecuted, that our stuff is secure from an insider threat.
    I have wonderful men and women, but if one day one of them 
decides not to be so wonderful, if one day one of them comes in 
and wants to, you know, copy all of our confidential source 
files to a thumb drive at 2:00 in the morning, I need to see 
that and I need to know about that.
    The most important resource we have is our people and 
protecting them is paramount. But second to that, of course, it 
is our information. Our confidential source files, our 
investigative files. I can't lose that. And so I need to build 
a capacity internally not to watch people through their bedroom 
windows, not to look in their bank accounts, but to know that 
if somebody is engaging in strange behavior, and by that I mean 
strange electronic behavior, I got to make sure that my files 
are secure, so that my people are secure, and the President's 
budget provides us money I think to do that.
    Mr. Culberson. Thank you.
    Mr. Honda.

                               MARIJUANA

    Mr. Honda. Thank you, Mr. Chairman.
    Administrator Rosenberg, as you know, many states are 
legalizing medical marijuana and a few have legalized 
recreational marijuana. And it seems like our country's view on 
this has shifted significantly in recent years, and at the same 
time we are seeing a surge in costs both in terms of lives and 
funding due to the spike in opioid and heroin addiction, and I 
think it might be time to shift where we focus our enforcement 
resources.
    Do you think that it is time to have a conversation about 
rescheduling marijuana under the Controlled Substances Act? And 
from the perspective of DEA, would there ever be a circumstance 
where you would support rescheduling?
    Mr. Rosenberg. So under the Controlled Substances Act, Mr. 
Honda, something is put into Schedule I, as marijuana currently 
is, if there is a potential for abuse and if there is no 
recognized safe and effective medical use.
    And so if it turned out one day that there was a recognized 
safe and effective medical use, and I don't want to quibble 
over words, by recognized I rely on the FDA for its science, 
then it could certainly be moved out of Schedule I. But as long 
as those are the criteria for placement in Schedule I and as 
long as the FDA continues to tell me with their very good 
doctors and scientists that there is no recognized safe and 
effective medical use, I think it is properly classified.
    Now, I also take your point that the conversation has 
shifted, but I am a law enforcement officer.
    Mr. Honda. I understand that.
    Mr. Rosenberg. It is illegal under Federal law. I have told 
my Special Agents in Charge to make the most important cases in 
their jurisdictions, typically that is not marijuana, typically 
that is heroin or opioids or synthetics or meth and the like. 
But I have also told them, as I mentioned earlier, where there 
is a significant marijuana case where it is a violent cartel, 
where they are distributing to minors, where it meets the 
criteria of the Cole memo, go do it. It remains illegal under 
Federal law and my job is to enforce the law.
    I am sorry for the long-winded answer.
    Mr. Honda. No, no, it is fine.
    I think, being in the position that you are, you have 
limited wiggle room in terms of upholding the law and following 
it. And asking for your opinion and getting a response like it 
is our scientific evidence that shows that there is some 
legitimate uses in medicine or in other arenas, that the 
conversation probably should take place.
    Mr. Rosenberg. And I think that is fair, but I have to rely 
not on a vote or on public opinion, but on the science of the 
FDA, that is sort of my guiding principle here.
    But I will say this. I think this is really important and 
sometimes gets lost in the debate, sir. The DEA has 469 
individuals registered with us, with our permission, to do 
research on Schedule I controlled substances. Of those 469, and 
I hope I am getting my numbers right, 254 are researching 
marijuana and its constituent parts. We have never, never 
turned down a legitimate request for research on marijuana.
    If I break it down further for you and make you feel a 
little bit better, 85 of those researchers are researching 
cannabidiol (CBD), which may turn out to prove effective for 
treatment of certain illnesses, including possibly childhood 
epilepsy, and another 17 of the researchers are actually 
working on smoked marijuana using human subjects.
    I completely and fully support research, we have got to do 
that. And in fact we are making provisions to make applying for 
permits to do research easier. We have recently issued 
modifications, or I should say, amendments, so that researchers 
who want to modify their work have an easier time in doing 
that. If we are going to be grounded in science, we have to 
support the work of scientists.
    And if it turns out that there is something in marijuana or 
marijuana itself that is effective against childhood epilepsy, 
I promise you I will be at the front of the parade, leading the 
band.
    Mr. Honda. No, I understand your response. And my brother 
was a Federal parole officer and, you know, he had certain 
things he had to follow too.
    Mr. Rosenberg. Yes, sir.
    Mr. Honda. So I completely understand your response.
    Mr. Rosenberg. Yes, sir.
    Mr. Honda. Another cut on this. In the final fiscal year 
2016 omnibus carried the medical marijuana language which 
prohibits DEA from preventing States from implementing their 
own laws that authorize the use, distribution, possession, and 
cultivation of medical marijuana. We have heard of incidents 
where DEA and the Department of Justice are still pursuing 
these cases.
    Without commenting on specific cases, is it the policy of 
DEA to investigate any dispensaries that operate under the 
State law? And is DEA disregarding the law that Congress 
passed?
    Mr. Rosenberg. I am familiar with the provision, I think it 
was section 542 of the omnibus bill, and I know it became an 
issue in a case out of the Northern District of California 
decided by Judge Breyer, United States v. Marin Alliance. So I 
am certainly familiar with it.
    I am not a constitutional scholar, but nothing in section 
542 mentions the Controlled Substances Act, and so I don't 
think anything in section 542 in any way undermines our Federal 
law enforcement or civil enforcement authority under section 
542. Smarter people than me, and there are many of them at the 
Department of Justice, are noodling through this right now. I 
don't know Judge Breyer. I have great respect for the Federal 
District Judges of this country, I practiced in front of many, 
but I don't believe that his reading of section 542 is right 
and I think the Department has taken an opposite view.
    I do know as sort of a principle of statutory construction 
that if an Act of Congress is not specifically--I think this is 
right--refuted, repealed by another act, and that there is some 
way to read them so that they live together peacefully, then 
they can. And I think that is what we have here, that we can 
continue to enforce Federal law under the Controlled Substances 
Act. What we cannot do pursuant to that amendment, I believe, 
is prohibit the States from implementing their own regulations.
    So, again, there are people far smarter than me at the 
Department who can give you a better answer, but I don't see it 
as precluding our Federal law enforcement work.
    Mr. Honda. I think I followed your noodling.
    Mr. Rosenberg. Yeah, it was some significant noodling. So 
thank you for bearing with me.
    Mr. Honda. Thank you.
    Thank you, Mr. Chairman.
    Mr. Culberson. Any other questions we will just submit for 
the record, to have you be able to answer them in more detail.
    Mr. Rosenberg. I would be delighted.
    Mr. Culberson. Any further questions?
    Mr. Honda. Well, a real quick one, if I may.
    Mr. Culberson. Sure.
    Mr. Honda. This impact that the war on drugs has had on 
levels of incarceration in our nation's prisons, both at the 
State and Federal level, this has been a particularly harsh 
impact on minority communities, many of which have seen large 
segments of their population jailed for drug offenses. Criminal 
justice reform is currently being debated both in Congress, as 
well as the legislatures across this nation. As we have those 
conversations, I think input from law enforcement is important 
to hear.
    So the question would be, is there a way to wage a smarter 
war on drugs? And I think you spoke a little bit about that in 
terms of priorities and how you would approach it, but is there 
a smarter way of approaching the war on drugs that still puts 
violent criminals in jail while doing a better job of rehabbing 
those who are low-level, non-violent offenders?
    Mr. Rosenberg. Well, I think our 360 strategy gets at some 
of that, Mr. Honda, by also emphasizing education, you know, 
prevention and demand reduction.
    But also if we are doing our jobs right, and I have urged 
our Special Agents in Charge to follow this edict, we have to 
do the biggest, most important cases in the country, we 
shouldn't be doing low-level offenders. We are not busting kids 
in their UCLA dorm rooms for smoking dope. We are going after 
big, violent, international cartels and street gangs, that 
unholy alliance I spoke of earlier. As long as we focus our 
work there, I think we are smart on crime.
    Mr. Culberson. Administrator Rosenberg, we deeply 
appreciate your service to the country. I will have a number of 
other questions we will submit for the record.
    And, again, we will do our very best in this tight budget 
environment to give you the support that you need so you can 
continue your important mission. We thank you so much for 
looking after the welfare of our kids and the country.
    Mr. Rosenberg. Mr. Chairman, Mr. Ranking Member, it is a 
privilege. Thank you for having me here today.
    Mr. Culberson. Thank you very much, sir.
    And the hearing is adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Comey, Hon. James B., Director, Federal Bureau of Investigation..    52
Lynch, Hon. Loretta, Attorney General, U.S. Department of Justice     3
Rosenberg, Hon. Chuck, Acting Administrator, Drug Enforcement 
  Administration.................................................    95

                                  [all]
</pre></body></html>
